<html>
<title> - EXAMINING THE NATIONAL RESPONSE TO THE WORSENING CORONAVIRUS PANDEMIC: PART II</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 EXAMINING THE NATIONAL RESPONSE TO THE 
                  WORSENING CORONAVIRUS PANDEMIC: 
                                PART II

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2020

                               __________

                           Serial No. 116-80

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
43-868 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                                Witness

Mr. Peter T. Gaynor, Administrator, Federal Emergency Management 
  Agency:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Letter From City of Houston, Health and Fire Departments.......    68
  Article, July 20, 2020.........................................    69
  Image..........................................................    70
The Honorable Dina Titus, a Representative in Congress From the 
  State of Nevada:
  Letter, July 13, 2020..........................................    57
  Letter, July 9, 2020...........................................    58

                                Appendix

Questions From Chairman Bennie G. Thompson for Peter T. Gaynor...    75
Questions From Ranking Member Mike Rogers for Peter T. Gaynor....    77

 
EXAMINING THE NATIONAL RESPONSE TO THE WORSENING CORONAVIRUS PANDEMIC: 
                                PART II

                              ----------                              


                        Wednesday, July 22, 2020

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:08 a.m., in 
room 2118, Rayburn House Office Building and via Webex, Hon. 
Bennie G. Thompson (Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Richmond, 
Payne, Rice, Correa, Torres Small, Rose, Underwood, Slotkin, 
Cleaver, Green of Texas, Clarke, Titus, Watson Coleman, 
Barragan, Demings, Rogers, Katko, Higgins, Lesko, Green of 
Tennessee, Joyce, Crenshaw, Guest, and Bishop.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on ``Examining the National Response to the Worsening 
Coronavirus Pandemic: Part Two.''
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    To remind Members, we are following the Attending 
Physician's guidance on wearing face coverings at all times 
while not under recognition, and the Chair will only recognize 
those who are following the guidance.
    Today the Committee on Homeland Security is meeting for 
Part II of our hearing to examine the National response to the 
worsening coronavirus pandemic. Two weeks ago, the committee 
heard from the State and local officials about how the Trump 
administration's failure to respond to the pandemic has harmed 
their communities and our Nation.
    We invited FEMA Administrator Peter Gaynor to that hearing, 
but he declined to attend based on White House guidance 
prohibiting administration witnesses from appearing before 
Congress remotely. To be clear, that self-imposed guidance is 
intended to undermine Congressional oversight of the 
administration. But the committee will move forward with its 
work today.
    I would note that the committee also invited the Department 
of Health and Human Services to participate in this hearing. 
HHS refused to send a witness, even though the committee 
scheduled this in-person hearing to accommodate the 
administration's request. That refusal is yet another example 
of the Trump administration shirking its responsibility to 
answer to Congress and the American people on its bungled 
response to COVID-19.
    That being said, we are pleased that Administrator Gaynor 
is here to respond to Members' questions about the pandemic, 
which has now claimed lives of over 140,000 Americans. The 
number of U.S. coronavirus cases continues to surge, with 
60,000 new cases just yesterday. The country also recorded more 
than 1,000 coronavirus deaths in a single day, yesterday, for 
the first time in July.
    Nations around the world, like Canada, Australia, Japan, 
Korea, and many in Europe have managed to bring their outbreaks 
under control through coordinated responses, consistent 
messaging, and measures, such as face coverings, testing, and 
contact tracing.
    But here at home the Trump administration's response to the 
coronavirus has been an abject failure, and the American people 
have suffered the consequences. The President's gross 
incompetence and incoherent plan to respond to the pandemic has 
cost lives.
    South Korea reported in its first COVID-19 case the same 
day as the United States, but we have suffered 470 times the 
number of deaths they have. Tragically, in many ways, we are no 
more prepared now to address the pandemic today than we were at 
its outset.
    We still have a shortage of medical supplies and equipment, 
like masks, gowns, and gloves. Wait times for COVID-19 tests 
results are climbing. Most alarmingly, there is an urgent 
demand for ICU beds in States where the virus is spinning out 
of control.
    Doctors and nurses in the greatest country on Earth should 
not have to plea for the essentials they need to save lives and 
protect their own. Just yesterday, months into the pandemic, 
after repeated calls for face coverings from doctors and 
scientists in his own administration, the President finally 
called on Americans to wear a mask. We are hoping that this is 
an indication that President Trump may, at long last, be 
willing to take the advice of the experts on responding to the 
pandemic.
    We need real leadership at the Federal level if our country 
is to overcome the COVID-19 pandemic and prevent more lives 
from being lost needlessly. Administrator Gaynor and his agency 
have a Herculean task ahead in many ways, made all the 
difficult by the President himself.
    Today our hearing is not about blaming China for the Trump 
administration's failure to take care of its own people. 
Frankly, we do not have time for such ridiculous attempts to 
distract from the crisis at hand. Instead, I hope to hear from 
Administrator Gaynor today about where we currently stand and 
how the administration can improve its response to the public 
health emergency. The American people are counting on us.
    I thank Administrator Gaynor and my colleagues for 
participating in this hearing today.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             July 22, 2020
    Two weeks ago, the committee heard from State and local officials 
about how the Trump administration's failure to respond to the pandemic 
has harmed their communities and our Nation.
    We invited FEMA Administrator Peter Gaynor to that hearing, but he 
declined to attend based on White House guidance prohibiting 
administration witnesses from appearing before Congress remotely. To be 
clear, that self-imposed ``guidance'' is intended to undermine 
Congressional oversight of the administration, but the committee will 
move forward with its work today.
    I would note that the committee also invited the Department of 
Health and Human Services to participate in this hearing. HHS refused 
to send a witness even though the committee scheduled this in-person 
hearing to accommodate the administration's request. That refusal is 
yet another example of the Trump administration shirking its 
responsibility to answer to Congress and the American people on its 
bungled response to COVID-19.
    That being said, we are pleased that Administrator Gaynor is here 
to respond to Members' questions about the pandemic, which has now 
claimed the lives of over 140,000 Americans. The number of U.S. 
coronavirus cases continues to surge, with 60,000 new cases yesterday. 
The country recorded more than 1,000 coronavirus deaths in a single day 
yesterday, for the first time in July.
    Nations around the world like Canada, Australia, Japan, Korea, and 
many in Europe have managed to bring their outbreaks under control 
through coordinated responses, consistent messaging, and measures such 
as face coverings, testing, and contact tracing. But here at home, the 
Trump administration's response to the coronavirus has been an abject 
failure, and the American people have suffered the consequences. The 
President's gross incompetence and incoherent plan to respond to the 
pandemic has cost lives.
    South Korea reported its first COVID-19 case the same day as the 
United States, but we have suffered 470 times the number of deaths they 
have. Tragically, in many ways we are no more prepared now to address 
the pandemic today than we were at its outset.
    We still have a shortage of medical supplies and equipment, like 
masks, gowns, and gloves. Wait times for COVID-19 test results are 
climbing. And most alarmingly, there is an urgent demand for ICU beds 
in States where the virus is spinning out of control. Doctors and 
nurses in the greatest country on earth should not have to plead for 
the essentials they need to save lives and protect their own.
    Just yesterday, months into the pandemic, after repeated calls for 
face coverings from doctors and scientists in his own administration, 
the President finally called on Americans to wear masks. We are hoping 
this is an indication President Trump may, at long last, be willing to 
take the advice of the experts on responding to the pandemic. We need 
real leadership at the Federal level if our country is to overcome the 
COVID-19 pandemic and prevent more lives being lost needlessly.
    Administrator Gaynor and his agency have a Herculean task ahead, in 
many ways made all the more difficult by the President himself. Today, 
our hearing is not about blaming China for the Trump administration's 
failures to take care of its own people. Frankly, we do not have time 
for such ridiculous attempts to distract from the crisis at hand.
    Instead, I hope to hear from Administrator Gaynor today about where 
we currently stand and how the administration can improve its response 
to this public health emergency. The American people are counting on 
us.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    I am glad we are finally meeting in person. Our experiment 
with virtual hearings hadn't gone all that well. Nearly 
everyone was marred by technical issues that caused prolonged 
delays and frustrated Members on both sides of the aisle. Going 
forward, I hope we will continue to have these in-person 
hearings.
    Doing so improves our productivity and facilitates 
participation by administration witnesses, like Mr. Gaynor.
    I understand your frustration with the administration's 
restrictions on appearing at virtual hearings, that is why I 
appreciate your working with FEMA to facilitate the 
administrator's in-person testimony today.
    As I said before, our hearts go out to those who have lost 
their loved ones to COVID-19 and those who are currently 
undergoing treatment. COVID-19 is an unprecedented global 
pandemic that requires an unprecedented response.
    Unfortunately, the administration's response effort was 
undermined from the start as China hid the disease from the 
world. The Chinese Communist Party hoarded life-saving medical 
supplies while they encouraged foreign travel, seeding the 
virus across the globe.
    Facing an extraordinary public health crisis and China's 
deadly cover-up, the Trump administration has responded with a 
whole-of-Government response. Since March, FEMA has helped lead 
the response effort. The agency has coordinated the delivery of 
over 20 billion items of PPE to medical personnel, emergency 
responders, and critical infrastructure workers, administered 
56 major disaster declarations covering every State and 
territory, and obligated over $145 billion to support Federal, 
State, and local response.
    While those efforts should be commended, more hard work is 
ahead. The number of positive cases continue to rise, and 
hospitals in some areas are reaching capacity. Demands for PPE 
and response funding from FEMA will continue to grow. I am 
interested in hearing from the administrator about what our 
States need, where the bottlenecks exist in supply chain, and 
whether our domestic manufacturing capacity for PPE and medical 
supplies is sufficient.
    As hurricane season heats up, I am also interested to hear 
FEMA's plan to deal with the COVID crisis while managing 
response to major natural disasters. Our country has faced 
outbreaks of serious disease in the past. In each case, we have 
marshaled our collective resources and ingenuity to overcome 
the crisis. I am confident that will be the case with COVID-19.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
    Thank you, Mr. Chairman.
    I'm glad we are finally meeting in person. Our experiment with 
virtual hearings hasn't gone very well.
    Nearly everyone was marred by technical issues that caused 
prolonged delays and frustrated Members on both sides.
    Going forward, I urge you to hold all of our hearings in person.
    Doing so improves our productivity and facilitates participation by 
administration witnesses, like Administrator Gaynor today.
    I understand your frustration with the administration's 
restrictions on appearing at virtual hearings. That's why I appreciate 
your working with FEMA to facilitate the administrator's in-person 
testimony.
    As I said before, our hearts go out to those who have lost their 
loved ones to COVID-19 and those who are currently undergoing 
treatment.
    COVID-19 is an unprecedented global pandemic that requires an 
unprecedented response.
    Unfortunately, the administration's response effort was undermined 
from the start as China hid the disease from the world.
    The Chinese Communist Party hoarded life-saving medical supplies, 
while they encouraged foreign travel, seeding the virus across the 
globe.
    Facing an extraordinary public health crisis and China's deadly 
cover-up, the Trump administration has responded with a whole-of-
Government response.
    Since March, FEMA has helped lead the response effort. The agency 
has----
  <bullet> Coordinated the delivery of over 20 billion items of PPE to 
        medical personnel, emergency responders, and critical 
        infrastructure workers;
  <bullet> Administered 56 major disaster declarations covering every 
        State and territory; and
  <bullet> Obligated over $145 billion to support Federal, State, and 
        local response.
    While those efforts should be commended, more hard work is ahead.
    The number of positive cases continue to rise and hospitals in some 
areas are reaching capacity.
    Demands for PPE and response funding from FEMA will continue to 
grow.
    I am interested in hearing from the administrator about what our 
States need, where the bottlenecks exist in the supply chain, and 
whether our domestic manufacturing capacity for PPE and medical 
supplies is sufficient.
    As hurricane season heats up, I am also interested to hear FEMA's 
plan to deal with the COVID crisis, while also managing response to a 
major natural disaster.
    Our country has faced outbreaks of serious disease in the past.
    In each case, we've marshalled our collective resources and 
ingenuity to overcome the crisis.
    I'm confident that will be the case with COVID-19.
    Thank you, Mr. Chairman. I yield back.

    Chairman Thompson. Other Members of the committee are 
reminded that, under committee rules, opening statements may be 
submitted for the record.
    As you know, most of--our committee room is too small, and 
that is why we are meeting here in the Armed Services Committee 
to accommodate the full committee. I thank them for allowing us 
to use their committee room.
    Members are also reminded that the committee will operate 
according to the guidelines laid out by myself and the Ranking 
Member in our July 8 colloquy.
    I welcome our witness. We have with us here today the 
honorable Peter Gaynor, FEMA administrator. Administrator 
Gaynor was confirmed by the Senate on January 14, 2020. Prior 
to his current role, he served as acting administrator for 10 
months and was previously confirmed to serve as FEMA's deputy 
administrator in October 2018.
    Administrator Gaynor previously served as the director of 
the Rhode Island Emergency Management Agency. Before his 
emergency management career, Administrator Gaynor served in the 
United States Marine Corps for 26 years.
    Without objection, the witness' full statement will be 
inserted in the record.
    I now ask Administrator Gaynor to summarize his statement 
for 5 minutes.

STATEMENT OF PETER T. GAYNOR, ADMINISTRATOR, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Gaynor. Good morning, Chairman Thompson, Ranking Member 
Rogers, and distinguished Members of the committee. My name is 
Pete Gaynor, and I am the FEMA administrator. Thank you for 
this opportunity to discuss the actions taken by FEMA to 
protect the health and safety of the American people during the 
COVID-19 pandemic.
    On behalf of the men and women of FEMA, I would like to 
begin by offering my condolences to the loved ones of over 
142,070 Americans who have lost their lives to COVID-19. One 
life lost is one life too many, and our hearts go out to all 
those that have been affected by the pandemic.
    This has been a trying time for our country, and FEMA has 
been working around the clock to help our Nation respond to 
this historic global pandemic and other natural disasters. As 
the FEMA administrator, it has been my honor to work alongside 
the dedicated professionals of FEMA.
    Today, I want to acknowledge that work force and our many 
partners for their commitment to the Nation during this 
response. This response continues to be one that is locally 
executed, State-managed, and Federally-supported.
    President Trump made the unprecedented decision to declare 
a National Nation-wide emergency on March 13, and since that 
time, the entire team has worked tirelessly to make a positive 
impact, and many have risked their own health and safety to do 
so.
    For the first time in American history, we have a major 
disaster declaration in every State, territory, and the 
District of Columbia, and one Tribe concurrently. Today, FEMA 
is responding to 114 active disasters and 97 emergencies. The 
magnitude of this pandemic has required us to re-examine our 
past practices and to keep the risk to our staff as low as 
possible, all the while refusing to fail in meeting our 
mission.
    COVID-19 has been a global crisis with most countries 
competing for the exact same medical supplies. Every government 
across the Nation has been competing for the same resources, 
such as personal protective equipment, or PPE. To further 
complicate matters, most PPE is made in Asia where the virus 
significantly slowed manufacturing and where U.S. law has 
limited authorities.
    During more common natural disasters, FEMA typically 
manages an abundance of resources for disasters that are 
limited in geographic scope and impact. In responding to COVID-
19, FEMA has met a more difficult task of managing the lack of 
critical medical supplies and equipment. Rather than managing 
resources, we are managing shortages.
    We have worked tirelessly to find medical supplies and 
equipment across the globe and rapidly move them to America. We 
quickly prioritized resources to ensure that locations with the 
highest risk of COVID-19 cases and deaths would not be in 
danger of running out of supplies and life-saving equipment.
    Using the HHS Strategic National Stockpile early on, it 
became clear that the scope and scale of this pandemic went far 
beyond what the stockpile was designed for. It could not be 
relied upon as the single solution for pandemic supplies in the 
United States.
    To address these wide-spread shortages, the supply chain 
stabilization task force was swiftly assembled by FEMA and its 
Federal partners. In less than 10 days we established an 
Airbridge to expedite critical supplies already purchased and 
owned by some of the Nation's largest medical distributors with 
the goal of providing temporary relief until supply chains 
could begin to stabilize. Our goal was to supplement not 
supplant.
    This Airbridge cut international shipments from 37 days by 
sea to just 1 day by air. From March 29 through July 1, we have 
completed over 249 flights carrying life-saving supplies to the 
American public.
    In addition to expediting supplies into the United States, 
the Federal response has focused on stabilizing the lives of 
Americans in many impactful ways. Since March 13, we have 
provided over $8.4 billion in obligations to States for COVID-
19-related activities, with the first $1 billion obligated in 
just 11 days.
    Another $1.7 billion has been allocated in support of title 
32 National Guard troops, as well as the deployment of 5,300 
DOD title 10 medical professionals who have provided critical 
medical support to numerous hospitals under stress.
    To further bolster the medical infrastructure of our 
country, FEMA, through mission assignments to the U.S. Corps of 
Engineers, constructed 38 alternate care facilities and 
deployed 41 Federal medical stations. As part of the 
administration's testing blueprint, FEMA has procured and 
delivered more than 41 million swabs and 32 million units of 
media.
    While we continue to respond to COVID-19, we want to ensure 
that we are using all our available assets and resources to 
address these critical shortfalls. To do so, the Federal 
Government has utilized the Defense Production Act to increase 
the amount of medical equipment manufactured domestically to 
ensure our Nation's future preparedness is not overly reliant 
on foreign producers.
    This increase of domestic manufacturing will also allow 
FEMA to pivot toward hurricane season preparations as well as 
other natural disasters. As part of this pivot, FEMA recently 
released a planning guidance for the 2020 hurricane season to 
help local officials best prepare for more common disasters in 
the context of a pandemic. The operational guidance is 
scalable, flexible, and functions as an all-hazards planning 
document.
    Regardless of the challenges FEMA will continue to 
confront, the bedrock of our mission remains constant: To 
protect the American people before, during, and after 
disasters. The framework by which we accomplish this remains 
unchanged. Responses are most effective when they are locally-
executed, State-managed, and Federally-supported. The Nation is 
counting on us to accomplish our mission, and we will do so in 
accordance with our core values of compassion, fairness, 
integrity, and respect.
    This unprecedented response to the COVID-19 pandemic will 
continue to require a whole-of-America effort, and FEMA looks 
forward to coordinating closely with Congress as we work 
together to protect the lives of the American people.
    I would like to thank the committee for authorizing the 
many resources necessary for FEMA to meet these historic 
mission requirements and for the opportunity to testify today, 
and I look forward to your questions from the committee today. 
Thank you.
    [The prepared statement of Mr. Gaynor follows:]
                 Prepared Statement of Peter T. Gaynor
                             July 22, 2020
    Good morning, Chairman Thompson, Ranking Member Rogers, and 
distinguished Members of the committee. My name is Pete Gaynor, and I 
am the administrator of the Federal Emergency Management Agency (FEMA). 
Thank you for the opportunity to discuss FEMA's response and the 
actions currently under way to protect the American people during the 
coronavirus (COVID-19) pandemic, as well as the agency's on-going 
engagement with the emergency management community to enhance disaster 
preparedness within a COVID-19 environment.
    On behalf of the men and women of FEMA, I would like to begin by 
offering my condolences to the loved ones of the 140,000 Americans who 
have lost their lives to COVID-19. One life lost is one life too many, 
and our hearts go out to all those who have been affected by the 
pandemic.
    For the first time in the United States' history, there are 114 
concurrent Major Disaster Declarations--at least 1 in every single 
State, 5 territories, the Seminole Tribe of Florida, and the District 
of Columbia. From islands across 2 oceans to the cities and farms of 
America's heartland, the scale of this historic event has required FEMA 
to adapt its response practices and workforce posture in order to both 
respond to COVID-19 and simultaneously maintain mission readiness for 
more common disasters such as hurricanes, earthquakes, floods, or 
wildfires.
    Regardless of the challenges that FEMA continues to confront, the 
bedrock of our mission remains constant: Helping people before, during, 
and after disasters. The Nation is counting on us to accomplish our 
mission, and we will do so in accordance with our core values of 
compassion, fairness, integrity, and respect.
    Since March 13, FEMA has obligated over $8.3 billion from the 
Disaster Relief Fund to support State, local, Tribal, and territorial 
(SLTT) partners in their COVID-19 response-related activities, with the 
first $1 billion obligated in 11 days. One-point-six-seven billion 
dollars has been allocated in support of the National Guard and Title 
32 troops, as well as the deployment of 5,300 DOD Title 10 medical 
professionals who have provided critical medical support to numerous 
hospitals under stress. To further bolster the medical infrastructure 
of SLTT partners, we have constructed 38 Alternate Care Facilities and 
deployed 41 Federal medical stations through mission assignments to the 
U.S. Army Corps of Engineers.
    As part of the whole-of-America response, as of July 10, FEMA, HHS, 
and the private sector combined have coordinated the delivery of 
approximately 181.8 million N-95 respirators, 746.5 million surgical 
masks, 30.6 million face shields, 329.1 million surgical gowns, and 
over 19.1 billion gloves.
    FEMA's unprecedented support for SLTT partners extends well beyond 
financial support or the distribution of personal protective equipment 
(PPE). FEMA's response has served to stabilize lives in the most 
fundamental ways, as demonstrated by the distribution of $27 million in 
commodities through services such as emergency food shipments, and 
$56.5 million in support for crisis counseling across 53 States and 
territories providing free, confidential counseling through community-
based outreach and educational services.
    I would like to thank the Members of this committee for authorizing 
many of the resources FEMA and SLTT partners need to meet these complex 
and historic mission requirements, as well as prepare for future 
disaster considerations. Today's testimony will offer an overview of 
FEMA response efforts and strategies for COVID-19, some of the lessons 
we have learned, and implementable planning considerations as we pivot 
to prepare for future disasters during a pandemic response.
                       overview of fema response
    On March 13, 2020, President Trump declared a Nation-wide emergency 
pursuant to section 501(b) of the Robert T. Stafford Disaster Relief 
and Emergency Assistance Act (Stafford Act). As part of this 
unprecedented Nation-wide declaration, all SLTT partners became 
immediately eligible for FEMA Public Assistance (PA) Category B, 
emergency protective measures as authorized by section 403 of the 
Stafford Act and funded by the Disaster Relief Fund. Such assistance 
includes, but is not limited to, funding for Alternate Care Facilities, 
Tribal medical centers, non-congregate sheltering, community-based 
testing sites, disaster medical assistant teams, mobile hospitals, 
emergency medical care, and the transportation and distribution of 
necessary supplies such as food, medicine, and personal protective 
equipment.
    Subsequent to the President's Nation-wide emergency declaration, 
all States, territories, and some Federally-recognized Tribes requested 
Major Disaster Declarations. To date, all 50 States, 5 territories, the 
District of Columbia, and the Seminole Tribe of Florida have been 
approved for Major Disaster Declarations to assist with additional 
needs. FEMA is also working directly with 85 Tribal governments under 
either the Nation-wide emergency declaration or a Major Disaster 
Declaration.
    In keeping with the Stafford Act, FEMA allocates funding to cover 
75 percent of costs of Public Assistance, and SLTT governments are 
responsible for the remaining 25 percent. To help SLTT governments 
nimbly respond to and recover from COVID-19, the Department of Treasury 
recently announced that Coronavirus Relief Fund dollars, provided under 
the Coronavirus Aid, Relief, and Economic Security (CARES) Act, may be 
used to pay for FEMA's cost share requirements under the Stafford Act.
    On March 19, FEMA's role in the pandemic response changed. Under 
the direction of the White House Coronavirus Task Force, FEMA moved 
from playing a supporting role in assisting the U.S. Department of 
Health and Human Services (HHS), which was designated as the initial 
lead Federal agency for the COVID-19 pandemic response, to coordinating 
the whole-of-Government response to the COVID-19 pandemic.
    Upon transitioning into this management role, FEMA merged 
interagency priorities to help guide the everyday operations of the 
Federal Government's response. In keeping with the leadership of the 
White House Coronavirus Task Force, the top priority was to protect the 
health and safety of the American people by executing an unprecedented 
whole-of-Government and whole-of-America effort. To best accomplish 
this objective and combat the public health crisis confronting the 
country, FEMA continued to coordinate response practices in alignment 
with the medical priorities previously established by HHS's Assistant 
Secretary for Preparedness and Response--shield the vulnerable, shelter 
the susceptible, save the sick, and sustain supplies.
    FEMA further infused its own operational priorities into the whole-
of-Government response by emphasizing the need to preserve the 
workforce and take proactive measures to protect response employees, 
continuously conduct mission-essential emergency management functions 
within a COVID-19 degraded environment, and lead Federal operations on 
behalf of the White House Coronavirus Task Force.
    In Washington, DC, the National Response Coordination Center (NRCC) 
transformed into the fulcrum of Federal interagency coordination 
efforts under the Unified Coordination Group (UCG), which is co-chaired 
by me within my capacity as the FEMA administrator, and Robert Kadlec, 
M.D., HHS's assistant secretary for preparedness and response. Eight 
task forces were quickly assembled to address top priorities for the 
pandemic response in coordination with the NRCC and focused upon 
mission-critical functions such as: Gaining and maintaining situational 
awareness of medical equipment supply and demand, including laboratory 
testing supplies and protective equipment required for health care 
professionals or critical infrastructure workers; establishing a 
decision matrix for the allocation of finite resources within the 
context of shifting hotspots; ensuring effective cross-communication 
and coordination with SLTT partners to increase their response 
capacities; maintaining positive response momentum by protecting and 
rotating staff for rest periods; increasing the size of the workforce; 
and keeping mission-essential employees constantly but safely engaged.
    In addition, FEMA's 10 Regional Offices have served on the front 
lines of the response, to include the activation of their respective 
Regional Response Coordination Centers (RRCC). In support of this 
whole-of-Government effort, there have been personnel from agencies 
such as the DoD, HHS, Centers for Disease Control and Prevention (CDC), 
Department of Veterans Affairs (VA), U.S. Army Corps of Engineers 
(USACE), Defense Logistics Agency (DLA), Cybersecurity and 
Infrastructure Security Agency (CISA), and Customs and Border 
Protection (CBP) imbedded within the NRCC and RRCCs to coordinate 
response and recovery efforts both Nationally and at the local level.
    At its peak, over 50,094 Federal personnel were deployed in this 
coordinated process to bring the full resources of the Federal 
Government to bear. This includes 3,200 FEMA employees and 4,200 U.S. 
Public Health Service Commissioned Corps officers from HHS deployed in 
support of the response, as well as the 42,000 National Guard members 
responsible for conducting testing and PPE distribution, among other 
COVID-19 response support missions Nation-wide. Additionally, there 
were the 13,680 Title 10 forces, including 5,300 medical personnel, 
working to support the response to the public health emergency. To 
further bolster SLTT medical infrastructure, 17,636 U.S. Army Corps of 
Engineers personnel assisted with the construction of Alternate Care 
Facilities.
Building Surge Capacity
    One of the first priorities for FEMA, HHS, and the UCG was to 
increase the surge capacity of SLTT hospitals. In order to accomplish 
this objective and protect the safety of patients, health care 
providers, and the American public, FEMA directed the USACE to work 
closely with SLTT officials to construct Alternate Care Facilities 
(ACF). An ACF is a building such as a dormitory or civic convention 
center that is temporarily converted into a medical treatment facility 
during a public health emergency to provide additional space if 
traditional health care institutions are filled beyond capacity. These 
locations were identified and constructed through close partnerships 
between USACE and SLTT officials, with local COVID-19 considerations 
and future projections in mind. Upon construction, the ACF is then 
State- or locally-managed, and eligible for FEMA Public Assistance 
Category B funding under the Stafford Act for both their construction 
and continued operations. In total, we have constructed 38 Alternate 
Care Facilities.
    Another type of ACF utilized by FEMA and our Federal partners 
during the COVID-19 response are Federal Medical Stations (FMS). An FMS 
is a pre-packaged ACF, and it is composed of Federal equipment and 
supplies that are deployed and operated by the Federal Government using 
supplies from the Strategic National Stockpile (SNS). In total, 41 FMSs 
were deployed through mission assignments to the USACE. However, due to 
the scale of the COVID-19 pandemic and significant demands for finite 
supplies within the SNS, FMSs served to augment SLTT medical 
infrastructure in critical areas of urgent need and could not be 
deployed to meet every community's requests.
Managing World-wide Critical Shortages
    From the outset, a key element of FEMA's response has been managing 
shortages of medical supplies needed to combat the pandemic, such as 
PPE, ventilators, swabs, and the chemical reagents required for 
testing. This effort alone has presented an historic challenge for FEMA 
and its Federal partners. COVID-19 has been a global crisis--leaders 
across over 150 countries have simultaneously been competing for the 
same medical supplies. We have been further challenged as most of the 
manufacturing for PPE occurs in Asia, where the virus significantly 
slowed down private-sector production capabilities.
    Concurrently, American medical professionals on the front lines of 
the pandemic have required an exponentially increased volume of PPE and 
other medical supplies. On average, the United States began consuming a 
year's worth of PPE in a matter of weeks. FEMA worked closely with HHS 
to ensure that locations in danger of running out of supplies within 72 
hours received life-saving equipment from the Federal Government's 
reserve within the Strategic National Stockpile (SNS), as administered 
by HHS.
Phase 1: Distributions from HHS's Strategic National Stockpile
    From the beginning, FEMA and HHS understood and acknowledged that 
the SNS alone could not fulfill all of our Nation's requirements. The 
SNS was never designed or intended to fully supply every State, 
territory, Tribe, and locality in the United States concurrently and 
cannot be relied upon as the single solution for pandemic preparedness. 
It was principally designed as a short-term stopgap buffer to 
supplement State and local supplies during a public health or National 
security emergency.
    During the SNS distribution process, the Federal Government worked 
to balance each State's requests with the need to prioritize hotspots 
and locations in danger of depleting their own life-saving medical 
supplies within 72 hours. Emergency supply shortage notifications were 
relayed from the local level to State emergency managers or public 
health departments, who then passed them on to the Regional Response 
Coordination Centers to be vetted by FEMA, HHS, and CDC. These requests 
were then prioritized and shared with the National Response 
Coordination Center (NRCC) to adjudicate. The NRCC had the benefit of a 
National perspective to inform the decision-making process. This 
National perspective incorporated understandings of increasing or 
decreasing disease activity and its effects, a broad picture of where 
resources were needed most urgently, and the resources available in the 
SNS.
    Given the finite number of medical devices such as ventilators in 
the SNS and the limited capacity of the private-sector supply chains to 
meet the demand, the Federal Government adopted a process to manage 
Federal ventilator resources to ship them to the States only in the 
quantities needed to manage the immediate crisis. As such, ventilators 
were designated as strategic National assets to be distributed in 
accordance with immediate need. Ventilator donations from the private 
sector and Federal partners such as the DoD made meaningful 
contributions to SNS distributions, and although there was an extremely 
finite supply of ventilators available, we were able to fulfill every 
State's validated request. Due to these whole-of-America efforts, 
improved treatment techniques in hospitals, and Federally-supported 
innovations within the American health care community to modify or 
retool medical devices such as anesthesia machines, we are proud to say 
that no one who needed a ventilator went without a ventilator.
    Decisions on where to allocate these limited medical resources were 
thoughtfully and deliberately informed by a series of intervening 
variables and a data-driven approach. Considerations such as the number 
of cases, deaths, available Intensive Care Unit (ICU) beds, available 
ventilators, prevalence of vulnerable populations, and knowledge of a 
location's medical infrastructure helped to inform FEMA and HHS 
decision making. A series of influenza models, such as the University 
of Washington's Institute for Health and Metrics (IHME) Model funded by 
the Gates Foundation specifically for COVID-19, also played a critical 
role in helping FEMA allocate medical resources.
Phase 2: The Supply Chain Stabilization Task Force and Project 
        Airbridge
    To address the imbalance between supply and demand for PPE and 
other medical supplies, the Supply Chain Stabilization Task Force, 
under the direction of Rear Admiral John Polowczyk, was swiftly 
assembled on March 20 to address wide-spread shortfalls amidst the 
global competition for life-saving equipment. The Task Force consisted 
of a multi-faceted team across the U.S. Government, and liaisons from 
the private sector. In support of this whole-of-Government effort, 
there have been over a dozen agencies and departments--such as the DoD 
(including the Defense Logistics Agency (DLA)), HHS (including the 
CDC), the Department of Homeland Security, and the Department of 
Veterans Affairs (VA)--embedded within the Supply Chain Task Force to 
coordinate response efforts.
    The Task Force, in conjunction with other agencies and Task Forces, 
sourced PPE, swabs, ventilators and other critical resources for points 
of care Nation-wide, with a special consideration given to supporting 
health care workers on the front line and then other priority groups 
including first responders and critical infrastructure workers in 
lifeline industries who are unable to practice social distancing due to 
the nature of their work.
    To maintain the country's existing medical supply chain 
infrastructure efficiently, the Task Force, along with FEMA and HHS, 
has sought to supplement--not supplant--the overall supply chain 
through a variety of strategies. Efforts to date have focused on 
reducing the medical supply chain capacity gap to both satisfy and 
relieve demand pressure on medical supply capacity. To execute a 
strategy maximizing the availability of critical protective and life-
saving resources, the Task Force applied a four-pronged approach of 
Preservation, Acceleration, Expansion, and Allocation to rapidly 
increase supply today and expand domestic production of critical 
resources to increase long-term supply capabilities.
    Through these lines of effort, the Task Force worked with the major 
commercial distributors to facilitate the rapid distribution of 
critical resources in short supply to locations where they were needed 
most. This partnership enables a whole-of-America approach to combat 
the pandemic.
    A key example of this public-private partnership in action is 
Project Airbridge. Established in less than 10 days, Project Airbridge 
expedited the movement of critical supplies from the global market to 
medical distributors in various locations across the United States. 
FEMA covered the cost to fly the supplies, enabling the delivery of PPE 
into the United States from overseas factories. To be clear, the 
Federal Government does not own the content of these flights, but 
simply facilitated the rapid transportation of these materials to the 
United States on behalf of the 6 largest American medical distributors 
who have partnered with the Supply Chain Task Force.
    Remarkably, this Airbridge cut the duration of transporting 
international shipments down from 37 days on a ship to just 1 day by 
air. Under the leadership of the White House Coronavirus Task Force, 
FEMA and its partners successfully innovated to deliver PPE to America 
36 times faster. Put another way, the Airbridge ensured that PPE was 
delivered to the United States in less than 3 percent the amount of 
time it traditionally takes to transport PPE.
    After the cargo was flown in via the Airbridge, 50 percent of the 
supplies on each plane were sent by the distributors to points of care 
in areas of greatest need. These areas were determined by HHS and FEMA 
personnel within the National Resource Prioritization Cell (NRPC), 
based on information provided by States and CDC epidemiological data. 
In addition, distribution decisions have been informed by the immense 
amounts of data provided by the 6 distributors who partnered with 
Project Airbridge. These companies are Cardinal Health, Concordance, 
Owens and Minor, McKesson, Medline, and Henry Schein.
    These 6 distributors allowed us to see what inventory is coming in 
and where it is going--down to the zip code. This data has provided the 
Task Force the ability to prioritize hospitals, nursing homes and other 
health care facilities with the most critical needs and highest COVID-
19 rates. This information was updated frequently by the NRPC to 
provide an accurate view of evolving conditions, PPE accessibility, and 
shifting hotspots.
    The remaining PPE from Project Airbridge was distributed through 
the companies' regular networks into the broader U.S. supply chain. 
Prioritization was given to hospitals, health care facilities, and 
nursing homes around the country. In some cases, the Federal Government 
may have purchased some of the supplies upon arrival to provide to 
States with identified and unmet needs. This is truly an historic 
accomplishment by FEMA and its Federal partners. The result was a data-
informed process that helped FEMA better ensure the right supplies got 
to the right places at the right time to save lives.
    Project Airbridge was integral to the Federal strategy to manage 
critical shortages of PPE and other medical supplies by accelerating 
international deliveries until domestic and foreign manufacturers could 
increase production to well above pre-COVID-19 levels and standard 
supply chains could begin to stabilize. From March 29 to June 30, 
Project Airbridge completed 249 flights and expedited the delivery of 
nearly 4.5 million N95 respirators, almost 1 billion gloves, 
approximately 122 million surgical masks, and more than 60 million 
surgical gowns, among many other critical medical supplies. As of July 
1, Project Airbridge has ceased all activities, but retains the ability 
to be reactivated in accordance with shifting conditions.
Phase 3: Transition to Expedited Shipping and Increased Manufacturing
    Although Project Airbridge was able to fill critical shortages of 
PPE and other medical supplies, it was never intended to be a permanent 
component of a stabilized supply chain. As global production levels 
continue to increase, we have transitioned toward traditional and 
expedited sea lane shipping with cargo ships able to carry considerable 
volume. On May 10, FEMA's first shipment of N-95 respirators arrived by 
sealift in the Port of Long Beach, California, with a subsequent 
delivery of N-95s arriving on May 21. Subsequently, we have scheduled 
additional sealift delivery through the month of July. This will 
provide an additional 62.7 million N-95 respirators, 1.3 million 
gloves, and 6.2 million gowns into the United States. This is 
approximately 390 cargo containers of material.
    As part of the whole-of-America response, as of July 14, FEMA, HHS, 
and the private sector combined have coordinated the delivery of 
approximately 181.8 million N-95 respirators, 746.5 million surgical 
masks, 30.6 million face shields, 329.1 million surgical gowns, and 
over 19.1 billion gloves.
    Expansion of the industry has also been simultaneously taking 
place. Manufacturers are enhancing domestic production capacity with 
additional machinery, and in some cases re-tooling assembly lines to 
produce new products. As an example of this work, the Food and Drug 
Administration (FDA) is providing assistance to manufacturers who have 
produced other products, such as automobiles, on adding production 
lines or alternative sites for making more ventilators during the 
COVID-19 public health emergency.
    In addition, the Supply Chain Stabilization Task Force is working 
through over 350 leads to match American businesses who have excess raw 
materials, workforce, or factory production capacities combined with an 
overwhelming desire to provide their support to the National response 
effort. Task Force members are actively working to facilitate the 
creation of private-sector partnerships to pair companies that have 
offered their excess factory production capacity, the talents of their 
workforce and access to their raw material supply chains with critical 
supply manufacturers who have expertise in producing PPE, ventilators, 
and other needed equipment.
    As part of the Federal efforts to scour the globe for PPE and 
consider all opportunities, FEMA and its Federal partners explored 
thousands of leads both overseas and across our country. Whether a lead 
came from the White House Coronavirus Task Force, Members of Congress 
representing businesses in their State, or through an enterprise's 
unaffiliated inquiry, we processed all leads through standard vetting 
procedures and the Federal procurement process. To be clear, FEMA 
follows the law and all applicable procedures prescribed in the Federal 
Acquisition Regulation and other agency procedures when entering into 
contracts. To further support this effort, a firewall was established 
between those responsible for identifying leads and those responsible 
for the procurement of contracts. In response to the COVID-19 pandemic, 
FEMA has awarded a total of 676 contract actions for a total value of 
$1.60 billion to date on behalf of HHS and other Federal partners in 
support of SLTT partners.
    To help FEMA pivot toward hurricane season preparations, on April 
28, FEMA's role within the Federal response to the COVID-19 pandemic 
began to evolve. The White House Task Force, DOD, HHS, and the Supply 
Chain Task Force (SCTF) agreed that the DOD would assume responsibility 
for procuring emergent PPE items in response to COVID-19 on behalf of 
FEMA and HHS. The official transition concluded May 29, 2020. Moving 
forward, new procurements for COVID-19 will largely reside with the 
DOD's Defense Logistics Agency, which has a robust procurement and 
distribution capacity and capability.
    This transition will help FEMA to better prepare and support the 
upcoming hurricane season and other potential disasters Americans may 
face. As FEMA and its partners begin returning to steady-state 
operations, the 8 Task Forces within the NRCC have begun transitioning 
into Working Groups. All personnel previously assigned to the 8 Task 
Forces have either been demobilized or realigned under 6 corresponding 
working groups. Regardless of FEMA's role in the management and 
distribution of critical resources, this COVID-19 response effort will 
continue to be Federally-supported, State-managed, locally-executed, 
and in this instance, private sector-enabled.
    Like all task forces assembled to confront specific challenges in 
crisis, the Supply Chain Stabilization Task Force's lines of effort 
require longer-term institutional solutions to ensure that America is 
ready for a sustained response to COVID-19 and other pandemics. The 
expansion of our domestic industry to increase the production of PPE 
and other supplies is key to our ability to conduct a sustained 
response. One of the most prominent examples of efforts to expand the 
domestic industry is demonstrated by interagency efforts to leverage 
the Defense Production Act.
The Defense Production Act
    The Defense Production Act (DPA) of 1950, as amended (50 U.S.C.  
4501 et seq.) is an authority the President may use to expand the 
production of supplies and services from the private sector needed to 
promote the ``National defense,'' a term that includes emergency 
preparedness and response activities conducted pursuant to Title VI of 
the Stafford Act and protection and restoration of critical 
infrastructure operations. The authority to use the DPA for health and 
medical resources for COVID-19 was delegated to the Department of 
Homeland Security (DHS) and HHS in Executive Order 13911, ``Delegating 
Additional Authority under the Defense Production Act with Respect to 
Health and Medical Resources to Respond to the Spread of COVID-19.'' 
The Secretary of Homeland Security delegated its authority to me, as 
the FEMA administrator. FEMA specifically has relied on the DPA, as 
delegated and in coordination with our Federal partners, to focus on 
increasing the production and distribution of ventilators, N-95 masks, 
and medical countermeasures.
    Beginning on March 19, the Unified Coordination Group (UCG), which 
I chair, and which includes leaders from FEMA, the Department of Health 
and Human Services, the Department of Defense (DOD), and other Federal 
agencies, reviewed all requests for use of the DPA for COVID-19 and 
elevated them to the White House Coronavirus Taskforce for decision.
    In response to the COVID-19 pandemic, DPA authorities can be used 
to address disruptions in medical and health care lifelines necessary 
for the continuous operation of critical Government and business 
functions which are essential to human health and economic security. 
The DPA enables the Federal Government to leverage domestic industry's 
ability to supply materials and services in support of the National 
defense. In addition to using the DPA to protect essential health 
resources and combat materials shortages, the Federal Government is 
also using the DPA to increase domestic manufacturing capabilities, 
which will help to ensure the United States' future preparedness for 
pandemics is not overly reliant upon the foreign production of medical 
supplies which, as we have seen, may be vulnerable to supply chain 
disruptions.
    For response to the COVID-19 pandemic, FEMA's authorities under the 
DPA are described in Titles I, III, and VII of the Defense Production 
Act.
DPA Title I--Priorities and Allocations
    Title I of the DPA provides the Federal Government with the 
authority to require contracts and orders to be accepted and to receive 
priority over non-rated contracts and orders not prioritized by the 
Federal Government for the National defense. Priority-rated contracts 
and orders take precedence over all unrated contracts and orders, when 
necessary to meet delivery dates specified in the rated orders. 
Priority ratings can be added to contracts and orders to procure health 
resources, including PPE, to ensure the Federal Government has the 
necessary resources to combat COVID-19.
    In response to a Presidential Memorandum, ``Memorandum on Order 
Under the Defense Production Act Regarding 3M Company,'' on April 3, 
2020 FEMA issued a DPA order to 3M for 166.5 million respirator masks 
from its factories in China, South Korea, and Singapore, to be 
delivered from April to July 2020. FEMA is using this rated order to 
fill State requests for support and to help fill normal supply chains 
for PPE.
    DPA Title I also authorizes FEMA to allocate limited supplies of 
materials, services, and facilities in the domestic market, which 
allows the Federal Government to control the distribution of scarce, 
high-demand health resources. FEMA has also exercised its delegated 
allocation authority under Title I to impose export limitations 
ensuring that critical medical supplies needed for the domestic 
response to COVID-19 are preserved for domestic use. In furtherance of 
President Trump's April 3 ``Memorandum on Allocating Certain Scarce or 
Threatened Health and Medical Resources to Domestic Use,'' FEMA 
published a Temporary Final Rule to allocate 5 categories of scarce 
medical items. These categories include N-95 respirators, surgical 
gloves, PPE surgical masks, and other air-purifying respirators for 
domestic use. FEMA reviews planned exports of these items and may 
purchase them, return them for distribution in the domestic market, or, 
if they fall within one of several established exemptions, allow them 
to proceed to export. FEMA coordinates closely with our Federal 
partners in implementing this order, including DHS's CBP, the U.S. 
Department of Commerce, HHS's FDA, and the U.S. Department of State.
DPA Title VII--Voluntary Agreements with Private-Sector Partners
    Based on a finding that COVID-19 presents a direct threat to the 
National defense and its preparedness programs, FEMA has also initiated 
efforts under Title VII of the DPA to establish a Section 708 voluntary 
agreement for the response to COVID-19 and future pandemics. Under 
Title VII, FEMA plans to enter into a voluntary agreement with private-
sector manufacturers and distributors of critical health care resources 
necessary in a pandemic. Participants in a voluntary agreement are 
granted relief from antitrust laws for actions taken pursuant to a 
voluntary agreement at the direction of the Federal Government.
    As part of the effort to develop a voluntary agreement, FEMA held 
an open meeting on May 21 to present the draft agreement and solicit 
stakeholder feedback. Consistent with positive feedback and interest 
expressed by industry partners, FEMA is in the process of finalizing 
the agreement. If this agreement is approved by the Attorney General 
and the Federal Trade Commission, this agreement would formalize the 
unity of effort between the private sector and the Federal Government 
for integrated coordination, planning, and information sharing for the 
manufacture and distribution of PPE, pharmaceuticals, and critical 
health care resources identified as necessary to respond to COVID-19 
and future pandemics.
DPA Title III--Expansion of Productive Capacity and Supply
    Title III of the DPA allows the Federal Government to make loans, 
loan guarantees, and to take other actions to facilitate increased 
production capabilities needed to maintain, expand, or protect services 
and materials essential to the National defense. The Coronavirus Aid, 
Relief, and Economic Security (CARES) Act (Pub. L. 116-136) allocated 
$1 billion for Title III projects related to COVID-19. Title III funds 
are held in the DPA Fund, managed by the DOD. These funds have been 
allocated to support increased production capacity and speed of 
production by DOD and HHS for critical health care resources including 
N-95 respirators, test kits, vaccines, and other pharmaceuticals.
                            lessons learned
    FEMA has responded to this pandemic while continuing to adapt its 
operations and procedures to support preparation for complex future 
crises. Among the first lessons learned was the need to preserve PPE 
and prioritize its distribution.
Prioritization and Preservation
    Within the context of a disrupted supply chain, it quickly became 
apparent that health care workers, first responders, patients, and 
critical infrastructure workers needed prioritization for distributed 
PPE. While increased production capacity was coming on-line, FEMA, CDC, 
and other partners ensured that scarce PPE was allocated to those on 
the front lines of the pandemic, and also maximized the utility and 
useful life of available PPE by releasing guidance to reduce, reuse, 
and repurpose this PPE. Due to global PPE shortages, the implementation 
of contingency and crisis capacity plans were sometimes necessary to 
ensure the continued availability of protective gear.
    The BATTELLE Critical Care Decontamination System (CCDS) became 
another component of the plan to preserve PPE. These units can 
decontaminate compatible N95 respirators using a mobile CONEX box-based 
Vapor Phase Hydrogen Peroxide (VPHP) generator. It is the subject of an 
emergency use authorization issued by FDA, with capacity to 
decontaminate 80,000 such respirators daily. The Federal Government 
purchased 60 systems and distributed 45 for use Nation-wide, and FEMA 
continues to support their distribution.
Next-Generation SNS
    Moving forward, we must have a ready and responsive SNS, which is 
why FEMA, HHS, and DoD are continuing to work together on the 
President's vision for a Next-Generation SNS. A transformation is 
required for a holistic supply chain ecosystem responsive to the unique 
needs of each region of the United States. This includes developing 
supply chain intelligence, strengthening local, State, and Federal 
partnerships, and expanding domestic manufacturing for a successful 
future. This strategic commitment to modernize the SNS is necessary for 
a stronger Nation prepared to meet any local, regional, or National 
event. Thanks to U.S. production, we now have 49,849 ventilators in the 
Strategic National Stockpile as of July 16, which is more than we did 
before the pandemic. Similarly, before the COVID-19 pandemic, the SNS 
had fewer than 18 million N95 masks, and we are now growing the reserve 
through the DPA to include 300 million. Furthermore, whereas the SNS 
previously did not contain ventilator pharmaceuticals, it will now have 
a 3 months' supply in stock.
Rapid Testing for Vulnerable Populations
    Given the wide selection of platforms to administer COVID-19 
diagnostic testing and the supply chain limitations for the materials 
needed to support them, FEMA supported HHS efforts to prioritize rapid 
testing for vulnerable populations such as those found in nursing 
homes. Prioritizing the limited number of rapid tests for populations 
with underlying health considerations was key to facilitating a rapid 
response and the strategic distribution of scarce supplies. COVID-19 
diagnostic platforms with longer turnaround times were found to be more 
appropriate in situations with lower risk of rapid spread and 
escalation. In further support of vulnerable populations within nursing 
homes, FEMA has coordinated 26,222 deliveries totaling a 14-day supply 
of personal protective equipment to all 15,400 Medicaid and Medicare-
certified nursing homes.
    Rapid testing was also proven to be an effective tool in places 
such as the Navajo Nation, in which limited medical infrastructure and 
high rates of chronic illnesses combined to create an at-risk 
demographic. Rapid testing, as supported by HHS, Indian Health 
Services, and FEMA, has allowed for increased diagnostic screenings 
above the National average.
    As part of our agency's efforts to support HHS-led community-based 
testing strategies, FEMA continues to support the White House 
Coronavirus Task Force and the administration's Testing Blueprint. 
Beginning in early May, large quantities of testing swabs and transport 
media began shipping to help increase testing capacity in support of 
individualized State, territorial, and Tribal plans. As of July 10, 
FEMA has procured and delivered over 36.9 million swabs and 28 million 
tubes of transport media. Each State, territory, and Tribe will develop 
its own distribution strategy to align with its testing plan and unique 
needs. Nationally, partnerships with major retail companies and local 
independent pharmacies to increase testing access will provide 
Americans with faster, less invasive, and more convenient testing for 
under-tested and socially vulnerable communities.
Rumor Control and Myth Busting
    Throughout all stages of FEMA's COVID-19 response, we have 
consistently worked to correct misconceptions about the agency or 
Federal Government's actions and established a Rumor Control Page on 
our website to assist in this effort. The agency frequently gets 
questions regarding FEMA ``seizing'' or ``commandeering'' critical PPE. 
To be clear, FEMA does not seize PPE from its Federal, State, local, 
Tribal, or territorial partners, hospitals, or any entity engaged in 
lawful transactions to distribute these resources. FEMA does not divert 
any PPE orders to replenish the Strategic National Stockpile.
    However, it is true that certain individuals and businesses are 
trying to profit from the confusion and fear surrounding COVID-19, 
hoarding scarce resources with intent to resell them at prices in 
excess of prevailing market prices. This price gouging profoundly harms 
the Nation's ability to fight the COVID-19 pandemic and protect those 
men and women on the medical front lines of that fight. The U.S. 
Department of Justice (DOJ), under the direction of Attorney General 
William Barr, established the COVID-19 Hoarding and Price Gouging Task 
Force, focused on the detection, investigation, and prosecution of 
illegal hoarding and price gouging related to the pandemic. In some 
instances, FEMA has assisted the DOJ in its anti-price gouging efforts 
by issuing rated orders requested by the Hoarding and Price Gouging 
Task Force to purchase hoarded stockpiles that DOJ has identified as 
being involved in price gouging efforts.
    In addition to concerns about price gouging, FEMA is aware of the 
threat posed by fraudulent PPE being manufactured, acquired, and 
shipped to customers desperate to obtain PPE for use in health care and 
other industries. The U.S. Government, academia, and the private sector 
are working collaboratively to minimize the risk to Americans posed by 
fraudulent PPE.
Firefighter Grant Modernization Efforts
    To better support SLTT partners and first responders within the 
context of the COVID-19 pandemic, FEMA has adapted its Assistance to 
Firefighter Grant (AFG) and Staffing for Adequate Fire and Emergency 
Response (SAFER) Grants programs. For example, FEMA's grant 
modernization efforts have evolved to allow for virtual consultations 
with the fire services on program development and virtual peer reviews. 
These new capabilities have reduced risk for participating parties and 
accelerated the reviewal process, with competitive AFG-Streamlined 
applications able to be completed in under 1 month instead of the 
typical average of 6 months for the traditional AFG Program.
    Furthermore, Acting Secretary Wolf of DHS exercised his 
discretionary authority to relax certain requirements within the SAFER 
Grant Program. By waiving salary caps, cost shares, and prohibitions on 
supplanting previously budgeted funds, we have reduced financial 
burdens on applicants and expanded the number of fire departments able 
to apply. With many municipalities facing a reduction in tax revenue, 
the waivers for the fiscal year SAFER Grant Program will allow fire 
departments to retain or rehire firefighters facing layoffs. DHS and 
FEMA will provide these fire departments with 100 percent of the 
funding needed to hire firefighters over the next 3 years. FEMA 
anticipates opening the fiscal year 2020 application later this 
calendar year.
            disaster preparedness in a covid-19 environment
    COVID-19 is not the first nor the last pandemic the American people 
will face. It is, therefore, imperative that we continue to prepare at 
all levels of government, within our communities, and across the 
private sector by learning from our experience with this novel 
coronavirus. Furthermore, building a culture of preparedness through a 
whole-of-America response could become an important component of our 
ability to most effectively respond to other disasters such as 
hurricanes or wildfires during a sustained pandemic response.
    Operating in overlapping disaster environments will create new 
intricacies within already complex mission requirements. For example, 
there will be a new need to evacuate strategic National assets such as 
ventilators or key pharmaceuticals. Evacuating people within the 
current COVID-19 environment will present an even larger challenge, and 
it will likely require the wide-spread availability of non-congregate 
sheltering. Furthermore, COVID-19 may slow down State, territorial, and 
Tribal abilities to conduct damage assessments for disasters such as 
flooding, severe storms, and hurricanes. Response to other disasters, 
in turn, can slow down the ability of officials to collect crucial 
information about COVID-19 cases and stymie their ability to share the 
critical data needed to combat it. Consequently, there is a potential 
for a compounded effect that could result in a larger emergency than 
each disaster would be on its own. These are just some of the 
considerations FEMA has accounted for as we pivot to prepare for what 
could become active hurricane and wildfire seasons.
2020 Hurricane Season Operational Guidance
    With a watchful eye on hazards of any type, on May 20, FEMA 
released COVID-19 Pandemic Operational Guidance for the 2020 Hurricane 
Season to help emergency managers and public health officials best 
prepare for disasters, while continuing to respond to and recover from 
COVID-19. The guide describes anticipated challenges to disaster 
operations posed by COVID-19, as well as actions emergency managers and 
public officials can take to prepare for those challenges. By creating 
a shared understanding of expectations among FEMA and our SLTT 
partners, the Nation will be better positioned to achieve successful 
operational outcomes in disaster response and recovery efforts. While 
this document focuses on hurricane season preparedness, most planning 
considerations can also be applied to any disaster operation in the 
COVID-19 environment, including no-notice incidents, flooding and 
wildfires, and typhoon response.
    FEMA expects to maintain COVID-19 activation into the 2020 
hurricane season in order to best support SLTT operations. To ensure 
that operational decisions are made at the lowest level possible, 
consistent with the National Response Framework, FEMA is organizing to 
prioritize resources and adjudicate accordingly, if needed.
    FEMA personnel who are currently deployed will be prepared to pivot 
to support emergent needs. FEMA regions continue to provide technical 
assistance and coordination for a range of program areas with their 
respective SLTT partners. FEMA is also well-positioned with thousands 
of personnel in the field supporting existing operations, thousands 
more available ready to support emergent disaster operations, and more 
personnel joining the agency through virtual on-boarding every 2 weeks. 
In order to better adapt plans in this environment and support our 
partners, FEMA programs will continue to provide assistance to 
survivors, but many programs may require on-line or phone registration 
processes (in lieu of in-person), remote assessments or inspections, 
and adapted program delivery within impacted areas experiencing 
localized outbreaks or periods of peak COVID-19 activity. However, if 
and when SLTT partners are overwhelmed, FEMA is prepared and postured 
to provide program support, regardless of delivery method.
    At such a pivotal time for this country, the FEMA workforce has 
risen to these unprecedented circumstances and met our mission each and 
every day. We are adaptable, resilient, and support each other. To help 
protect our workforce, FEMA released to a roadmap for the agency in 
June concerning the opening FEMA facilities in the future. All FEMA 
facilities will be required to have safety protocols established prior 
to welcoming any employees back into a physical facility. This phased 
approach will ultimately result in a much smaller permanent footprint 
in our facilities than we had prior to the pandemic, without 
sacrificing services. As an example of our agency's continuing services 
in a protective workforce posture, FEMA's Congressional and 
Intergovernmental Affairs Division has completed over 600 engagements 
with Congressional and SLTT officials since shifting to wide-spread 
telework practices.
                               conclusion
    In closing, I would like to emphasize my pride and gratitude to the 
men and women of FEMA, as well as my gratitude to our partner 
departments and agencies for their adaptability, hard work, and 
endurance during this unprecedented response. Many have risked their 
health during the COVID-19 response, and their safety and well-being 
remain at the very top of our agency's priorities.
    Furthermore, this agency would like to thank all Americans. Through 
coordinated social distancing campaigns across the country, the 
sacrifices made by millions of Americans bought valuable time as part 
of this whole-of-America response. These contributions by the public 
allowed FEMA and its partners to strategically allocate, and then 
continuously shift, globally scarce resources such as ventilators to 
hotspots where they could immediately save lives within a 72-hour 
window. This whole-of-America response was personified by leaders in 
places such as Washington State who voluntarily donated their 
ventilators to new hotspots in locations like New York.
    Finally, I again express my appreciation to Congress and the 
President for providing FEMA with the necessary resources to meet very 
complex mission requirements and conditions. This unprecedented 
response will continue to require a whole-of-America effort, and FEMA 
looks forward to closely coordinating with Congress as we work, 
together, to protect the health and safety of the American people 
during the COVID-19 pandemic. Thank you for this opportunity to 
testify. I look forward to answering any questions that you may have.

    Chairman Thompson. I thank the witness for his testimony. I 
remind each Member that he or she will have 5 minutes to 
question the witness. I will now recognize myself for 
questions.
    Mr. Gaynor, can you talk to us about why a lot of Members 
in Congress are still hearing from hospitals that they are 
short on PPE?
    Mr. Gaynor. Yes, sir. I can't talk to the specific 
hospitals, but I will just talk generally where we are with the 
pandemic. Just, you know, for context, this is a global 
pandemic, and I said in my opening statement that every country 
that has COVID-19 disease in their country, to include every 
Governor and mayor, Tribal chief in the United States is 
looking for the same exact PPE.
    We don't make it here in the United States. We make very, 
very little. We make virtually no rubber gloves in the United 
States, as an example. You know, we are in competition still 
for PPE around the globe. The place we are in today is much 
better than we were 60 days ago, although we are not going to 
buy our way out of this with just money. We are going to have 
to improve the industrial base to make these critical items in 
the United States so we are not at the whim of our global 
competitors.
    We have talked to every single State director, emergency 
management director in the country, and got a feel for what 
they have in stock in States. It is actually pretty positive. 
Sixty, 90, 120 days, States have stockpiled today.
    Now, there may be shortages, micro shortages across the 
country based on COVID-19 cases, you know, increased 
hospitalizations, and those hospitals or those front-line 
workers that have a shortage should work with their local 
emergency management director, their local public health 
director, and identify those----
    Chairman Thompson. I----
    Mr. Gaynor [continuing]. To the State and then obviously to 
us so we can fulfill those requests.
    Chairman Thompson. So your testimony is that all a hospital 
has to do to get the requisite requirement for PPE is talk to a 
local emergency manager?
    Mr. Gaynor. There are many different ways to do it. That is 
one way. You know, the commercial medical grade PPE 
distribution is very healthy today. So, if they can't get it 
via their normal supply chain--there are 6 big medical 
distribution companies in the country--if they can't get it 
there, we can help. We have insights through our----
    Chairman Thompson. Yes. Well, my point is----
    Mr. Gaynor [continuing]. Supply chain control policies to 
help those hospitals or who else may have a shortage.
    Chairman Thompson. My point is that it is still a problem. 
Can you provide any written direction to the committee as to 
how you suggest they can share with their constituents how they 
can get access to more PPE, if required?
    Mr. Gaynor. Yes, sir. I want to be clear, you know, we have 
a ways to go on making sure we have enough PPE. This is not as 
simple as just throwing a light switch and we just magically 
make more. We still have many months to go before we start 
making enough in the United States to supply the demand. As 
cases grow in the sunbelt, demand goes up.
    But if there is a hospital or a Tribe or a county, city 
that needs PPE, contact their local emergency manager to go to 
the State and obviously to us so we can fulfill that or address 
that----
    Chairman Thompson. Well----
    Mr. Gaynor [continuing]. Through either Federal supply or 
commercial supply.
    Chairman Thompson. Well, I am glad to hear that because it 
is still part of what most Members hear in their district.
    Moving forward, last week, our Nation topped 75,000 new 
cases of COVID-19 in a single day for the first time. We have 4 
percent of the world's population, about a quarter of all 
deaths in the world from COVID-19. Clearly, our National 
response to the pandemic has been woefully inadequate.
    When we were--when we held part one of this hearing on July 
8, Governor Pritzker of Illinois, Tupelo, and Dr. Shah of 
Harris County Public Health in Texas all said that inconsistent 
messaging is severely hurting our ability to respond to this 
crisis.
    Does it help FEMA's response effort when the President 
repeatedly says things about the coronavirus that are not 
accurate, such as he did Sunday when he claimed that the 
coronavirus is going to disappear?
    Mr. Gaynor. Sir, you know, my role in the administration is 
to make sure that I focus on leading Federal operational 
coordination, making sure that all the things we need to 
overcome COVID-19, whether it is rising cases, 
hospitalizations, need of staff, PPE, pharmaceuticals, beds, my 
role is to make sure that every request from every Governor, 
from every mayor, from every Tribal chief is fulfilled to the 
best of our ability based on what we have.
    Chairman Thompson. Well----
    Mr. Gaynor. That is my role in fighting COVID-19.
    Chairman Thompson. Thank you. But consistent messaging, all 
the experts say, is important if we are going to get through 
this and get over this.
    Let me ask you this: Has FEMA ever been directed by anyone 
at the White House to procure supplies from any source?
    Mr. Gaynor. No, sir.
    Chairman Thompson. Well, I want to put on the screen a 
contract between FEMA and a contractor that FEMA provided us 
upon request. The procurement of N95 model RP 88018 and RP 
88020 respirators, it says, ``Order directed by the White 
House.'' You all provided that to us.
    So what I want you to do, if you can't explain it now, 
because part of the conversation we have been hearing is that 
agencies have been directed to do certain things and use 
certain contractors, and you have said--I have provided you 
with documents that you provided us, and I just want you to go 
back and check your people to make sure that you are not saying 
something that is not true from FEMA's perspective.
    Mr. Gaynor. Well, I am absolutely confident what I just 
said about not receiving direction from the White House is 
absolutely 100 percent true. That document that we provided is 
really an administrative note by one of our contracting 
officers where we got many different inputs from where we could 
find supplies from COVID-19.
    I received at the high point 50 emails a day from people 
trying to offer me PPE, where we can buy it, all pushed into 
the system. I received phone calls from mayors. I received 
phone calls from Governors about a local producer had PPE. I 
received information from the Vice President and the task force 
where people would call up hospitals and say, ``Hey, I know of 
a PPE provider and look into this.''
    So that is a reflection of just where I--or where we got 
all sorts of information from everyone. I got calls from 
Senators and Congressmen saying, ``Hey, I have a person that 
produces PPE in my agencies. Can you put that into the 
contracting chain?'' That is a reflection of just that, 
thousands and thousands of unsolicited requests from many 
different people around the country trying to be very helpful, 
and it comes from all different directions.
    You know, the gap between somebody offering a supplier, 
whether it is true or whether it is--they don't have anything, 
they are just trying to----
    Chairman Thompson. I----
    Mr. Gaynor [continuing]. And the gap between us 
contracting, and I have said it before, is as wide as the Grand 
Canyon.
    Chairman Thompson. I understand, but I want you to look at 
it, that particular information, and after you have, get back 
to us and say it was exactly what I said. I am fine with it.
    Mr. Gaynor. Sir, I have looked at it. I will tell you right 
now--I will save you the time--it is exactly what I said it is.
    Chairman Thompson. OK. Thank you. I yield back.
    The Chair recognizes the Ranking Member of the full 
committee.
    Mr. Rogers. Thank you, Mr. Gaynor, for being here.
    As you know, hurricane season began June 1, and the 
Chairman and I both represent States that are on the Gulf 
Coast, and hurricane season is a big deal for us. Is FEMA 
capable of managing COVID-19 response and the hurricane season 
simultaneously?
    Mr. Gaynor. We are, sir. I have stated publicly before, I 
don't think FEMA has been more ready than we are today. We have 
not only dealt with COVID-19 response, on-going response, we 
have dealt with flooding in Michigan. We have dealt with 
earthquakes in Puerto Rico. We have dealt with tornados, and we 
are completely ready for the hurricane season.
    Early on, after we were tasked by the President to 
provide--or begin--or take over the lead for Federal 
operational coordination, we knew we were going to be in 
hurricane season, and so we drafted a plan called the ``COVID-
19 Pandemic Operational Guidance for the 2020 Season.'' This 
was done and issued on May 20. We did this in 21 days.
    We took all the lessons learned up to that time about how 
to integrate, respond to COVID-19, and the hurricane season. 
This is--actually you could use this for any hazard, so whether 
it is wildfires or flooding. The lessons learned in this apply 
to all hazards across the country.
    You know, we want to make sure that jurisdictions look at 
their existing plans about evacuation and sheltering and apply 
the lessons that you are going to need to apply that we have 
learned in COVID-19. You are going to need more time. You are 
going to need more space. You are going to need to do more 
cleaning, all those kind of things.
    You are going to have to--again, I was a local emergency 
manager in a city, and I was a State emergency manager. You are 
going to have to go through all those plans to make sure you 
update those so you are ready for whether it is a hurricane or 
a tornado or a wildfire.
    We have provided some planning guidance across the Nation 
to make sure that not only the Federal Government is ready but 
our partners, locally-executed, State-managed, and Federally-
supported, it is a team effort. It all has to work together. Of 
course, we need our citizens to be ready for disasters also. So 
it is an all-of-community effort.
    Mr. Rogers. Do you find those local partners being willing 
to participate in a cooperative manner with you in trying to 
prepare?
    Mr. Gaynor. I missed a word, sir.
    Mr. Rogers. Do you find that those local governments are 
willing--are cooperative partners?
    Mr. Gaynor. Yes, sir. We just came back from a road trip to 
the Gulf Coast last week. I spent a significant amount of time 
in Baton Rouge, Louisiana; New Orleans; Mississippi, Gulf Port; 
Mobile, Alabama, and checked on local and State preparedness 
for the hurricane season and how they are doing on COVID-19.
    Many, if not all of the emergency managers that I talked 
to, to include Governors, have taken these guides, guidelines 
under consideration and are making and have made preparations 
for hurricane season to make sure that they are completely 
ready not only for a hurricane but a hurricane while responding 
to COVID-19.
    Mr. Rogers. You know, the Chairman was talking to you about 
PPE and some of the shortages that we have experienced. You 
know, we know that China has been a source of--primary source 
of production of PPE, and I think you are going to see our 
country move away from that in the future.
    But my understanding from your responses to the Chairman's 
questions is you feel like that we now have found alternative 
sources that are sufficient for this kind of equipment going 
forward. Is that accurate?
    Mr. Gaynor. Like I said before, we are in a much better 
place than we were coming out of March and April. However, we 
are not out of the woods completely with PPE. Again, the 
majority of PPE is made offshore: China, Malaysia, Vietnam. So 
one of our efforts early on with the supply chain control 
stabilization force was to accelerate that PPE to the United 
States, take preservation methods to--or measures to preserve 
PPE that we had, and to increase industrialization in the 
United States through the use of the DPA.
    All those things have happened. They continue to happen. We 
are producing N95 masks in the United States. We need to 
produce other items. Through our partnership with the Federal 
Government, DOD, DLA, and many other partners, we are working 
toward that. But it is not a light switch. It is more of a 
rheostat, and we have some distance to travel.
    Mr. Rogers. Great. Thank you.
    I yield back, Mr. Chairman.
    Chairman Thompson. The Chair now recognizes other Members 
for questions they may wish to ask witnesses. I will recognize 
Members in order of seniority, alternating between Majority and 
Minority. Members joining the hearing via Webex are reminded to 
unmute themselves when recognized for questions and to mute 
themselves once they have finished speaking, and, to the extent 
practicable, to leave their cameras on so they may be visible 
to the Chair.
    The Chair now recognizes gentlelady from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. Chairman, I thank you very much for this 
hearing, and I thank the Ranking Member for his presence here. 
We are at such a catastrophic crisis in this Nation that, 
however we are able to come together, Mr. Chairman, I am 
appreciative very much, virtual and/or in person.
    Americans are dying. They are dying. I don't know how many 
times I need to say this. They are dying. Our hearts are 
broken: 144,000 and the number is growing.
    Administrator, I do want to thank the hard-working FEMA 
employees and contractors and others. Thank you for your 
embedded commitment. You are a man that deals with crisis, and 
that is your work, and I think it is your passion.
    I would appreciate it if you would give me yes or no 
answers because my time is limited. I come from an epicenter, 
and I am dealing with my colleagues across the State. 
Congressman Gonzalez has indicated, if you can help them in 
Hidalgo County, and they are short of oxygen. You can contact 
Judge Cortez and Dr. Melendez. They have no oxygen. People are 
dying.
    My colleague Congressman Vela, please contact Judge 
Trevino. They would like another super testing site. They have 
no morgues and crematoriums. People are dying. Congressman 
Gonzalez said that 500 to 600 people a week are dying.
    In my own district of Harris County, the numbers now are 
extreme. People are dying. It is crucial that we know that 
Texas has almost 5,000 dead. It has 58,000 cases in Harris 
County and Houston. There are 83,000 cases just in the last 24 
hours, 784 dead.
    My question to you is that when the National declaration 
was declared of an emergency, did you get handed a strategic 
plan for the Nation dealing with testing and dealing with 
masks? I just need yes or no. Did you get a plan handed to you 
from the White House?
    Mr. Gaynor. Are you talking about from the very first day?
    Ms. Jackson Lee. Yes.
    Mr. Gaynor. No. But we had an existing pandemic----
    Ms. Jackson Lee. Mr. Administrator, let me----
    Mr. Gaynor. I know, ma'am, and I want to be respectful----
    Ms. Jackson Lee. You can finish with a sentence.
    Mr. Gaynor [continuing]. But it deserves more than a yes or 
no answer. We had a plan that was up there in 2018 called the 
PANCAP plan, the Pandemic Crisis Action Plan. That plan was 
updated on March 1 to work into what we were seeing with COVID-
19----
    Ms. Jackson Lee. I thank you very much.
    Mr. Gaynor. So we had a plan, yes, ma'am.
    Chairman Thompson. You had a plan March 1. We discovered 
COVID-19 on October 2019. I don't want to hold that to you, but 
that was testimony in this committee by another member of the 
administration.
    Mr. Gaynor. Yes, ma'am. That PANCAP plan was written and 
updated in 2018.
    Ms. Jackson Lee. Thank you. But that plan you did not get 
when you were handed the responsibility of supervising COVID-
19.
    Despite concerns from local officials that a lack of 
Federal testing support could cause further spread of the 
virus, in late June, the Trump administration confirmed it 
would no longer provide funding for 13 sites, including sites 
in States like Texas, which are experiencing rises in confirmed 
cases. Only 2 sites in testing have been extended until the end 
of July.
    Every medical expert says testing is diagnostic. I would 
appreciate it--2 questions: Why are they cutting sites? In 
that, I am requesting that the National Guard be continued past 
August 31 or at least until August 31 to continue our testing 
sites.
    Then I want to understand, in your plan, did you give 
States the urgency of the need for stay-at-home orders? As you 
well know, there was a White House task force report that was 
hidden and kept from States in terms of members or local 
authorities. My local mayor did not have it.
    In that report, moving onto that report, it indicated that 
Bexar County and Harris County were hot spots and that we 
should rewind back on our opening. Did FEMA get that report? 
Was there a reason why that report was kept? Should we now be 
rewinding in these hot spots because of that report? Mr. 
Administrator.
    Mr. Gaynor. Yes, ma'am. So let me try to answer what all 
your questions are. First, on the community-based testing 
sites, when we first started community-based testing sites--we 
call them 1.0, the first version of that. There are 41 of those 
across the country run and funded by the Federal Government to 
really get testing started in the local community.
    That has morphed into--we are in version 3.0 where there is 
more than 700 testing sites across the country. Most of those 
now accessible in places like Walmart, Walgreens, CVS stores, 
Krogers, where anyone can walk up and get a test.
    To the original Federal testing sites, it was not an issue 
about stopping funding. It was really about an issue of passing 
control and running the administration of those testing sites 
to States. Still running today some of them, I think the last 4 
in your district.
    I know you and I have had conversations about keeping those 
running because they are important to your community. We have 
adapted since the beginning, and I think this is why we have 
been successful. We adapt as we go because we learn new things, 
and so I think testing sites is really a testament to how we 
adapt to the testing need.
    On the National Guard extension, I think we have already 
had 2 extensions.
    Ms. Jackson Lee. We need another one.
    Mr. Gaynor. The most current extension runs out on August 
21. That extension is up for consideration. We spoke about it--
I spoke about it with the President, the Vice President, and 
the Coronavirus Task Force. There is not a week that goes by 
where I don't have the conversation with the Governor about 
extending it.
    That will be--I believe the administration, we are talking 
about all that. I think in time you will learn, we will learn 
what the decision is on that. But I have confidence that the 
National Guard continues to provide critical support to 
Governors across the country. At the high point, 40,000 
guardsmen and -women across the country providing all sorts of 
support. You know the kinds of things that they do in your 
community we need them to continue while we battle COVID-19.
    The last one, I believe, was the stay-at-home orders. Well, 
the Federal Government doesn't issue orders to Governors, 
States' rights. I think what we provided to Governors and 
mayors and Tribal chiefs is guidance. Here is the best 
guidance, CDC guidance.
    You know, I have learned a lot in my role on the 
Coronavirus Task Force. I was talking to Dr. Fauci the other 
day, and there are some fundamentals that we all have to do: 
Wear a mask, social distance, stay away from loud, large 
crowds, you know, don't go into bars, and good hygiene. If we 
do those 4 things, we can continue to crush COVID-19.
    So, again, we want to make sure that, you know, whatever--
every State is different, every locality is different, locally-
executed, State-managed, and Federally-supported. My role is to 
make sure I support those State Governors and those local 
elected leaders if they have a resource deficit.
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes, Mr. Higgins.
    Mr. Higgins. I thank the Chairman for holding this meeting 
and the Ranking Member, and I thank our witness for joining us 
today. The supply chain has been brought up several times by my 
colleagues on both sides of the aisle. I agree: One thing that 
has become very apparent during this pandemic is that the 
United States' reliance on overseas foreign countries, most 
notably China, where this virus originated, let us remember, to 
provide important medical supplies PPE, et cetera--I would 
argue many, many other items--it is very apparent. We have to 
change, as much has been done by the President's 
administration, to bring manufacturing work back to the United 
States. I think we need to take a deep look at our supply 
chains and bring back the capability to produce domestic 
products of strategic importance, such as medical supplies or 
food security.
    I would argue we are not just talking about China. We have 
to consider transit across the Pacific. We can't quickly or 
efficiently bring supply chains back to the United States 
without making the determination to do so, and we have to have 
the courage and the will in Congress to make those moves.
    From the Executive branch, we need action, as we have seen 
President Trump's administration, to bring manufacturing back 
to the United States and in our reliance on overseas nations 
for our medical supplies and focusing on sources that exist. 
What can easily be produced regionally should be a top priority 
of Congress.
    Administrator Gaynor, do you agree with the premise of what 
I just stated, sir, regarding shifting to regional supply 
chains? That would include not just manufacturing in the United 
States proper but using our reliable partners in the Western 
Hemisphere, especially Mexico and Canada, through the new USMCA 
agreement. Would you agree with that assessment?
    Mr. Gaynor. Yes, sir. I think just in a more general sense 
and, you know, we have to--this is a National security issue, 
PPE, and we have seen how critical that is to protecting lives 
and minimizing suffering. So we are on a path to increase U.S. 
production in the United States.
    The recent CARES Act provided $1 billion under Title 3 to 
bring some of these resources back to the United States. So 
investments in test kits and reagents, N95 masks and PPE, 
prioritize pharmaceuticals, vaccine delivery systems, and 
supply development are all initiatives that are under way in 
partnership with our DOD comrades and DLA, Defense Logistics 
Agency.
    Mr. Higgins. Yes, sir. Thank you for that thorough 
response. Obviously, we are still in the middle of this thing, 
and the strategic steps we need to take to be ready for future 
pandemics, that becomes increasingly clear as we continue to 
progress through this current challenge.
    My question now to you, sir, is, are agencies right now 
looking at what regional assets are available in North and 
South America, especially again the USMCA partners, to 
supplement and eventually replace our dependence on medical 
supplies and other strategic products that are currently being 
produced in China and elsewhere?
    Are you identifying strategic, capable locations and 
facilities with our reliable Western Hemisphere trading 
partners to replace the threat we have now? They could shut--
they could just turn the valve off, or we could have some sort 
of a challenge that would restrict us from crossing the 
Pacific. Are you identifying these assets now in the Western 
Hemisphere?
    Mr. Gaynor. So I can't speak to any specifics because it is 
really not in my current roles and responsibility. But I know, 
generally, just because there are conversations going on in the 
administration, supply chain task force, and other places that 
we are looking to maximize, you know, on-shore production of 
PPE and any other safe and resilient partner we can. Again, I 
would have to defer to Defense Logistics Agency or the DOD 
about how far they have gotten on some of those initiatives.
    Mr. Higgins. Right. Well, your part in the administration 
has taken historic actions to respond to this pandemic, and 
that means you are in the room. So you certainly--although this 
might not be the specific role that you play, according to your 
job description, do you have a sense from the Executive that we 
are looking beyond the scope that we have been restricted to by 
previous administrations?
    Let us not focus on the Obama administration or the Bush 
administration. This reliance on foreign production of 
important and strategic products has happened over the course 
of decades, and President Trump inherited that. It is being 
changed greatly now in response to this current threat. Would 
you generally agree with that and answer that question?
    I will yield, Mr. Chairman.
    Mr. Gaynor. Yes, sir. I think generally we are looking 
under every rock. We are turning over every way we can bring 
more production to the United States, have better partners with 
more reliant streams of PPE or other medical supplies critical 
to the health and safety of the United States.
    Chairman Thompson. The gentleman's time----
    Mr. Higgins. Thank you, sir, for your appearance here 
today.
    Mr. Chairman, I yield. Thank you, good sir.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Gaynor, let me ask, do you--or FEMA has any role in 
procuring testing?
    Mr. Gaynor. Yes, sir. The FEMA role has been--is to 
provide--so just to step back. So the administration provided a 
testing blueprint to Governors so they could build a testing 
initiative project, regime, based on their needs or their 
unique States. Our role has been to supply materials so they 
could conduct their test.
    Mr. Richmond. Right.
    Mr. Gaynor. So the 2 things that we have been doing since 
May is providing swabs and transport media to States. In my 
opening statement, we have shipped 42 million swabs and about 
32 million----
    Mr. Richmond. But are you shipping test kits? No.
    Mr. Gaynor. I am not--FEMA is not shipping test kits. I 
think a majority of test kits either come from the commercial 
sector. You can get them via the normal----
    Mr. Richmond. Well, let me just cut to the chase. In 
retrospect, would it have been a wise decision to take the 
tests offered by the World Health Organization when this 
pandemic first started?
    Mr. Gaynor. I would defer. So I have many great partners, 
and FEMA is----
    Mr. Richmond. Well, the short answer is we could use more 
tests right now.
    Mr. Gaynor. We have done 50 million tests.
    Mr. Richmond. That is not my question. Can we use more 
tests right now?
    Mr. Gaynor. I think we have enough testing platforms in the 
United States. I think we have to maximize those testing 
platforms.
    Mr. Richmond. Wait. Let's start over then. You are saying 
right now, as the FEMA administrator, the United States has 
enough tests right now?
    Mr. Gaynor. We have enough testing capacity. It is really 
the challenges of maximizing all that capacity. There are 
occasions----
    Mr. Richmond. OK. Let's--I am going to go to another 
subject. We want students back in school, correct?
    Mr. Gaynor. Yes, sir.
    Mr. Richmond. The President has declared a disaster. 
Through public assistance, which is run by FEMA, are you all 
going to include reimbursement for protective measures for 
school districts, such as masks for children?
    Mr. Gaynor. Yes, sir. We have been looking at our 
authorities under the Stafford Act, what we can buy under 
emergency protective measures. I think one of the things that 
the administration wants to be thoughtful about is through many 
supplementals, like the CARES Act, through the Stafford Act, 
how can you best maximize those funding resources?
    I think when you look at the funding that has been provided 
by Congress to schools, it is pretty significant. I think that 
there is enough money out there that Governors and mayors can 
use that money to do those things that you are talking about 
before they come to FEMA.
    Mr. Richmond. But----
    Mr. Gaynor. It doesn't exactly fit into our authority.
    Mr. Richmond. But that is not true. I mean, look, I am from 
New Orleans. I am familiar with project worksheets. I am 
familiar with public assistance. I am familiar with all of 
those things. Protective measures always fall within the 
Stafford Act and FEMA when you are talking about public 
assistance.
    So I don't understand--it is fine to say, well, we think 
they have money other places. But normally protective measures, 
such as thermometers, shields, and all of those things, would 
and should be--so we have an administration saying, ``Go back 
to school,'' but we are not providing the school districts or 
others with the funding.
    Now, the HEROES Act that provides so much funding for 
public schools is wasting away in the Senate. Now, so we are 
not going to approve public assistance eligibility for masks. 
Is that what I am hearing?
    Mr. Gaynor. So what I am saying is there is 17 different 
funding streams in supplementals that are specifically aimed at 
schools and public education.
    Mr. Richmond. Right. I am not talking about 17. I am 
talking about you. I am talking about FEMA and very 
specifically public assistance eligibility.
    Mr. Gaynor. Again, I will go back--you know, what is most 
effective, how can you maximize----
    Mr. Richmond. I am just asking if you made a decision.
    Mr. Gaynor. We have not made a decision.
    Mr. Richmond. I am not asking for your train of thought.
    Mr. Gaynor. We have not made a decision because there are 
other alternatives that are much better than----
    Mr. Richmond. Sir, so you have not made a decision?
    Mr. Gaynor [continuing]. Stafford Act funding.
    Mr. Richmond. So FEMA is not going to provide eligibility 
for masks. That is what I am hearing. If that is the case, just 
say ``no'' and we can move on.
    Mr. Gaynor. So I learned in this business never say 
``never.''
    Mr. Richmond. OK.
    Mr. Gaynor. So we have examined our authorities. We are 
looking at how the situation develops. We are looking at other 
authorities that have other money put to this task.
    Mr. Richmond. Let's move on to one last thing. What about a 
city's ability to pay hazard pay for things--I have a letter 
from a sanitation company whose guy is on the back of the 
trucks, increased cost for the city in dumping. Would cities be 
able to apply for eligibility under public assistance to pay 
increased costs for dumping and sanitation and hazard pay for 
sanitation workers?
    Mr. Gaynor. I would have to go back and look at the rules 
on that. I couldn't tell you whether it is eligible or 
ineligible.
    Mr. Richmond. Thank you, and I yield.
    Mr. Gaynor. But I will follow up with your staff on that 
specific item.
    Mr. Richmond. Thank you, and I yield back.
    Mr. Gaynor. You are welcome.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from Arizona for 5 
minutes, Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chair.
    First, I want to say I think it is mildly amusing that, 
after you in your opening statement bashed the President, then, 
at the end of the statement, you said this is not about bashing 
the administration or Trump. I don't think any of us really 
believe that.
    But in any case, the next thing I want to say that in my 
district, my staff checks on a weekly basis with all of our 
hospitals and Congressional district aid in Arizona, and they 
have all told me they have enough PPE.
    Also, I want to address the things about the schools. We 
voted for relief for the schools. We gave billions of dollars 
to the schools to deal with coronavirus. In fact, $850 million 
went to Arizona alone, and that was to buy PPE, masks, tablets, 
whatever they needed for coronavirus.
    Next, I want to thank you, Mr. Administrator, for having 
your regional FEMA people get on conference calls with me 
because, early on in Arizona, you know, everyone was worried 
about having enough masks, enough ventilators, everything. Your 
regional people would get on conference calls with me, the 
hospitals in my district, the Arizona Department of Emergency 
Management, and the Arizona Department of Health Services, and 
they would directly answer questions to the hospitals. So I 
thought it was very helpful, and please pass onto them that I 
think they did a good job.
    Also, I wanted to address about giving money to States and 
cities for this. We have given billions of dollars to States 
and cities to deal with coronavirus. So certainly what was 
mentioned by Mr. Richmond could be used for that.
    My next question, Mr. Gaynor, is about nursing homes. I 
have read that--I am just going to read it--FEMA has shipped 
28,562 deliveries of medical supplies to nursing homes to 53 
States and territories. FEMA coordinated 2 shipments totaling a 
14-day supply of personal protective equipment to all 15,400 
Medicaid- and Medicare-certified nursing homes.
    I also want to say that I joined Dr. Ben Carson, who 
personally came to Arizona to one of the nursing home 
facilities in my district. So I appreciate that the 
administration did that.
    But can you tell me, Mr. Gaynor, ``nursing homes,'' usually 
that term is not used in the industry. Does that mean skilled 
nursing homes, or does that include assisted living homes, or 
what does that include?
    Mr. Gaynor. The 15,400 are the 15,400 registered nursing 
homes with CMS, Medicare, Medicaid. So I am not sure--there may 
be different categories in that, and I would defer to 
Administrator Verma maybe to get the details on what all that 
consists of.
    Mrs. Lesko. OK. Thank you.
    Mr. Administrator, the last one is: I know you have done a 
lot of work--FEMA has--with the Navajo Nation in Arizona and in 
other States. Can you expand on what FEMA has done or is doing 
with the Navajo Nation in Arizona?
    Mr. Gaynor. Yes, ma'am. Thank you for recognizing my 
region. You have one of the finest regional administrators 
assigned to you out there, Bob Fenton. So I would like to give 
him a shout out. But we have been working with the Navajo 
Nation nearly from the beginning. We continue to be out there. 
I think we have about 25 people on the ground from FEMA, to 
include many other partners from the Indian Health Service, 
CDC, ASPR.
    We have provided almost $85 million in funding together, 
you know, about $5 million from FEMA and about $80 million from 
other sources. We have provided ventilators. We have provided 
surge capacity. We have provided medical staff, both DOD and 
HHS and logistics support to make sure that that community can 
respond to COVID-19. We continue to be out there. We will stand 
strong with them until we put COVID-19 in the rearview mirror.
    Mrs. Lesko. Well, and I want to say thank you to you and 
your staff, and I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
New Jersey for 5 minutes, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman and Ranking Member. It 
is an honor and a privilege to be here this afternoon--this 
morning, actually.
    I would just like to start out with responding to the 
gentlelady from Arizona's comments. You know, it is no one's 
pleasure to have to bash the administration, but I see that 
that is not necessary in Arizona. You know, we have to be 
mindful that we are here as oversight obligation and as part of 
our duties. You know, just like in the Obama administration, if 
there was need for criticism and bashing, we did it, and I 
don't think any administration should be above it.
    We are just glad to hear that there are States that are 
getting support, great support from this administration, New 
Jersey. Based on the comments from the gentlelady from Texas 
and the gentleman from Louisiana, our States have been lacking. 
So I guess we are not in favor with the administration. So I 
guess it is who your friends are is how this is going to work 
during this pandemic.
    Mr. Administrator, with reference to going back to school, 
do you feel that we have the capacity right now to keep 
students, teachers, bus drivers, administrators, anyone 
involved in the school day safe at this point?
    Mr. Gaynor. Yes, sir. Again, no 2 States are equal, no 2 
cities are equal, nor counties or Tribes. So there is lots of 
guidance out there that has been provided by CDC and others 
about what does a safe environment look like. I think Governors 
have to assess their risk about going back into school.
    Some States, you know, in New England, for example, are in 
pretty good shape. Other States in the sunbelt see a rise in 
coronavirus cases and hospitalizations. They are going to have 
to assess that risk and make the best decision for their 
constituents. So, again, I think what the administration has 
done is provide guidelines so we enable and empower Governors 
and mayors to make really good decisions for their 
constituents.
    Mr. Payne. Do you think--you know, I hear the message you 
are sending out, but it is not necessarily the same message 
that comes out of the White House. What can we do to coordinate 
the message so people across the Nation can be getting the same 
message and the same guidelines?
    You say one thing, and then the White House comes out with 
totally the opposite. I mean, I know you don't have very much 
control of that, but don't you think that if there was a 
coherent, solid message from everyone across the board, that we 
would be in a better position?
    Mr. Gaynor. Yes, sir. You know, I think, from my position 
on the White House Coronavirus Task Force, I meet most every 
day with the task force members, to include the Vice President, 
about a number of different things, to include messaging, 
messaging on schools, messaging on PPE, you know, what are the 
facts, and what is the narrative.
    So I think we are very thoughtful about not just creating a 
narrative and then finding the facts. We are trying to find the 
facts and create the narrative based on those facts. What I 
just stated about going back to school is, you know, what I 
subsumed from being in the presence of the task force. So 
whether it is Dr. Fauci or Dr. Birx or others, I think the 
message that we are all sending is the same.
    Mr. Payne. One last question.
    With the rise in cases in Texas and other States, why would 
FEMA be closing testing sites as you see an increase in the 
need for those sites? It doesn't make sense to me that as a 
State is escalating you are pulling out. You did it in New 
Jersey at a kind-of nearing a leveling-off time, but we were 
still having an issue and you left New Jersey.
    But to see Texas and what they are going through in Houston 
and other communities, how do you justify closing sites?
    Mr. Gaynor. Yes, sir. So, again, facts and narrative. So 
the facts are, when we first started testing in the United 
States, back in March, we had 41 sites, 41 Federally-run sites. 
In some cases, we closed sites because they were not needed 
anymore. In some cases, we moved sites because where we were 
testing was not the place to be testing at, so we moved them.
    In most cases, we transferred the responsibility of testing 
sites from the Federal Government to the State so they would 
run their own testing programs. Again, locally-executed, State-
managed, Federally-supported.
    Today, we have 750--more than 750 test sites across the 
country. So it is not a single point in time. We have been 
flexible and adaptable and innovative as we move along.
    Testing will probably change over the next weeks and months 
to something different, something more appropriate based on 
what we are seeing with cases and hospitalizations. This is not 
a static problem. This is a dynamic problem. I think testing is 
reflected in that.
    Chairman Thompson. The gentleman's time----
    Mr. Payne. OK. Well, thank you.
    Chairman Thompson. Thank you very much.
    Mr. Payne. Thank you. I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Joyce, for 5 minutes.
    Mr. Joyce. Thank you, Chairman Thompson and Ranking Member 
Rogers.
    Thank you for being here today, Administrator Gaynor, and 
for sharing your insights on emergency response to COVID-19, 
truly a novel coronavirus introduced from China to the world 
and here then in America.
    This virus has challenged us on many different levels. 
Thank you and your team for ramping up what has been an 
incredible response.
    In the face of the on-going needs of personal protective 
equipment, which you outlined for us, such as masks, gowns, 
gloves, do you agree that bringing protection home to America--
and by that I mean bringing the production of the masks, the 
gowns, and the gloves home--will allow us to better respond and 
replenish supplies?
    Mr. Gaynor. Yes, sir. I have said it before, it is a 
National security issue. This is my own point of view, is that 
PPE, life-saving equipment, is just as important as building an 
aircraft carrier. We need to have that capacity here in the 
United States. We cannot rely on our peer competitors to manage 
our destiny. We need to take hold of it, and we need to bring 
it back to America and build those things that are important to 
the Nation.
    Mr. Joyce. Administrator Gaynor, in the face of so many of 
these PPE supplies coming from China, would you again agree 
that bringing these production lines onshore to America would 
allow us not to be beholden to the Chinese Communist Party?
    Mr. Gaynor. Yes, sir, I think my previous statement stands. 
I mean, it is in our best interest.
    Mr. Joyce. Do you feel that the Defense Production Act has 
allowed FEMA to better perform your duties?
    Mr. Gaynor. Yes, sir. We have used the DPA 14 times. We 
continue to use it for a variety of challenges that we see.
    Again, it is just not as easy as flipping the switch and 
moving from making toasters 1 day to making vents the next day. 
There is thoughtful consideration about using DPA.
    One of our initial beliefs was we wanted to do no harm to 
the system, make sure we understood, if we did this, what was 
going to be the result of that, unforeseen consequence.
    So we use it deliberately. We use it precisely to make sure 
that we get what we need at the right amount of time. I think 
the production of ventilators is an excellent example of how 
the administration used DPA to save lives and minimize 
suffering.
    Mr. Joyce. You addressed National security and safety. Do 
you feel that bringing safely home the production of medicines, 
both prescription and over-the-counter medicines, vaccine 
production and therapeutics, personal protection equipment that 
we have discussed, are all necessary components for an 
effective National security and safety of all of our citizens?
    Mr. Gaynor. Yes, sir, and I want to thank Congress for 
providing a billion dollars to the Department of Defense and 
the Defense Logistics Agency to do all those things. You know, 
how do we become more resilient by bringing some of those 
things back home.
    Mr. Joyce. Thank you, Administrator Gaynor, for being here 
today, to addressing our questions, and for working hard as we 
fight this novel coronavirus. Again, thank you.
    I yield the remainder of my time.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Gaynor, when we held part one of this hearing a few 
weeks ago, Governor Pritzker of Illinois noted that Project 
Airbridge was--and I am quoting him--``an utter and complete 
failure'' in his State of Illinois. I think that this was in 
part because Project Airbridge and the medical supply companies 
that you at FEMA have partnered with on this project are moving 
supplies from overseas to existing customers instead of 
distributing those supplies by need.
    It is my understanding that Project Airbridge has now 
conducted 249 flights. What percentage of the National need for 
PPE was supplied by the Airbridge project?
    Mr. Gaynor. Yes, ma'am, and thank you for giving me the 
opportunity to once again clarify the--I think the Governor of 
Illinois is misinformed about the purpose of Airbridge. If he 
is calling it a failure, I will just say that we shipped to his 
State, Illinois, a million face shields, 841 million gloves, 60 
million gowns, nearly 12 million N95 masks, and nearly 45 
million masks. So if it was a failure, then I guess that is a 
failure.
    The purpose of Airbridge----
    Miss Rice. Mr. Gaynor, if I can interrupt you there for a 
second. I am asking specifically about Airbridge. I am not 
talking about--I mean, I don't know if you saw there was a 
report back in May from The Washington Post that reported 
overall that Project Airbridge flights had distributed 768,000 
N95 masks, which is far fewer than the 85 million N95 masks 
procured through conventional Federal relief efforts.
    So I am asking you to confine the numbers that you use 
specifically to the Airbridge project, not other conventional 
Federal relief efforts.
    Mr. Gaynor. Yes, ma'am. Again, you brought up Governor 
Pritzker. I just want to make sure we set the record clear 
about what is fact and what is an uninformed narrative.
    Airbridge, again, I said in my opening statement, was our 
effort to accelerate PPE from around the globe to the United 
States to prevent suffering and to save lives. Very simple. We 
partnered with the 6 biggest commercial medical grade 
distributors in the country, companies like McKesson and 
Cardinal and others, to partner with them to bring this PPE to 
the United States.
    Again, typically, it takes 37 days to put PPE on a 
container ship and get from Shanghai to Los Angeles, and we did 
this in 1 day with an Airbridge flight.
    Miss Rice. So, Mr. Gaynor, let me stop you there, because I 
have very limited time. I understand that it sped up the time 
it took for stuff to get here. If it is not going where it 
needs to go, for instance--for instance--you know, nursing 
homes don't have previous relationships necessarily with 
medical supply companies. It is my understanding that once the 
PPE got here, it was basically left up to the medical 
distributors to decide where it was going to go. There was a 
requirement that it go in order to justify the subsidized cost 
of the flight, that it had to go to States with the most need. 
But that is not how it happened because they prioritized people 
with whom they had prior relationships.
    Mr. Gaynor. Yes, ma'am. Again----
    Miss Rice. So you can tell the success of how long it took 
to get stuff here. But if it is not going where it needs to 
go--and we know it didn't--that doesn't help.
    Mr. Gaynor. It is not--and, again, I want to be 
respectful--but that is not how to worked.
    So our agreement, our written legal agreement with the big 
6 manufacturers and distributors was 50 percent of all the PPE 
that we moved via Airbridge, to include what commercial 
distributors brought in on their own, 50 percent of all that 
was directed to hotspots.
    Those hotspots were prioritized by us, FEMA, HHS, Dr. Birx 
with her daily data, to make sure that we are aiming, again, 
life-saving PPE to the places that need it the most.
    The commercial companies did not--could not pick and choose 
where they sent it. A certain percentage, yes, they could use a 
certain percentage to service their customers. But for the 
majority of that PPE, they directed it, because we prioritized 
it to where it was needed the most. We did that every 96 hours 
to make sure that we understood where are those places that 
need it the most and directed those distributors to do it.
    One of the great things about Airbridge and our supply 
chain control tower, we can see down to exactly into all the 6 
commercial distributors what is on the shelf, what was ordered, 
what ZIP Code it went to, and what hospital it went to. We 
supplied all that data every week, we still do it every week, 
to Governors to show here is all the PPE, whether it is 
donated, whether it is Airbridge, or whether it is Government, 
it all goes to these exact places. Governors have complete 
transparency on the use and distribution of PPE, whether it is 
Airbridge or whether it is through the commercial sector.
    Miss Rice. Thank you, Mr. Gaynor. My time is up. But I just 
think it is important to note, because this was raised before, 
I don't know if you answered this or it was a question to you, 
about how President Trump inherited the stockpile.
    The fact is that he sat on that stockpile, should have been 
aware that it was not sufficient, for 3 years. So he can't 
blame anyone other than his own administration for not heeding 
the warnings that a pandemic was coming and not making sure 
that we had the supplies that we needed of PPE well before 
March of this year, which is why Project Airbridge even had to 
be conceived.
    So thank you for your testimony here today.
    Mr. Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Bishop, for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Gaynor, you have been in emergency management for a 
long time. Is the morale of the American people important to 
successfully responding to the pandemic, in your judgment?
    Mr. Gaynor. Is the morale of the American public important?
    Mr. Bishop. Yes.
    Mr. Gaynor. Oh, I believe so, yes, sir.
    Mr. Bishop. Do appeals to panic and recriminations advance 
your mission or make it more difficult?
    Mr. Gaynor. Panic does not help in any disaster, sir, 
whether it is a hurricane or whether it is COVID-19 response.
    Mr. Bishop. If appeals to panic and recriminations are fed 
by misinformation and distortions, that is doubly so, isn't it?
    Mr. Gaynor. It makes the job a little bit harder, sir, 
because not only are you trying to deliver solutions to those 
most in need, you are trying to fight a narrative that 
sometimes is untrue.
    Mr. Bishop. Do simplistic criticisms that belie the 
complexity of the situation you are dealing with, do those help 
you or retard the effort you are making?
    Mr. Gaynor. I guess I would have to hear how simple the 
interpretation of what we are talking about is. But I think 
facts, solid facts based on data, and that is what we have been 
doing at FEMA, data-driven decisions based on everything that 
we know. I am not saying we know everything, but within our 
limits of knowing, we make data-driven decisions. It is our 
goal to make sure that data, facts drive the truth and the 
narrative.
    Mr. Bishop. You testified in response to Mr. Richmond's 
question that we have adequate testing in the United States. I 
think, I am not sure I am recapitulating your statement 
perfectly, whether we need to maximize or we need to maximize 
the utilization of it, I think. Something like that.
    Would you, if you recall what I am talking about, would you 
address that and elaborate, explain that?
    Mr. Gaynor. Yes, sir. So early on when the testing--even 
before the testing blueprint was published, because I was a 
member of the White House Coronavirus Task Force, we wanted to 
make sure that we knew where all the testing platforms are in 
the United States, every single one, from doctor's offices, to 
universities, to colleges, to veterinarians, who had a platform 
that can do testing. Through a lot of hard work by a lot of 
talented people, we identified all of the testing platforms 
around the country and gave those to Governors. Our goal was to 
enable Governors to devise a testing program that fit their 
State and their needs.
    Not every State is equal. Cases aren't equal. 
Hospitalizations aren't equal. ICU use and ventilators are not 
equal. So each State had its own unique demand signal on 
testing.
    Now it has changed. We focused on New England and New York 
and New Jersey a couple of months ago and now we are looking at 
the Sun Belt. I am not going to say that testing is not 
stressed in those, in the Sun Belt, because it is, but we 
provide resources to States to make sure they have enough to do 
that.
    I think it was announced a couple of days ago that the 
administration is purchasing testing machines for every single 
registered nursing home in the country, 15,400 testing machines 
to make sure we take care of our most vulnerable.
    So, again, this is a dynamic situation. We adapt as we go. 
We learn as we go. If we had a shortfall or mistake we take 
that on board and we correct it.
    Emergency management and crisis and this historic COVID-19 
response, no one has done this before. We learn as we go. I 
have 20,000 dedicated employees that work hard every day. There 
are 40 other actions that are in support of FEMA and HHS as we 
battle COVID. Tens of thousands of dedicated employees out 
there making sure we do the best thing. If we fall a little 
short, we will pick up, we will adjust, and we will make it 
better the next iteration. That is how it works.
    Emergency management, responding to crisis is not a perfect 
game. There will be mistakes made. But we learn from them and 
we adapt and overcome. We will be successful. I have no doubt 
about it.
    Mr. Bishop. In testimony referred to earlier, Governor 
Pritzker of Illinois insisted that if the administration had 
just used the Defense Production Act and just taken everything, 
it would have been magic, we could have resolved all problems 
with respect to the PPE. Is that true or false?
    Mr. Gaynor. It is--I believe it is false, sir. Let me give 
you an example. I talked about doing no harm with the DPA.
    If you remember back, there was a large demand, still a 
large demand today, but a truly large demand for N95 masks. So 
when you asked the producers who make those to make more, they 
willingly did it. So whether they are making them in the United 
States or they are making them in China or somewhere else, they 
did it.
    But the material for N95 masks is the same material for 
gowns. So the result of making more masks is now you don't have 
enough material for gowns.
    So you have to be thoughtful about how you run those levers 
on industry. It is just not simple, we are going to turn a 
light switch and today it is toasters and tomorrow it is N95 
masks. It doesn't work that way. We want to be thoughtful about 
it, and we want to make sure we do no harm to a system that in 
some cases, when it is medical grade PPE, is under stress.
    So we use the DPA very deliberately, we use it very 
precisely, and we have great success stories, like ventilators, 
to show for it.
    Mr. Bishop. Thank you, Mr. Chairman. My time has expired.
    Chairman Thompson. Thank you very much.
    Mr. Gaynor, your testimony to this committee is that we use 
the Defense Production Act in a timely manner.
    Mr. Gaynor. Well, I am not sure I used the word ``timely.'' 
I am saying we use the Defense Production Act when we 
understood when and how to use it.
    So, again, this is what I said before, do no harm. So just 
to radically use it from Day 1, you don't know what the 
consequences are downstream.
    Chairman Thompson. Well, I understand what you are saying.
    Mr. Gaynor. So conversations with industry, conversations 
with our private partners to understand, ``Hey, if you do this, 
this other thing will suffer,'' those conversations were going 
on with the administration, with the task force, with FEMA, 
with HHS, with DLA, DOD, to understand, ``Hey, if you do that, 
you may get a negative result on this.''
    So when we understood that, hey, we are going to use DPA 
for the best result, then we executed it.
    Chairman Thompson. So your testimony is that when the 
Defense Production Act was used, it was used in a timely 
manner?
    Mr. Gaynor. Those are your words, Mr. Chairman. I am 
saying----
    Chairman Thompson. No, I am asking you.
    Mr. Gaynor. I just explained how we used it.
    Chairman Thompson. I am asking you that in the execution of 
the Defense Production Act, was it used in a timely manner?
    Mr. Gaynor. From my point of view, we used it when we 
needed to use it, when we understood the entire environment 
about the pros and cons of executing the DPA, whether it was 
Title I, Title III, Title VII. We wanted to understand all of 
those things.
    Chairman Thompson. Well, you did all of that, yes or no?
    Mr. Gaynor. My answer stands as answered, sir.
    Chairman Thompson. Yes, well, OK.
    The Chair recognizes the gentleman from California, Mr. 
Correa, for 5 minutes.
    Mr. Correa. Thank you, Chairman Thompson, for holding this 
most important hearing. Our Nation is failing in our response 
to COVID-19.
    Let me, if I can, talk a little bit about Main Street in my 
district where today, almost on an everyday basis, I begin to 
hear the names of individuals that I know that are dying.
    I live in a hotspot, Santa Ana, Anaheim, California, home 
to the happiest place on Earth, Disneyland, that has been 
closed for a number of months now. A lot of unemployment, a lot 
of people suffering, a lot of people dying.
    Mr. Gaynor, thank you for being here today.
    You mentioned that you are part of the COVID Task Force. Is 
that correct, sir?
    Mr. Gaynor. Yes, sir.
    Mr. Correa. Would you say that we are still learning about 
COVID-19, we just don't have enough data? We are learning right 
now, yes?
    Mr. Gaynor. Well, I mean, I think one of the Members 
mentioned it is a novel disease, right?
    Mr. Correa. Yes. So we are still learning.
    Mr. Gaynor. It didn't exist on the planet.
    Mr. Correa. But little bit that we know of COVID-19, I 
mean, can we agree on some basic things, like social distancing 
works, face masks work?
    Mr. Gaynor. Yes, sir.
    Mr. Correa. I am hoping we have a National message that 
actually tells people that these basic things, the little bit 
that we know, that face masks work. Because the confusion in my 
district, OK, folks dying, the horror stories I hear of people 
out there with no face masks at social events is terrible.
    You mentioned do no harm, you mentioned watch out for 
unforeseen consequences, and you also mentioned that we are 
still importing almost all of our PPE.
    You are on the planning task force for COVID-19. Can you 
tell me when can we expect to be functionally supplied in this 
country? When can we manufacture, for our own Nation's defense, 
PPE, enough PPE?
    My wife is a doc. She came home 2 weeks ago and said, 
``Guess what happened last night?'' I said, ``What happened?'' 
She said, ``Somebody stole my protective equipment.'' She 
delivers babies. She is around positive COVID-19 patients on a 
daily basis.
    When can we, sir, expect to have America manufacture PPE 
for our population? When can we be there, sir?
    Mr. Gaynor. Yes, sir. So let me just go back to the mask 
thing, because I just want to--I want to help you.
    Mr. Correa. It is a yes or no. Do they help, yes or no? It 
is a basic answer to the question.
    Mr. Gaynor. No, I explain it--you made a previous 
statement. I would just like to hopefully help the dialog about 
wearing a mask.
    Mr. Correa. Yes. I only have 2 minutes left.
    Mr. Gaynor. So wearing a mask really--the message I think 
we all want is the mask really doesn't protect me, right? Me 
wearing the mask protects you.
    Mr. Correa. Does wearing a mask help in the COVID 
environment?
    Mr. Gaynor. Yes, sir. Yes, sir.
    Mr. Correa. Yes.
    Mr. Gaynor. Wearing a mask----
    Mr. Correa. That is all I want.
    Mr. Gaynor. Well, wearing a----
    Mr. Correa. Social distancing works, yes.
    Mr. Gaynor. Social distancing, hygiene, staying out of 
bars, crowded places, all those things work.
    Mr. Correa. I am going to reclaim my time, Mr. Chairman.
    Sir, I am not trying to be argumentative. As a 
representative of my constituency I want to know, you are on 
the planning commission for COVID-19, when can we expect to 
have enough manufacturing of COVID-19 protection gear in this 
country?
    Mr. Gaynor. I can't give you a date, sir. Again, it is not 
a light switch. It is a rheostat.
    Mr. Correa. Speculate. I mean, you talked about do no harm. 
I am seeing consequences----
    Mr. Gaynor. So we are working every----
    Mr. Correa. Go ahead, sir.
    Mr. Gaynor. I am just trying to answer your question, sir, 
I don't want to get into an argument.
    But we have been working on increasing industrial 
production of PPE for months now. Again, it is happening.
    Mr. Correa. I am going to reclaim my time. Thank you very 
much.
    You know, as I look at post-COVID-19, this is like post-9/
11. We are never going to go back to being the way we were 
before. We may have COVID-20 ahead of us.
    I am just hoping COVID-19 again teaches us that lesson that 
we forgot, that we should have learned from Ebola and Zika. We 
are asleep at the wheel. This is not blaming anybody.
    But I am trying to figure out, you are in that hierarchy at 
the top levels of planning for the next pandemic. Bad guys 
around the world have finally figured out a new way to hit us. 
Heaven forbid, heaven help us if somebody drops a dirty 
biological, a dirty viral bomb on our country. We are not 
ready.
    That is what you are telling me right now, Mr. Gaynor. You 
don't know when we will have that----
    Mr. Gaynor. I am not telling you that, Congressman. I am 
not telling you we are not ready.
    Mr. Correa. I am going to reclaim my time.
    Mr. Gaynor. Your question was about PPE.
    Mr. Correa. If China again decides to lock down and not 
export PPE, where are we going to be, please?
    Mr. Gaynor. So, first of all, sir, you know, I said in 
response to a Member that FEMA has never been more than ready. 
I have said repeatedly this is not just about throwing a bunch 
of money at PPE and having it all tomorrow where we want it, 
when we want it on the United States. It takes time----
    Mr. Correa. In the last 2 seconds, I am going to reclaim my 
time, sir.
    Mr. Gaynor. I want to answer your question, but I just want 
to actually speak.
    Mr. Correa. I am out of time, and I look forward to getting 
an answer to your question in a written form.
    Voice. Mr. Chairman, the gentleman's time has expired.
    Mr. Correa. Mr. Chairman, if I can have 15 seconds.
    I just want to say this. I do believe that COVID-19 has 
brought us to a new environment in this society. We have to 
plan for these kinds of attacks either by Mother Nature or bad 
guys in the future.
    You are in FEMA, and I hope and I pray to God that you are 
moving ahead to plan to protect this great country.
    Mr. Gaynor. COVID-19 is not an attack, it is a disease, it 
is a new disease that we never seen unfold.
    Mr. Correa. That is why I said it is Mother Nature.
    Mr. Gaynor. It is much different from Zika and Ebola. So 
again, 2--we are comparing apples and oranges to this.
    So again, I want to tell you there are tens of thousands of 
dedicated Americans out there working on this problem today.
    Mr. Correa. Thank you. I look forward to hearing your 
statement in writing.
    Mr. Gaynor. They have been working on the problem for 
months. We will overcome it. I can't give you a date, but I can 
guarantee we will have enough PPE made in America for the next 
crisis.
    Chairman Thompson. The gentleman's time----
    Mr. Correa. Excuse me, Mr. Chairman.
    When do you guarantee to have PPE ready?
    Mr. Gaynor. I just said I couldn't give you a date.
    Mr. Correa. Thank you very much.
    Mr. Gaynor. But we will be successful.
    Chairman Thompson. The gentleman's time has expired.
    Mr. Gaynor. I have no doubt of the power of the American 
public and American industry and American resolve. No doubt 
whatsoever.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New Mexico, Ms. Torres Small, for 5 minutes.
    Ms. Torres Small. Thank you, Mr. Chairman.
    Thank you, Ranking Member.
    Thank you, Administrator Gaynor, for being here today and 
for all of your work to try to stop the spread of COVID-19.
    In preparation for today's hearing we have heard 
perspectives from the GAO, from a former FEMA administrator, 
and from State officials. Something I repeatedly heard was that 
because the administration wasn't able to provide a National 
strategy to procure PPE and medical supplies, States were left 
on their own to buy these supplies. That pitted States against 
each other, creating unpredictable availability and soaring 
prices.
    I really appreciate you recognizing that in your opening 
statement, the same challenge when it comes to States having to 
compete to purchase.
    Here is the problem for my home State in New Mexico. These 
bidding wars that States were forced to partake in put smaller 
and rural States with less purchasing power, like New Mexico, 
at a disadvantage.
    You testified earlier that your role is to help State and 
local governments if they have a deficit, and I deeply 
appreciate that. You also testified that you support a National 
strategy for increasing domestic production of PPE and medical 
equipment, and I deeply appreciate that.
    Do you also believe that the administration should 
implement a National procurement strategy to address this 
National emergency and make it easier for States to get PPE and 
medical supplies?
    Mr. Gaynor. Yes, ma'am.
    So, again, just to go back, we were in global competition 
for PPE, 150 more countries, every Governor, every mayor, every 
Tribal chief, looking for the same exact thing, global 
competition. Where it was made, it was made in China, where 
manufacturing was ramped down because they were dealing with 
COVID-19 themselves.
    So we have a ways to go to make sure that we have a reliant 
industrial base that can make PPE in America, not just for 
while we respond to COVID-19. This is the trick. We need to do 
that and we need to support those industries for the long haul, 
right? It is just not for a couple years. We need to support 
them so they can stay in business, they can be competitive, and 
we can get PPE when we want. So we have to do that.
    Ms. Torres Small. Thank you.
    Mr. Gaynor. We have to----
    Ms. Torres Small. Administrator, I just want to--I know I 
have got other questions.
    Mr. Gaynor. OK.
    Ms. Torres Small. I did want to let you go back, but wanted 
to also make sure I get to ask a few more questions.
    So I appreciate you recognizing the National strategy for 
procurement as well as getting more producers domestically. I 
am focused on what we do moving forward. I really appreciate 
your comment that emergency management isn't about perfection, 
it is about getting better. So moving forward, having that 
National procurement strategy, as we see increasing cases, 
again, will be very helpful to rural communities, like the ones 
I represent.
    I also wanted to shift to non-Federal cost share for 
Tribes. I really appreciate you recognizing the work that FEMA 
has done and you spearheading the work that FEMA has done to 
support Tribes.
    My State of New Mexico is home to several Tribes and 
Pueblos, and they have been disproportionately affected by 
COVID-19. In fact, as of May, in New Mexico, American Indians 
compose 57 percent of COVID-19 cases, even though American 
Indians only account for 9 percent of the State's population.
    New Mexico is not alone. In Wyoming, American Indians 
account for 30 percent of the cases compared to just 2 percent 
of the State's population. In Arizona, the numbers are 11 
percent compared to just 4 percent of the population.
    Administrator Gaynor, thank you so much for your actions to 
serve Tribal governments. Many Tribal governments have 
requested a waiver of FEMA's 25 percent non-Federal cost share. 
Are you aware of those requests?
    Mr. Gaynor. Yes, ma'am.
    [Inaudible.]
    Ms. Torres Small. I certainly understand that.
    Given the disproportionate impact on Native American and 
sovereign governments, have you recommended an increase in the 
current reimbursement level for Tribal pandemic response 
efforts?
    Mr. Gaynor. We have not, although we have had numerous 
conversations with the administration and OMB.
    One of the things that we are trying to be considerate 
about is all the other funding that is out there. I mentioned 
it before, I forget what the topic was, but schools, there is 
lots of funding out there that may be a--in this case a Tribe 
could use that has more leverage than Stafford Act.
    Ms. Torres Small. I have got to reclaim my time there, just 
because for Native American sovereign governments, there was an 
incredible delay in getting the money that was out there from 
the CARES Act. There was an incredible delay in getting the 
money that was out there from previous funding streams from the 
compromise in the earlier legislation.
    So now they are being pushed to spend that money very 
quickly, before the end of this year. So there isn't money out 
there elsewhere. So I hope that you will reconsider reducing 
that share.
    Mr. Gaynor. So it is under consideration. The President has 
the final authority to approve cost shares. So whether it is 
something less than 75-25. But we are in active conversations 
with both the administration and OMB about how we actually 
execute that.
    Part of the problem is we are still in response. When does 
the--if you are familiar with how a disaster works, there is 
the beginning of the incident, and there is the end of 
incident. So all those considerations have be to taken into 
consideration.
    So there is not an end date to this, and we just don't want 
to--we want to be thoughtful and meaningful about how we get to 
an answer.
    Ms. Torres Small. I yield my time.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from New York, Mr. Rose.
    Mr. Rose. Thank you, Mr. Chairman.
    Mr. Gaynor, I want to talk to you about a comment that you 
made earlier where you noted that lab capacity is at sufficient 
levels. Am I correctly phrasing what you said?
    Mr. Gaynor. So I think Nationally there is capacity. I 
think based on where a certain jurisdiction is----
    Mr. Rose. Of course. So across the Nation.
    Mr. Gaynor [continuing]. May be stressed.
    Mr. Rose. Right. Across the Nation, if you take into 
account laboratory equipment, availability of reagents, as a 
Nation we have enough infrastructure to test, it is just a 
matter of where the testing is happening, correct?
    Mr. Gaynor. Generally, yes, sir. Again, Dr. Giroir is the 
testing expert. I don't want to get into his----
    Mr. Rose. Of course.
    Mr. Gaynor. Generally, that is how I----
    Mr. Rose. Based off that proposition then, across the 
Nation, what does our capacity allow for us to test?
    Mr. Gaynor. I would have to defer on the total.
    Mr. Rose. But you----
    Mr. Gaynor. Today--I mean, we have tested 50 million so 
far.
    Mr. Rose. No, no, but that is----
    Mr. Gaynor. We are testing about 800,000 a day.
    Mr. Rose. I agree. I think that we need more. I would argue 
we need much more on a daily basis.
    So the numbers are great, especially when you say 50 
million. Fifty million, it looks, ``Wow. Oh, my God.''
    That is not enough. That is not enough. We need to test 20 
million people a day in this country.
    So when you come before us and you say that the capacity is 
enough, but then when I ask you what the capacity allows for us 
to test, and you say, I don't know, it is difficult to continue 
the conversation.
    Because I want to then talk to you about, OK, if the 
capacity is enough, how do we divert tests from one part of the 
country to another. I want to talk to you about swabs and the 
fact that we don't have enough swabs, and they are glorified Q-
tips. This is the greatest country in the history of the world. 
Why don't we have enough swabs?
    But my hope is that you can take our questions seriously. 
So if you tell us that we have enough infrastructure in this 
country, i.e., enough laboratory equipment and enough reagents, 
I want to know, how much would that let us test?
    Mr. Gaynor. Again, I am not in charge of testing. I would 
defer the details of specific numbers of testing platforms and 
all that to Dr. Giroir.
    Mr. Rose. OK.
    Mr. Gaynor. What I am saying, generally, there is testing 
capacity. It is stressed in locations that have increased 
cases, increased hospitalizations. There is no doubt about it. 
We have been shipping--there is not a shortage of swabs. There 
is not a shortage of media.
    Mr. Rose. So then what is the problem? If what you are 
saying is, is that we only have particular hotspots in this 
country where there is not enough testing, whereas in other 
places there is more than enough swabs, more than enough 
infrastructure, what is the problem? What aren't we doing well 
enough as a country?
    Mr. Gaynor. Well, again, like I said in the beginning, we 
learn as we go. Where we started out with 41 testing sites, now 
we have 750. As the disease moves from an epicenter like New 
York and New Jersey to now where it is seeded more differently 
across the Sun Belt, in virtually every county it is different. 
So we will adapt as we go.
    One of the ways we are adapting is HHS and Dr. Giroir, 
another initiative is to purchase rapid testing for 15,400 
certified nursing homes across the country.
    Mr. Rose. Those are good things.
    Mr. Gaynor. So, again, we learn as we go and we adapt as we 
go.
    Mr. Rose. Those are good things. But you can see from our 
perspective how it is difficult to get a specific answer.
    What should our goal be as a country? How many tests should 
we be doing every day?
    Mr. Gaynor. Again, I am not a medical doctor. I would defer 
to Dr. Giroir on all those medical kinds of things. Our goal is 
to save lives and minimize suffering. That is our goal.
    Mr. Rose. So you are telling me that you are not--at your 
disposal, you don't have a National target for testing for this 
country?
    Mr. Gaynor. What I am saying is I am not in charge of 
National testing. Dr. Giroir from HHS is. Hopefully, you can 
get him to explain in detail about the testing strategy.
    I know what our role from FEMA is about supplying material 
like swabs and media to Governors to run their very unique 
testing programs.
    Mr. Rose. You are saying that we have enough swabs right 
now?
    Mr. Gaynor. Yes, sir. We shipped 42 million swabs in less 
than 3 months, and we have shipped 32 million media in 3 
months, and we can do more than that.
    Mr. Rose. How many more can you do?
    Mr. Gaynor. It depends on the demand.
    Mr. Rose. Well----
    Mr. Gaynor. How many more can we do?
    Mr. Rose. Yes.
    Mr. Gaynor. We can do millions more.
    Mr. Rose. Could you do a hundred million? I mean, do you 
have a number for what--what is our capacity for swab 
production right now?
    Mr. Gaynor. I would have to defer to HHS, who runs the 
testing program.
    Mr. Rose. OK. So for all testing issues go to HHS. Is that 
the point that you are making?
    Mr. Gaynor. Other than what FEMA's role is today.
    Mr. Rose. What is FEMA's role in terms of testing?
    Mr. Gaynor. Shipping swabs and media to States so States 
and Governors can run their testing programs.
    Mr. Rose. OK. So I just asked you, how many swabs can we 
ship in this country?
    Mr. Gaynor. I can tell you what we have shipped,
    Mr. Rose. But how many could we? That is my--it is just a 
basic number.
    Mr. Gaynor. Again, I mean, I would have to go to the supply 
chain [inaudible] to get those numbers.
    Mr. Rose. By the way, it is an acceptable response to say 
you will get back to us. I am OK with that. What I am not OK 
with is the hot potato here. I am trying to ask you very simple 
and----
    Mr. Gaynor. There is no hot potato. It is just a matter 
that that is not my role at FEMA, is testing. It is HHS's role. 
There is no hot potato here. I am just telling you the way it 
is.
    Mr. Rose. But I--and I understand my time is up. But just 
to review the conversation, you said HHS is testing----
    Mr. Bishop. Mr. Chairman, point of order. The question is 
answered.
    Chairman Thompson. Hold on a minute. Hold on a minute.
    Mr. Bishop.
    Mr. Bishop. Mr. Chairman, this is the third Member of the 
Democratic Majority that has exceeded by some distance their 
time in questioning and persists in asking questions after 
their time has expired, not only not letting the witness finish 
their answer.
    Chairman Thompson. Let me be clear. I have been very, very 
tolerant with every person who asks questions, and I plan to 
continue.
    Mr. Bishop. Well, I will bear that in mind.
    Chairman Thompson. The gentleman from New York may 
continue.
    Mr. Rose. Mr. Bishop, thank you for your diligence. I will 
try to be better.
    Chairman Thompson. Let me just for the record indicate 
that, Mr. Rose, we invited HHS to be a part of this committee 
hearing so we wouldn't have the absence of information for 
testimony.
    The Chair recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you very much, Mr. Chairman. I am taking 
the mask off.
    I want to just start by saying thank you. This has been a 
once-in-a-century pandemic that has hit this country. There 
have been mistakes made, there is no question. Before we start 
pointing fingers, I just want to say thank you, because we have 
done so much to try and get it right. It is not easy, and there 
are mistakes. There is no question about it.
    I can tell you some bright spots. In my district, a 
plastics manufacturer shut down his factory, 1 of his 6 
locations, and is converting it into a test manufacturing 
facility. By the end of this month, he will start producing 1 
million tests a month.
    That is happening all over the country. We are responding 
to something that--I credit what you say. It is a moving 
target. Things are changing quickly. We thought up until 
recently that once you got--once you tested positive for COVID 
and if you have the antibodies, you are OK. Now we are finding 
out the antibodies might not be lasting. That is another 
wrinkle we didn't test and we could not foresee.
    So there have been mistakes. Clearly FEMA has made some 
mistakes. Clearly, everybody has. Clearly, we have. But the 
bottom line is I want to say thank you to all the men and women 
who are on the front lines, like my son who is running a 
testing center for the National Guard who put his life on the 
line every day and his kids' life on the line that he is 
commanding, and the FEMA people out there on the front lines 
trying to do the right thing.
    So thank you, and thank you to everybody in the United 
States, everybody, who has done their job and is trying to 
fight this awful pandemic. I know nurses who have given up 
their jobs and careers and walked into nursing homes that have 
100 to 150 positive patients and volunteered to go in there.
    There are so many great American stories out there. I would 
like to just pause for a second and emphasize some of those 
great stories, because that is what makes America great. Can we 
be better? There is no question about it. So let's keep it 
balanced here.
    Now, I just want to take a step back. I am sorry, I got 
here late. I don't know if this question has been answered. 
Could you give me the status of what is going on with the 
Airbridge? Is it still going on? Are there still flights coming 
in? What is going on with that?
    Mr. Gaynor. Yes, sir. Just to go back and thank you for 
saying that there are successes. But I like to say there are 
many more successes than there are mistakes or shortfalls. I 
want to be on the record.
    Mr. Katko. Yes. Understand, it is our job to commit 
oversight. So I commend my colleague from New York for probing. 
But the bottom line is let's keep the balance here, let's keep 
our eye on the big ball. We have done a tremendous job under 
unbelievable circumstances. No one could have foreseen what has 
happened here. So all the front-line workers, just thank you.
    Mr. Gaynor. Thank you, sir.
    Airbridge concluded with 249 flights around the 1st of 
July, bringing back critical supplies from China and other 
places to the United States. This was a--again, Airbridge is a 
way to speed, accelerate those critical resources to front-line 
workers so we can protect lives and minimize suffering.
    So Airbridge has been sunsetted. That time that we ran 
Airbridge has allowed manufacturing overseas to catch up, to 
get more greater quantities on shipping container ships. So 
that typical mode of transportation pre-COVID on container 
ships is now more intact and more frequent and has allowed 
commercial producers to distribute more PPE across the country.
    Mr. Katko. Great.
    Now going forward, I just want to kind-of ask you, what do 
you think we should be concentrating on to assist you in doing 
your job? What are some of the things that haven't been done 
yet that maybe we can consider in the next package?
    Mr. Gaynor. I want to thank Congress specifically for 
funding the Disaster Relief Fund. This has allowed FEMA to fund 
PPE and staffing, alternate care sites, all those kinds of 
things that Governors and mayors need. So I thank you for fully 
funding that.
    I think the challenge for FEMA right now, especially with 
the outbreak in the Sun Belt, is making sure we have enough 
adequate staffing. Again, I took a tour of the Gulf Coast last 
week. The demand for PPE, we didn't hear that. The demand for 
ventilators, we didn't hear that. The demand for alternate care 
sites or beds, we haven't heard that yet. The demand is really 
for medical professionals in hospitals to kind of backfill 
those kind of needs.
    You know, 50 percent of all the cases now are Florida, 
Texas, California, and Arizona. So that is kind-of our focus. 
So getting volunteers from other parts of the country to go 
down and help would be helpful to us to increase that 
bandwidth.
    Medical doctors, nurses, respiratory therapists, they are a 
high-demand, low-density asset. You have to be really careful 
about where you get them from. In some cases you would say, 
well, just we will activate the National Guard or we will 
activate the Reserves. But those doctors that are in the 
Reserves are doctors in hospitals today. So there is a delicate 
balance that we are trying to maintain.
    But right now our concern is making sure we have enough 
medical professionals in those 4 States to deal with rising 
cases and rising hospitalizations.
    Mr. Katko. You mentioned the Disaster Relief Fund. The last 
I heard--and it was a while ago, forgive me, I don't know the 
numbers now--I know it was pretty well-funded. There was at 
least $75 billion in it. Where are we now with the fund?
    Mr. Gaynor. Yes, sir. So Congress appropriated about $45 
billion extra. This is in the beginning of our response, so 
about $80 billion. We have spent about $8 billion obligated so 
far, but there is more to come. Again, expenditures lag, 
because there is----
    Mr. Katko. But also that fund has to be used in case there 
is a hurricane or whatever else.
    Mr. Gaynor. Correct. So it is for COVID response, it is for 
natural disaster response, whether it is a hurricane or a 
tornado or flooding. It funds recovery across the country. So 
as far back as Katrina that fund is used for that.
    Mr. Katko. Thank you.
    Thank you for indulging me, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much. Let the record 
reflect that you were 1 minute 30 seconds over.
    Mr. Katko. I was 1 minute and 29 seconds. Come on now.
    Chairman Thompson. I did not call time on you.
    Mr. Katko. Thank you very much.
    Chairman Thompson. We try to make this thing work.
    The Chair recognizes the gentlelady from Illinois for 5 
minutes, Ms. Underwood.
    Ms. Underwood. Thank you, Mr. Chairman.
    Mr. Gaynor, thanks for testifying today on the 
administration's response to this pandemic.
    As a former senior adviser at HHS, I know that a successful 
response to a global public health crisis of this scale 
requires a whole-of-Government response with clearly-defined 
leadership. I would like to get a better understanding of how 
this administration approaches that.
    Yes or no, is it your understanding that FEMA, as of today, 
is charged with leading the operational coordination for the 
Federal interagency response to this pandemic?
    Mr. Gaynor. Yes, ma'am, we are still leading the 
coordination for the response.
    Ms. Underwood. So with FEMA leading the Federal response, 
do you report directly to the President on coronavirus matters?
    Mr. Gaynor. Did you say--can you just say it again? It is 
very faint.
    Ms. Underwood. I said with FEMA leading the response, do 
you report directly to the President for coronavirus matters?
    Mr. Gaynor. Yes, ma'am, both the President and the 
Coronavirus Task Force with the Vice President. Absolutely.
    Ms. Underwood. OK. So according to your testimony, FEMA has 
been, ``coordinating the whole-of-Government response,'' to the 
pandemic since March 19.
    Let me be clear, FEMA employees have worked incredibly hard 
in the 4 months since. But the truth is that FEMA was not 
designed for this type of crisis. A pandemic that impacts every 
State simultaneously and lasts a year or longer is very 
different from a localized disaster like a hurricane.
    So in the 4 months that you have led the response have you 
asked the President for additional resources or support that 
you have not received?
    Mr. Gaynor. Well, ma'am, I disagree that we are not 
designed for this pandemic. I absolutely disagree. FEMA is 
designed exactly for this, which is interagency coordination. 
So no matter if it is a hurricane or COVID-19, that is exactly 
what we do. We problem-solve and we act and we deliver 
solutions to those most in need. So I disagree with your 
premise that this is not what we were designed for.
    The second part of your question, again, I have trouble 
hearing what you are saying.
    Ms. Underwood. In the 4 months since you have led the 
response have you asked the President for any additional 
resources or support that you have not received?
    Mr. Gaynor. From the beginning--and, again, I want to make 
sure that facts drive the narrative--the President and the Vice 
President and the Coronavirus Task Force were very clear with 
me that anything I needed, whether it is a Federal agency that 
typically didn't respond, whether it is money, whether it is 
staffing, whatever I needed was at my disposal as we battle 
COVID-19. That was made clear explicitly by the President and 
the Coronavirus Task Force when he declared a National disaster 
on the 13th of March.
    Ms. Underwood. OK. So did you ask for anything that you 
haven't received?
    Mr. Gaynor. Again, I have gotten--so, I have great partners 
on the task force. So from Dr. Giroir on testing, Dr. Hahn from 
FDA, Dr. Birx, who leads the data----
    Ms. Underwood. I appreciate it. We are familiar with the 
task force, sir. I am asking you, have you asked for something 
that you haven't received? If the answer is no, that is fine.
    Mr. Gaynor. Absolutely. No, ma'am, I have gotten everything 
I have needed from the administration. Everything.
    Ms. Underwood. OK. So the coronavirus has been in this 
country for at least 6 months, and we still have PPE shortages. 
So I have a hard time with you saying you have received 
everything you have asked for. I shouldn't still be hearing 
about nurses reusing single-use masks, and yet they have gone 
on strike this month because they don't have the basic supplies 
they need to do their job safely.
    Yet in your testimony, sir, you write that FEMA is, 
``returning to steady-state.'' DHS defines steady-state as, 
``normal operations.'' You also write that FEMA's role in the 
coronavirus response are moving to other agencies, and that 
FEMA's coronavirus task forces are being downgraded.
    With FEMA shedding responsibilities and moving back to 
normal operations, who in the Federal Government is taking over 
leadership of this on-going crisis? Who is in charge of getting 
the testing where it needs to be? Who is in charge of making 
sure teachers going back to school have PPE?
    Mr. Gaynor. So there is a lot in that question, ma'am.
    So, first of all, the President is in charge of the 
coronavirus response through the Vice President on the 
Coronavirus Task Force, through the many members, including 
myself. We execute those priorities and those decisions. I am 
not sure where the ``steady-state'' came from. I think maybe 
that may be a little bit dated.
    Ms. Underwood. That came from your testimony, your written 
testimony today, sir.
    Mr. Gaynor. Because, again, this is a a dynamic situation 
that changes from day to day. We still lead the Coronavirus 
Task Force. I have many great partners, to include HHS.
    It is correct that some of the functions have transferred 
back to HHS because it is more appropriate, because it is 
medical. Early on, again, we adapted. As we become more 
confident, we have better systems, we have better data, we 
understand the problem more, some of those functions have 
shifted back to HHS.
    But let me be clear, FEMA is still in the operational lead 
for operational coordination. We are glued to the hip with my 
HHS brothers and sisters. We still meet every day on making 
sure we can deliver the resources to the Nation, especially 
those that are most at risk and most under stress of COVID-19 
cases and hospitalizations.
    Ms. Underwood. Well, Mr. Chairman, I just have to tell you, 
Mr. Gaynor's testimony seems to directly contradict his written 
testimony that he submitted. At the end of page 8, beginning of 
page 9, he talks about FEMA returning to the steady-state 
normal operations. Now he is saying that they remain in charge 
of the operational response.
    I have tried in my 5 minutes, sir, to get an answer, a 
direct answer to this very straightforward question and, like 
Mr. Rose, seemed to be getting a little bit of a looped, 
circular response here.
    We are seeing almost 60,000 cases a day, health care 
workers don't have the PPE that they need, and no part of our 
Federal Government can be in normal operations at this time. We 
need an aggressive, coordinated Federal response to contain 
this pandemic and reopen safely, and it has been lacking from 
this administration.
    I yield back.
    Mr. Gaynor. Yes, ma'am. Just to kind-of follow up on some 
of your comments.
    Chairman Thompson. Mr. Gaynor----
    Mr. Gaynor. This is an ever-changing situation.
    Chairman Thompson. Mr. Gaynor, you don't have to answer. 
She was just making a comment. She wasn't asking for a 
question.
    The Chair recognizes the gentleman from Texas, Mr. 
Crenshaw, for 5 minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you, Administrator Gaynor, for being here and being 
so patient in the face of what are often disingenuous 
criticisms and accusations. A lot of good questions, I think a 
lot of reasonable questions, but also a lot of the opposite.
    I would like to think that this hearing is about learning 
lessons and constructive criticism. It should be. We could ask 
good-faith questions about how to improve our response, taking 
into account that imperfect results are inevitable in the face 
of a once-in-a-lifetime pandemic.
    It shouldn't be about levying unfalsifiable claims. See, 
the critics can never be wrong. No matter how much PPE was 
delivered, no matter how many Airbridge flights were flown, you 
can always claim it wasn't enough. Perhaps it wasn't.
    But if we are going to do constructive criticism the 
critics should point to pivotal decisions where everybody said, 
``Do this,'' and instead you did something else. I have never 
heard that criticism. Interesting that we haven't.
    When it comes to these problems of, say, nurses or doctors 
not having PPE in their hospital, those are certainly 
concerning claims. I believe we are lucky in the Houston area, 
we rarely hear that, if ever.
    Do they have a direct line to FEMA? Is that how this works? 
Again, let's talk about what is the proper lesson learned here. 
Are they ordering directly from FEMA? If they don't get it, do 
they call your hotline and request the PPE? Or is that not how 
it works?
    Mr. Gaynor. Yes, sir. Great question.
    So I am going to start with the premise that to be 
successful in an emergency, it has to be locally-executed, 
State-managed, and Federally-supported. I spent 8 years as a 
local emergency manager and I spent almost 4 years as a State 
director. Now I lead the Federal Emergency Management Agency in 
this response.
    There is a system that we use at FEMA for National 
disasters, and it is the same system that we decided to use 
from the beginning of this, a system that people were familiar 
with from the localest level, mayors and Governors, Tribal 
chiefs. If you needed something from FEMA, we had a system 
designed to address that.
    I have 10 regions across the country as far west as 
American Samoa and as far east as the U.S. Virgin Islands, 
9,300 miles, 10 very talented regional administrators that are 
the tip of the spear for FEMA, making sure we address every 
need that we get from States. So it is----
    Mr. Crenshaw. I am trying to quicken the answer here.
    Mr. Gaynor. It is local, State, Federal.
    Mr. Crenshaw. It goes to regional, it goes to regional 
offices.
    Mr. Gaynor. If there is a need from a hospital for PPE, 
they can easily contact their local government and it will get 
through the pipeline.
    Mr. Crenshaw. Right.
    Mr. Gaynor. Yes, sir. I mean, that is typically how it 
works.
    Mr. Crenshaw. Understood.
    When it comes to nursing homes, there was a priority of 
delivering PPE to nursing homes, delivering more than 29,000 
packages of supplies in 53 States and territories. You saw the 
vulnerabilities in nursing homes.
    In hindsight, is there anything more FEMA could have done 
to stop Governors in, say, New York, Michigan, and Colorado, 
from putting infected patients back into confined nursing home 
facilities? We know in hindsight that was a terrible idea.
    Mr. Gaynor. Yes, sir. So I am not a medical doctor, so I 
will leave the medical considerations about what you do with 
patients to those that have an M.D. at the end of their name.
    What we do at FEMA and through the----
    Mr. Crenshaw. I don't know what is so funny about that. It 
is not funny. People died because of that decision.
    Mr. Gaynor. But what we do at FEMA is, again, no matter if 
it is COVID-19 or it is a hurricane, is we support elected 
leaders. So whether you are a Governor or a mayor, and you have 
a disaster, we fully enable you to execute what you need to do 
in your specific State or locality.
    Again, Federally-supported, not Federally-managed and not 
Federally-executed. The system only works when all those things 
work together and, of course, when citizens are prepared also.
    So we enable Governors through a variety of different 
systems, to include funding, materials, technical assistance, 
to address those needs by their constituents.
    Mr. Crenshaw. Talk to me about Project Airbridge. Is it a 
success? Is it a failure? What could be done better with it?
    Mr. Gaynor. Yes, sir.
    So it was an absolute success. Again, it was about speed. 
It was about, at the direction of the President, go find every 
piece of PPE around the globe and bring it to the United 
States. Pretty simple mission order, right? Go do that. 
Airbridge allowed us to do it.
    It is one of things we typically do at FEMA. We have a 
pretty vast logistics arm. We have used planes and boats before 
to transport material to disaster sites.
    This allowed time so we could, again, build that industrial 
base, get more produced on-shore, find more confident farm 
producers that we could rely on, and, again, get that specific 
PPE to where it was needed the most, those front-line workers, 
nurses, doctors, caregivers, CNAs in nursing homes where it 
mattered the most.
    So, ultimately, it was about saving lives and minimizing 
suffering. That was ultimately what it was all about.
    Mr. Crenshaw. Thank you. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Michigan, Ms. 
Slotkin, for 5 minutes.
    Ms. Slotkin. Thank you, Mr. Chairman.
    Mr. Director, thanks for being here, and thanks to you and 
your work force for the really unprecedented challenge that we 
have ahead of us--or that we have been dealing with and we 
still have ahead of us.
    I am glad to see there is wide bipartisan agreement that 
the idea that we were buying like over a barrel with the 
Chinese Government and Asian suppliers on PPE, the fact that I 
am negotiating for a 78 cent mask with a Chinese middleman in 
the middle of rural China, means the chickens have come home to 
roost on manufacturing.
    As the State that does the most manufacturing of just about 
any of them, we have been talking about this since the 1980's, 
long before this crisis.
    Certainly because of GM and Ford and what they did to 
invest in ventilators, we know personally how hard it was to 
get the administration to use the DPA. I am glad they are using 
it now, but we should just acknowledge that it took longer than 
it should.
    But if my colleagues are interested in actually doing 
something to make sure you are not in this situation again in 
future pandemics, there is a bipartisan bill, Strengthening 
America's Strategic National Stockpile Act, so that we can 
actually not just use the DPA, which should be an emergency 
authority, but incentivize American companies to want to make 
these supplies for you all. So I am glad we are in strong 
agreement on that.
    Let me just ask you about testing. You have briefed us on 
March 20, April 17, May 8, and again today, and each time I 
believe you have said we have the supplies we need for everyone 
who needs a test.
    As someone from Michigan, where we went through a really 
strong, like, March and April, was where our wave was and now 
watching my peers go through this, is it your testimony that 
since March 20 everyone who has needed a test has gotten access 
to a test unless there was a local implementation problem?
    Mr. Gaynor. Again, I would defer to--testing, specifics and 
details--to Admiral Giroir because he is the test--again, our 
role is to enable Governors, like Governor----
    Ms. Slotkin. Whitmer.
    Mr. Gaynor [continuing]. Whitmer, thank you, to run her 
testing program for her State.
    Ms. Slotkin. So is it your testimony that you got her all 
the reagent and all the swabs that she needed for every test 
that was required by the State of Michigan?
    Mr. Gaynor. So I can't say 100 percent, but I can say--I 
could give you details about exactly what we delivered to each 
State, swabs and media, and if there was a--and so each--just 
to step back, through Admiral Giroir and his engagement with 
States and Governors, had engagement with every single State 
Governor about testing and their goals, designed what their 
testing percentage and goal needed to be by State, and then, 
with supplies, swabs, and media, applied that number to their 
program.
    Ms. Slotkin. OK. But----
    Mr. Gaynor. If a Governor exceeded their goal, then we had 
enough slack in the supply chain to give, in this case Governor 
Whitmer, more. So, again, I would have to go back and look at 
the record about, you know, did she meet her goals, or did she 
exceed her goals?
    Ms. Slotkin. It just--it does feel like, especially as we 
look at other parts of the country having the same problems 
that we had early on, that we are just--it feels like passing 
the buck, and we can't just learn from our experience.
    There is no way that you can still say as you did on March 
20 that we had all the materials we needed to test everyone 
that we needed to test then, in April, in May, and now today. 
We don't have to answer that. It is hard to think ahead to 
another wave.
    Mr. Gaynor. Well----
    Ms. Slotkin. That is my next question, sir.
    Mr. Gaynor [continuing]. Again, March 20 is months away.
    Ms. Slotkin. No, please, my next question is for the State 
of Michigan. We are watching our peers have the same problems 
in Texas, in Alabama, in Arizona that we went through. I am 
asking your question as a planner, are you currently planning 
for a second wave in the States that got hit hardest the first 
round?
    Mr. Gaynor. You are talking about Chicago, Detroit----
    Ms. Slotkin. New York, New Jersey, Pennsylvania.
    Mr. Gaynor. So there is constant planning and strategizing 
about what the next 30, 60, 90 days look like. That is what we 
do. Right now, we are looking at, again, what is closest to us 
in front of us is those 4 States that have 50 percent of----
    Ms. Slotkin. Wave one.
    Mr. Gaynor. Well, it is wave 1.5, right. You know, because 
we thought we would have a little lull between August--or July 
and August, and that didn't happen, so, again, we are dealing 
with what is in front of us right now.
    Ms. Slotkin. I guess, the question is, help me understand 
and explain to the public that what happened to us with the 
shortages on PPE is not going to just keep happening again in a 
second wave for places like Michigan.
    Mr. Gaynor. Yes, ma'am. I think time makes PPE better. We 
had just recently completed a--with the supply chain task 
force, Admiral Polowczyk and the team actually went out to 
every single State, talked to them one-to-one about, how much 
PPE do you have on hand?
    I will just speak in general terms, not every State is 
equal, but for the most part, the majority of States have 60, 
90, 120 days of PPE stockpiled in their State warehouses. That 
is a really good sign. I am not saying that is the ultimate 
solution. We still have to work on making sure we have enough 
in the Strategic National Stockpile. That is a whole 'nother 
initiative.
    Ms. Slotkin. Totally.
    Mr. Gaynor. So there is lots to do. We need to ramp up 
production so we can have bigger numbers. So there is lots of 
facets to all this, but I think we are in a much better 
position today than we were on March 20 when it comes to PPE. 
Again, every day we get a little bit healthier because we have 
done all these initiatives along the way. So I have confidence 
that we will have enough PPE for today and for if there is a 
second wave in the fall.
    Ms. Slotkin. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Thank you for being here, Administrator. I appreciate your 
presence and so forth. I think it is good, and I know your job 
is hard. But in April, FEMA published a new civil rights 
bulletin entitled ``Ensuring Civil Rights During the COVID-19 
Response.'' The bulletin went on to emphasize FEMA's legal and 
moral obligation to deliver COVID-19 pandemic relief and 
disaster assistance to communities irrespective of race, color, 
religion, national origin, sex, and so forth.
    But in spite of your welcome bulletin on civil rights, 
COVID-19 disparities remain. So I am not saying you are doing 
anything deliberately--I mean, I don't even want to almost 
suggest that because I think that would be irresponsible for 
me--but what I want you to address as best as you can please 
is, do you think that the agency is doing enough of the right 
things that would reduce the disparity between the people of 
color who are disproportionately affected by the pandemic? What 
else could you do, or is there something you should be sending 
to the public or those who are out fighting this deadly 
disease?
    Mr. Gaynor. Yes, sir. Thanks for the question.
    So I have been an emergency manager for a few years now, 
about 13 years at every level of government, and what I have 
learned is that all the challenges a community faces before a 
disaster, whether it is poverty, homeless, unemployment, the 
disaster--and you can use COVID-19 as the disaster--makes it 
all worse, and it lays bare where the gaps are. I think that is 
where we are in some of these communities.
    I understand there has been, you know, long-standing 
inequities in health care access, service, and outcomes, but 
let me tell you what FEMA is doing to try to offset some of 
this disparity.
    Again, thank you for mentioning the equal rights bulletin. 
It is actually the first time we have ever issued one of these 
for a disaster, and I think probably it is going to be standard 
fare. Again----
    Mr. Cleaver. Yes, I appreciate that too, sir. Thank you.
    Mr. Gaynor. Fifty-six major disasters on 1 day, March 13. 
So we have never been here before, but we focused on things 
that are in our authorities and things that we get a demand 
signal from States, things like food, help with food.
    So we have a program where we can use Stafford Act money to 
provide feeding in a lot of innovative ways. I am going to use 
a couple examples. In California, using Meals on Wheels to 
deliver food to those that can't get out of their home or are 
COVID-positive. We have never done that before. So we want to 
try to be innovative.
    Things like housing, homelessness in California, getting 
them off the street and putting them in a non-congregate 
sheltering if they are positive, again, to drive down the curve 
on COVID.
    Testing sites, 750 or so community-based testing sites 
today. Seventy percent of those testing sites are in socially 
vulnerable communities, and that is deliberate. That is not by 
accident, and I give great credit to my partners at HHS for 
driving that. So we continue to do those things. Just like 
everything else, we can do much better, and we look for every 
opportunity to do so.
    Mr. Cleaver. OK. Thank you.
    My final question, and it is personal, but it is not 
because I think there are millions of people would ask you the 
same question if they were here: I have a grandson who is 5 
years old and a granddaughter who is 7, almost 7 years old, and 
I have got to tell you, Administrator, I am scared to death for 
them to go to school in a few weeks.
    I mean, what can I tell my daughter and my son-in-law, what 
can I tell my wife, and what can I tell my constituents when 
they want to know, you know, how can schools open safely if 
they can't get air filters or PPE?
    Mr. Gaynor. Yes, sir. I am going to use the mitigation 
fundamentals that work no matter if it is a school or it is 
here testifying at Congress, it is all the things that matter. 
These mitigation fundamentals work no matter where you are, and 
we have seen that across the country.
    First is wearing a mask, right. So drive the transmission 
down by wearing a mask and having somebody that is across from 
you wearing a mask. You wear your mask not for yourself; you 
wear your mask so you protect the person across from you. So 
that is one.
    Next is hygiene and hand washing, very simple things. You 
know, every time I walk by an alcohol pump, whether I need to 
wash my hands or not, I do it today just because it is good 
habit. Don't wear rubber gloves. It doesn't help with 
transmission. Actually, it goes against transmission, so just 
don't wear rubber gloves. Keep your hands clean.
    Mr. Cleaver. Well----
    Mr. Gaynor. Then social distancing. Stay away 6 feet, and 
we are all doing it here today. Then, last, don't go into bars 
and don't go into crowded places like overcrowded diners.
    Mr. Cleaver. Yes, but my grandson is 5. He is not going to 
go to a bar.
    Mr. Gaynor. If the American public can do all those things, 
we will crush the COVID wave today.
    Mr. Cleaver. OK. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Texas for 5 
minutes, Mr. Green.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    I thank the witness for appearing today. Mr. Administrator, 
you are a former military person. Is this correct?
    Mr. Gaynor. Yes, sir. I am a U.S. Marine.
    Mr. Green of Texas. Lieutenant colonel.
    Mr. Gaynor. Yes, sir.
    Mr. Green of Texas. Do you believe in chain of command?
    Mr. Gaynor. Absolutely, sir.
    Mr. Green of Texas. Respect it?
    Mr. Gaynor. Yes, sir. It is one of our core values.
    Mr. Green of Texas. Mr. Administrator, I will come back to 
this at the end of my questions. But, Mr. Administrator, please 
accept this as a heartfelt statement with no desire to demean 
you in any way. But you indicated earlier that we will overcome 
it, and you are talking about the virus. We will overcome it, 
but, Mr. Administrator, at what cost? That is the question. At 
what cost?
    Harris County, Texas, according to the intelligence that I 
have a few days ago, 37,095 confirmed cases, 545 deaths. July 
20, 2020, as it relates to the country I love, the United 
States of America, 3.9 million cases, 143,000 deaths. At what 
cost?
    News article, Texas Tribune, dated July 19, 2020: 85 babies 
under 1 year old in Nueces County have tested positive for 
coronavirus, and this is since mid-March. Then it goes on to 
say that a baby younger than 6 months old died. At what cost? 
At what cost?
    We have a President who has talked about injecting persons 
with disinfectant, who has indicated that the virus will simply 
disappear, a President who won't wear the mask that you just 
said we ought to wear. I respect you, and I believe you are 
sincere, but when the President of the United States of America 
won't wear the mask that you and I know will protect people and 
save lives, you have to ask, at what cost?
    No reflection on you, Lieutenant colonel. I respect you. I 
appreciate what you have done for your country. But the 
question is, at what cost? How many lives? How many more? What 
is wrong with this man? You and I know that masks protect 
people, and it is just yesterday that he seems to have come 
around.
    Now, back to the chain of command. I expect you to do what 
you are doing, to be quite candid with you. You are a Marine. 
Once a Marine, always a Marine. You have to do what you do. 
This is how the country functions. So I appreciate you.
    But I just want you to know that the cost is too high. It 
is too high for minorities. It is too high in Houston, Texas, 
where I have a community known as Sunnyside, one of the hot 
spots. Minorities are the people who drive the trucks. They 
pick up the trash. They bag the groceries. I am talking about 
Latinx. I am talking about African Americans. The cost is too 
high.
    This is why I came to the hearing. I want to thank the 
Chairman for having the hearing. I appreciate what you said 
because I agree with you: We will overcome it. But the question 
is, at what cost? It is a rhetorical question that you need not 
answer, my dear brother. I hope you are not offended by my 
saying ``my dear brother.'' There is only one race, human, and 
we are related. But at what cost? You need not answer.
    I yield back the balance of my time.
    Chairman Thompson. The gentleman yields back his time.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. I thank you very much, Mr. Chairman.
    Administrator Gaynor, I am pleased that you have joined us 
today. However, I am not pleased by the administration's deadly 
mismanagement of this pandemic. Hundreds of thousands of 
Americans have died, countless small businesses have shuttered 
because of the Federal Government's failure to address this 
crisis with the appropriate amount of urgency. To this day, the 
urgency has not risen to the level of--to meet the level of 
distress and destruction that this pandemic is reeking across 
this Nation.
    I would like to turn to the strategic stockpile. The 
Strategic National Stockpile is the Nation's supply of life-
saving pharmaceuticals and medical supplies for the use in a 
public health emergency. Throughout the pandemic, leadership of 
the stockpile has moved back and forth among CDC, HHS, and 
FEMA. In March, control of the stockpile was shifted from HHS 
to FEMA, and in late June, control reverted back to HHS.
    So, Administrator Gaynor, could you please describe why 
control of the stockpile has shifted multiple times, and how 
does FEMA continue to support the Strategic National Stockpile?
    Mr. Gaynor. Yes, ma'am. Thanks for the question.
    So, just to be clear, again, FEMA was never, to the best of 
my knowledge, in recent history, the owner of the Strategic 
National Stockpile. I think you are correct: Ownership had been 
between CDC and ASPR. It now resides under the control of ASPR, 
Assistant Secretary for Preparedness and Response, Under 
Secretary Azar at HHS.
    Ms. Clarke. So you don't know--just to be clear, so you 
don't know why they keep shifting the control of the stockpile 
between agencies?
    Mr. Gaynor. I don't, and, again, I would defer that 
question to the Secretary about why those decisions were made.
    Ms. Clarke. OK. No problem.
    At a White House press conference on April 2, Jared 
Kushner, speaking about the Strategic National Stockpile, said 
the notion of a Federal stockpile was--around the notion of the 
Federal stockpile was: It is supposed to be our stockpile. It 
is not supposed to be the State stockpiles that they then use.
    This directly contradicted the description of the 
stockpile's purpose on the website, and shortly thereafter, the 
text on the website changed to better fit Mr. Kushner's 
remarks.
    Administrator Gaynor, what is your understanding of the 
purpose of the Strategic National Stockpile?
    Mr. Gaynor. So, again, not being an expert in the history 
of it, but from my general understanding of the stockpile that 
we used today, now we are building the next version of that 
next generation stockpile, but as it existed going into COVID-
19, it was really designed--it was not designed for a pandemic 
of this scale. It was really designed for, again, as I 
understand it, for an anthrax attack in a very small couple 
cities in the United States. It was really used to----
    Ms. Clarke. So my question is, my question is: What is the 
purpose of the stockpile, not what is its usage?
    Mr. Gaynor. So, again, I think the traditional purpose, the 
way it was designed for was, again, a biological attack in a 
city, and so the stockpile has many different things in it to 
include pharmaceuticals and vents and PPE.
    It really was and is designed to buy time, you know, get 
that stuff out the door to where it is needed the most until 
you can ramp up production or ramp up imports--and, again, I am 
not talking about COVID-19. I am just talking generally in an 
anthrax scenario--and then get it through the normal channels. 
But, again, not designed for COVID-19. It could not be used as 
a single source for all things PPE across the country, and that 
is one of the reasons we designed the Airbridge because we had 
partnerships----
    Ms. Clarke. Thank you for your response, Administrator.
    On April 27, as the virus spread to more than 900,000 
individuals in the United States killing more than 54,000 
Americans, Dr. James Mahoney, a pulmonologist died of 
complications related to COVID-19. Dr. Mahoney worked for more 
than 30 years at the SUNY DownState Medical Center, an 
underfunded, publicly-financed hospital that serves my district 
in Brooklyn, New York.
    Dr. Mahoney was set to retire. Then the pandemic struck. 
Deferring retirement, Dr. Mahoney, as his brother put it, ran 
into the fire, continuing to care for patients battling COVID-
19. Like other hospitals that served economically disadvantaged 
communities, the hospital where Dr. Mahoney worked didn't have 
enough PPE as the virus spread. This occurred back in April. It 
distresses me to see my colleagues going through the same exact 
trauma. Here we are, 3 months later, going into the fourth 
month.
    Dr. Gaynor, the failure of the administration to provide 
PPE to hospitals, to nursing homes, particularly those serving 
economically disadvantaged communities counts amongst its 
consequences the loss of many dedicated front-line workers. 
What specific steps is FEMA taking, if any, to ensure that 
front-line workers receive the supplies they need to fight the 
on-going pandemic?
    Mr. Gaynor. Yes, ma'am. Again, you know, we are built as an 
emergency management agency with a primary goal to save lives 
and minimize suffering. So, with you, I agree that with one 
life lost is one life too many. So, you know, it is an 
indiscriminate disease. It knows no borders. It knows no 
boundaries. It doesn't care what you look like or where you are 
from. So just to go back on making sure that we have enough PPE 
to protect our front-line workers, that has been the goal from 
the beginning.
    To go back on further statements about global competition, 
not just in the United States but across the globe, everyone is 
looking for the same exact item, like N95 masks, and we were 
not managing an abundance of resources. We were managing at 
FEMA the lack of resources and making hard decisions about 
priorities about where do these very limited--at the time--very 
limited resources go to do the best to save lives and minimize 
suffering.
    So those decisions were made at the highest level within 
FEMA. My partners on the Unified Command group at FEMA, Dr. 
Giroir and Dr. Calick, we agonized over all those decisions 
about where do the vents go, where does PPE go. Again, no small 
task, you know, hard decisions to make, but our goal was to 
make sure that we had PPE where it was needed the most, and 
that remains our goal today. We are in a much better place 
today with PPE than we were in March and April.
    Ms. Clarke. Mr. Chairman, I know that my time is expired, 
but this has been an abysmal failure, for anyone to try to 
justify the lack of urgency and the lack of continued 
preparation for this pandemic across this Nation and to justify 
by saying that we are managing the best way we can, this is 
unexpected. We know what we are dealing with now, and this 
administration continues to fail the American people at the 
cost of lives and livelihoods.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Nevada, Ms. Titus, 
for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    Administrator Gaynor, you know, I represent Las Vegas, and 
we have a mask requirement, and we closed and then opened 
gradually, but now we are seeing a spike in cases. I want to 
ask you a couple of questions about that.
    I think you are probably aware that the State of Nevada 
made a Title 32 extension request. We sent that in on July 9. 
We want to continue to use our Nevada National Guard for the 
mitigation activities. They have done a great job and we need 
to continue that.
    I have a letter from the Governor and an additional support 
letter from the entire delegation asking for this extension.
    With unanimous consent, Mr. Chairman, I would like to enter 
these into the record.
    Chairman Thompson. Without objection, so ordered.
    [The information follows:]
                                     July 13, 2020.
President Donald J. Trump,
The White House, 1600 Pennsylvania Ave NW, Washington, DC 20500.
    Dear Mr. President: We write today as a unified, bipartisan 
Congressional Delegation on behalf of the State of Nevada to request an 
extension of 502(f)(2)(A) of Title 32, U.S. Code funding for the Nevada 
National Guard in support of the fight against Coronavirus Disease 2019 
(COVID-19) through December 31, 2020. The current funding for these 
efforts was approved on April 11, 2020, and an extension is critical to 
ensuring the safety and health of Nevada citizens as we confront and 
recover from the pandemic and put our State back to work.
    The Nevada National Guard has been critical to our State with their 
direct support of Nevada's State and local response efforts, and their 
continued support is more important than ever as we begin to see 
increases in positive COVID-19 cases and hospitalizations. Hundreds of 
National Guard service members have been providing valuable support for 
community-based collection sites, logistics, warehouse distribution, 
homeless isolation/quarantine shelters, COVID-19 mapping work sites, 
operations centers, and much more. All of these efforts leverage State 
and local efforts and are essential to mitigating the impact of COVID-
19 on Nevadans.
    Nevada is currently experiencing an uptick in COVID-19 cases. Our 
cumulative test positivity rate has been increasing since June 17 (5.2 
percent) and is currently 7.6 percent; hospitalizations of confirmed 
and suspected COVID-19 patients experienced its highest single day 
increase (13.5 percent, combined) on July 6; and Nevada's effective 
reproduction rate has leveled out to a degree, however it remains 
significantly more elevated than during the State's sheltering order. 
These and other indicators suggest that Nevada could be following a 
similar trend as Arizona and Southern California, both areas of which 
have seen increases that have stressed critical capacity.
    Nevada has an aggressive plan to reduce the spread of this disease, 
preserve critical care space, and protect vulnerable populations. 
Extending members of the National Guard as requested would allow us to 
provide essential support for local service providers, particularly in 
our high population areas of Washoe and Clark County. If approved, 
these Guard members would be deployed to support all lines of effort 
associated with testing (sample collection, laboratory testing, and 
contact tracing), as well as providing support to local and State 
government entities in providing logistical support for food and 
essential services to remote and vulnerable populations in our State.
    We expect the need for National Guard support to persist through 
the summer and a possible resurgence in the fall months and share 
Nevada Governor Steve Sisolak's concern that prematurely easing Federal 
funding for National Guard COVID-19 support operations will hinder 
Nevada's ability to respond. This could contribute to a possible second 
wave of infection. In addition, Nevada is already shouldering dramatic 
economic impacts, and limited State resources are available to support 
the listed Nevada National Guard missions.
    Therefore, we request that you extend the 502(f)(2)(A) funding 
authorization through December 31, 2020, with required monthly 
assessments, in order to allow the Nevada National Guard to continue 
supporting these mission critical tasks.
    Thank you for your consideration of this important matter.
            Sincerely,
                                    Catherine Cortez Masto,
                                             United States Senator.
                                                Dina Titus,
                                                Member of Congress.
                                                 Susie Lee,
                                                Member of Congress.
                                               Jacky Rosen,
                                             United States Senator.
                                            Mark E. Amodei,
                                                Member of Congress.
                                           Steven Horsford,
                                                Member of Congress.
                                 ______
                                 
                                      July 9, 2020.
President Donald J. Trump,
The White House, 1600 Pennsylvania Ave NW, Washington, DC 20500.
    Dear Mr. President: Thank you for the support you have shown the 
State of Nevada. You have approved 2,000 members of the Nevada National 
Guard in Title 32 status through August 31, 2020. These personnel are 
performing critical support in response to the COVID-19 public health 
emergency. I write to request your authorization to retain 600 Nevada 
National Guard Personnel in a Title 32 status through December 31, 
2020.
    Since your initial authorization of National Guard Forces, Nevada, 
in coordination with our Federal Partners, has made great progress in 
combating the virus. Because of this partnership, Nevada has seen 
remarkable increases in our ability to conduct community-based testing, 
lab capacity, contact tracing, and other critical capabilities for our 
effort to reopen and keep open our State in a safe and responsible 
manner. The need for close cooperation and mutual assistance between 
the Federal Government and Nevada remains greater than ever.
    Nevada is currently experiencing a significant uptick in COVID-19 
cases. Our cumulative test positivity rate has been increasing since 
June 17 (5.2 percent) and is currently 7.6 percent; hospitalizations of 
confirmed and suspected COVID-19 patients experienced its highest 
single day increase (13.5 percent, combined) on July 6; and Nevada's 
effective reproduction rate has leveled out to a degree, however it 
remains significantly more elevated than during the State's sheltering 
order. These and other indicators suggest that Nevada could be 
following a similar trend as Arizona and Southern California, both 
areas of which have seen increases that have stressed critical 
capacity.
    Nevada has an aggressive plan to reduce the spread of this disease, 
preserve critical care space, and protect vulnerable populations. 
Extending members of the National Guard as requested would allow us to 
provide essential support for local service providers, particularly in 
our high population areas of Washoe and Clark County. If approved, 
these Guard members would be deployed to support all lines of effort 
associated with testing (sample collection, laboratory testing, and 
contact tracing), as well as aid with logistical support to State and 
local government entities that provide Our Soldiers and Airmen have 
played a vital role in Nevada's response to COVID-19. The extension 
will enable Nevada to continue to take aggressive action to maintain 
testing sites, stage and distribute medical supplies, and position the 
State to transition to a regional reopening of the economy. Simply put, 
the continued support of our National Guard members is essential to our 
long-term effort to ensure that Nevada can fully respond and recover 
from this pandemic.
    Accordingly, I ask that you approve and direct the Office of 
Management and Budget, the Federal Emergency Management Agency and the 
Secretary of Defense to extend Title 32 502(f) authority and funding 
for up to 600 members of the Nevada Army and Air National Guard through 
December 31, 2020. I will do everything possible to size our response 
force based on critical needs and to only use Title 32 502(f) authority 
and funding as absolutely necessary. I will continue to reassess the 
State's capacity as the situation unfolds and may request additional 
support, as necessary.
    Thank you for your consideration of my request.
            Sincerely,
                                    Governor Steve Sisolak,
                                                   State of Nevada.

    Ms. Titus. Thank you very much.
    Right now, our use of the National Guard is to end in 
August, and I wonder if you have any idea when we are going to 
hear from you, when we will know if that is going to be able to 
be continued, what the status of that request is?
    Mr. Gaynor. Yes, ma'am. Thanks for the question.
    I can't say I have seen that exact letter from Nevada, but 
we will make sure that we have that. Many Governors, most every 
Governor has asked for an extension past August 21. We have 
been discussing that at the administration, DOD, and FEMA, and 
hopefully we make a decision here shortly because I think we 
all know how valuable the National Guard has been in helping 
Governors across the country do many things, heroic things. As 
a valuable asset, we want to make sure that we appropriately 
adjudicate all those requests. So hopefully shortly we will 
have a decision from the administration.
    Ms. Titus. But I hope it is a positive one because they had 
been very helpful, and we would like to see them continue to do 
that as these cases increase.
    My second question goes back to the issue of test kits. We 
have just been getting mixed responses from the administration 
in this area like in so many others. First, we were told that 
they would be provided by the Federal Government. I think the 
CDC coordinated by you, through June 30.
    Then as July 1 approached, we got word, and I think Mr. 
Rose referred to this a little bit that, no, not to worry; 
indeed you would be continuing them through the end of the year 
to January 1. We really need these test kits, and I wonder if 
you can give me anymore specifics. Are they going to be 
continued? Can we count on that, or do we need to provide our 
own test kits?
    Mr. Gaynor. Yes, ma'am. When you say ``test kits,'' and, 
again, I would defer--there is different machines with 
different requirements, and so, generically, FEMA is providing 
testing supplies, swabs, and media to Governors. If there is a 
specific ask from Nevada about a specific kind of kit, I will 
engage HHS and Dr. Giroir to see if there is a shortage that we 
need to correct or adjust.
    Ms. Titus. Well, thank you. So it is not cut it off now 
because we are in July, that we are going to continue to have 
this relationship?
    Mr. Gaynor. Yes, ma'am. Yes, ma'am. Production is much 
greater than it was, you know, 90 days ago.
    Ms. Titus. Well, now, for one more just kind-of more 
general question. Yesterday, I joined some of my colleagues, 
the Chairman on this committee, and the Chairman on the 
Transportation and Infrastructure Committee, and I have asked 
you about this before, but I will ask you about it again, see 
if the situation has changed.
    We are very concerned about the number of vacancies at the 
top level in FEMA, especially as we try to deal with and 
coordinate and figure out and take charge of what is going on 
with the pandemic.
    But on top of that, now we are into hurricane season and it 
looks like this is going to be a pretty vicious season. What is 
happening with these different positions? Are you filling them? 
Can you not find people? Are you covering it all by yourself? 
Can you give us some idea?
    Mr. Gaynor. Yes, ma'am. In general, just on--so a couple 
different categories of vacancies. So, generally, vacancies 
across FEMA, we have hired in the past 6 months--actually from 
fiscal year--this fiscal year, from 1 October to now, we have 
hired 22 percent more people than we have hired ever before.
    So we have on-boarded more people in the past couple months 
than we have done historically, which is a great sign. We have 
done that while responding to COVID-19, through virtual on-
boarding and telework. It has been quite amazing.
    Vacancies on career SESes, as of today, there is only 1 
vacancy for an SES out of about 105 or so SESes in FEMA. There 
is only 1 vacancy that just came up a couple days ago. The rest 
either have a selected individual, or they are in a process of 
selecting individuals. So, again, we have never been in this 
spot before. We have virtually had no career vacancies. We are 
pretty proud of that.
    Then the last category is politicals. So I think we have 
lost some politicals, Dan Kaniewski, who ran resilience, 
resigned early January, as did Jeff Byard, who ran operations. 
But let me assure you: We continue to fill political spots. We 
continue to fill career spots. We continue to do hiring.
    Again, the pool of talent that I have at FEMA is quite 
breathtaking. I have no lack of confidence about our ability to 
perform, respond to COVID-19 or to a hurricane or anything in 
front of us. We have never been more ready as an agency, and 
that is a belief I take with me, having worked through COVID-19 
response over the past 140 days or so.
    Ms. Titus. So you feel like you have enough of a senior 
leadership team to make some of these key decisions that we 
have been asking about through the course of this hearing?
    Mr. Gaynor. Yes, ma'am. We have been making decisions, and, 
again, where there was a vacancy, you know, we are designed to 
have deputies. Again, I will put up any one of my politicals or 
careers against anyone else when it comes to talent and 
dedication and enthusiasm for the mission. They have been 
outperforming even my expectations, so I think we are--you 
know, obviously we need a couple more politicals and we will 
work on that, but I think, as an agency as a whole, we are in a 
really good spot.
    Ms. Titus. Well, Mr. Gaynor, I know you are a professional, 
and I think you are doing a good job, but in so many of these 
agencies we see people appointed who come to the agency that 
they have tried to get rid of when they were in Congress or 
they would come to the agency from an industry that they are 
supposed to regulate.
    So, when you talk about having politicals, I hope you will 
look for experts who know how to handle this problem and you 
will make some policy decisions based on science and good 
crisis management and not just on somebody who is a friend or a 
connection or has a business interest with Mr. Kushner.
    Mr. Gaynor. Ma'am, I cannot speak more highly of the 
politicals that I work with today. Absolutely talented 
emergency managers, never worked with a greater bunch, whether 
that they are here now or that, like Dr. Kaniewski and Jeff 
Byard, no better men and women that I have worked with here at 
FEMA when it comes to politicals.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New Jersey, Mrs. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you, Mr. Gaynor, for your testimony today and for the 
hard work that you all are doing.
    I want to share some information that I have because we 
have talked about the fact that we are at this place and we are 
doing the best we can trying to catch up with things as we 
move.
    But the understanding I have is that we had an indication 
that we had a problem as far back as November 2019, and even 
though the President refused to deal with any of this 
information, we knew that this was coming, and we knew that he 
was given this information even in his daily briefings as early 
as January.
    I also want to take note of the fact that there were 
independent research studies done, one by Columbia University 
and one by another organization that said, had we implemented 
social distancing guidelines as far back as March 1, we would 
have possibly decreased the death rate from COVID between 80 
and 90 percent. So it is not like we didn't have earlier 
information upon which to act.
    I know that my colleagues on the other side have asked you 
questions like are there--the appeals to panic and 
recriminations, is that in any way having an impact on how our 
citizens are reacting to the space in which they live right 
now? Now, what about the confusions that may have been shared 
between what the experts are saying and what the administration 
is saying?
    Well, my question is, well, how about the conflicts and the 
lying that have been shared from the White House and the head 
of the task force, the Vice President of the United States. You 
all said that you make your decisions based on facts and data, 
your data-driven decisions.
    So I want to ask you a couple of responses to things that 
the President of the United States has said and you tell me 
whether or not they are or are not true. On May 8, the 
President said that coronavirus ``will go away without a 
vaccine.'' Mr. Gaynor, yes or no, is that true?
    Mr. Gaynor. Something about a vaccine. I didn't hear your 
whole question.
    Mrs. Watson Coleman. On May 8, the President said that the 
coronavirus ``will go away without a vaccine.'' Is that--yes or 
no, do you believe that? Yes or no.
    Mr. Gaynor. Again, ma'am, I think the administration is 
working hard for----
    Mrs. Watson Coleman. I just need you to----
    Mr. Gaynor [continuing]. To identify----
    Mrs. Watson Coleman. Do you believe that this is going to 
happen? I am not asking you to defend the administration with 
this incompetence. I want you to answer my question. Yes or no 
or I don't know. Yes, no, or you don't know.
    Mr. Gaynor. Well, yes, ma'am, but, again, I think this 
question deserves more than a yes or no answer, and, again, if 
you could just----
    Mrs. Watson Coleman. I don't really care what you think it 
deserves. This is my time that I am reclaiming, and I need you 
to say yes, no, or I don't know.
    Mr. Gaynor. Yes, ma'am. What I would like to say is that 
the administration worked hard to identify therapeutics and 
vaccines----
    Mrs. Watson Coleman. Do you think----
    Mr. Gaynor [continuing]. NIH----
    Mrs. Watson Coleman. So then are we going to acknowledge 
the fact that it needs a vaccine moving forward?
    Mr. Gaynor. Yes, ma'am. The administration and NIH early 
on, within days----
    Mrs. Watson Coleman. On June 17, the President--Mr. Gaynor, 
I reclaim my time from you. I reclaim my time.
    On June 17, President Trump said the coronavirus is ``dying 
out.'' Is the coronavirus dying out right now, Mr. Gaynor? Yes 
or no.
    Mr. Gaynor. Well, I think if you look across the country, 
it ebbs and flows. You know, the epicenter in March and April 
was----
    Mrs. Watson Coleman. It might be ebbing and flowing, but is 
it dying out is my question?
    Mr. Gaynor [continuing]. In New York and New Jersey, 
Detroit, Chicago, Los Angeles, Washington State, and now----
    Mrs. Watson Coleman. Now we are seeing spikes all over, 
particularly in the West and in the South. So is the answer to 
that question yes or no? Why are you finding it so difficult to 
say what you are seeing? Yes or no?
    Mr. Gaynor. Because, again, ma'am, I think your questions 
deserve an answer that is just more than yes or no.
    Mrs. Watson Coleman. I really don't care what you think. I 
don't care. Let me just ask you this question----
    Mr. Gaynor. Ma'am, I am just here trying to share the facts 
as I know them.
    Mrs. Watson Coleman. At one point, the President of the 
United States said, anybody that wants a coronavirus test can 
get a test. Is that true? Can anybody that wants a coronavirus 
test get one right now?
    Mr. Gaynor. Well, I will tell you my own experience. I was 
just on the Gulf Coast----
    Mrs. Watson Coleman. Is that a yes or no? You are the head 
of this outreach and support to the States and the communities. 
You know the answer to the question.
    Mr. Gaynor. Well, I am just trying to give you a real-life 
example. I was on the Gulf Coast last week.
    Mrs. Watson Coleman. I don't want an example. I want an 
answer.
    Mr. Gaynor. I traveled to Louisiana. I traveled to 
Mississippi and I traveled to----
    Mrs. Watson Coleman. I don't want your----
    Mr. Gaynor [continuing]. Alabama. I came in contact with 
a----
    Mrs. Watson Coleman. Mr. Gaynor, if you are going to refuse 
to answer my question, this is almost a futile interaction 
between you and me.
    Let me just put one more question out there, and you can 
say whatever you want to say with the little bit time I have 
left. Because the President said, on June 8: ``So we want the 
continue blanket lockdown to end for the States. We have some 
embers or some ashes or we may have some flames coming up, but 
we will put them out. We will stomp them out. We understand 
this now. We will stomp them out, and we will stomp them out 
very, very powerfully.''
    Have we stomped out these embers or ashes of the 
coronavirus?
    Mr. Gaynor. Ma'am, I am sure that you can see through, 
across the Nation, there are hot spots, places like Florida and 
Texas, Louisiana, Arizona, California that have flared up. If 
you look back to March and April to New York, New Jersey, 
Connecticut, Rhode Island, those States have it under control. 
So, again, this is a dynamic situation. It changes from day to 
day. Mitigation works and so, again----
    Mrs. Watson Coleman. It requires leadership. Yes. Thank 
you, sir. This requires leadership, no question about it. We 
are doing so well in New Jersey because my Governor saw it 
spiking up just a tiny bit, and he delayed the opening of 
certain businesses. So we definitely need leadership, something 
that we have not had from the President of the United States.
    Let me just say in closing--and, Mr. Chairman, I am going 
to yield back--when I listen to where you are, when I listen to 
what FEMA has had to deal with, when I have listened to how 
this country in general, this leadership has responded to this 
pandemic and failing to keep our hundreds of thousands and even 
millions of citizens safe or alive, I don't believe that you 
are ready for both the coronavirus that is going to take place 
during the hurricane seasons and the States in which we are 
going to have these devastating seasons.
    I want to say to you that you need to ask for what you 
need. You need to understand what you need, which I think you 
do, Mr. Gaynor, but you need to be bold enough to ask for it, 
and you need to be bold enough to let us know whether or not 
you are getting it.
    With that, I yield back. Thank you.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from California for 5 
minutes, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman, for holding this 
important hearing.
    Administrator, when did FEMA--when did you get involved 
with FEMA in addressing the coronavirus? Was that roughly 
around the end of January?
    Mr. Gaynor. Are you asking when did FEMA get involved with 
the virus response?
    Ms. Barragan. When were you brought in to help FEMA with 
the coronavirus response? What month was that in?
    Mr. Gaynor. So we had been partnering with HHS early 
February and then----
    Ms. Barragan. Early February, OK. Thank you, sir.
    Mr. Gaynor. Then on 10 February----
    Ms. Barragan. Sir, you have answered my question. I really 
appreciate that. I have a series of questions I want to get to. 
Thank you. So----
    Mr. Gaynor. But I would just like to more fully answer it. 
So we were in support of HHS on 10 February. I sent over 30 
FEMA experts in logistics, planning, coordination----
    Ms. Barragan. Mr. Administrator, my question is about 
March. Thank you.
    Mr. Gaynor [continuing]. External affairs to support 
HHS's----
    Ms. Barragan. I want to reclaim my time.
    Chairman Thompson. Mr. Administrator, she is fine with your 
answer. She is fine with your answer.
    Ms. Barragan. Mr. Administrator, thank you. So roughly in 
February. In March----
    Mr. Gaynor. February 10 exactly.
    Ms. Barragan. No. Understood. Thank you, sir.
    So my question is about March. In March, the U.S. 
Government found 1.5 million N95 masks sitting in a warehouse 
in Indiana, and the Department of Homeland Security had to 
decide what to do with these masks. Did you play any role at 
all on where these masks would go?
    Mr. Gaynor. I am not familiar with this story, ma'am.
    Ms. Barragan. OK. Well, in March, Homeland Security had 1.5 
million N95 respirator masks. They had to decide where to go. 
The Department of Homeland Security did not send them to the 
hardest-hit hospitals and front-line workers across the 
country.
    At the end of the day, they decided to send these masks to 
TSA and CBP and other places instead of our hospital workers 
and our front-line workers that really needed it. Very 
unfortunate. I was hoping to hear that you, who was at FEMA, 
would have advocated to have access to those masks and to have 
advocated to have those go to our hard-hit hospitals.
    Mr. Gaynor. Yes. Although I am unfamiliar with this story--
--
    Ms. Barragan. Sir. Sir.
    Mr. Gaynor [continuing]. I would say that my----
    Chairman Thompson. She hadn't finished.
    Ms. Barragan. I am going to reclaim my time.
    Chairman Thompson. She hadn't finished asking her question.
    Ms. Barragan. OK. Mr. Administrator, I am going to move on 
to FEMA's help with California on housing. First of all, I want 
to thank FEMA for working with California on providing housing 
for those who really needed shelter during COVID-19.
    Now, FEMA has committed to reimburse 50 to 75 percent of 
expenses for shelter and temporary housing through the public 
assistance program category B. One of the problems, however, is 
FEMA is waiting way too long to let the State know whether that 
program will continue to be funded so they can't plan for the 
next month.
    Is there anything FEMA can do to speed up the process in 
letting the State know whether the funding will continue so 
they don't get left with a large bill and not have any 
assistance of FEMA?
    Mr. Gaynor. Yes, ma'am. I don't know the specifics of this, 
but to date, we have obligated $1.1 billion to California. I am 
not sure where the hold-up is on getting that money out the 
door from the State. We run our programs on reimbursement so we 
actually have to spend money before you get money from the 
Federal Government. So, if there is a specific issue, locality 
issue, I would be happy to connect with you and your staff on 
that item.
    Ms. Barragan. OK. I will follow up. Thank you. There are 
instances where local governments have been waiting for years 
to receive FEMA reimbursement. So I definitely will follow up. 
It doesn't sound fast at all, and States need to be able to 
plan on when FEMA is going to continue the partnership.
    Mr. Administrator, conventional disaster response 
strategies, such as congregate sheltering and voluntary 
recovery and supply distribution efforts require re-examination 
during the pandemic. Administrator, how is FEMA working to 
prepare sheltering guidance with the need for individuals to 
socially achieve--to have social distancing? I am sorry.
    Mr. Gaynor. In the beginning of my testimony, I shared with 
everyone that FEMA created the COVID-19 pandemic operational 
guide for the hurricane season. Although it has the title 
``hurricane'' on the front cover, it can be applied to any 
natural disaster or any incident because the lessons in there 
apply to all of it. So things like more space for sheltering.
    So, having been a local emergency manager for almost 7 
years and then a State director, the responsibility for 
managing sheltering is on the local official. The local mayor 
owns that responsibility. Again, I go back to how this system 
of emergency management works, locally-executed, State-managed, 
and Federally-supported.
    We provide technical assistance if needed to States and 
locals if they need extra planning considerations, but the 
guidance is out there. It is best practice from many different 
agencies, to include CDC and ASPR, about, you know, how to 
adapt your traditional, and I will use sheltering challenges to 
COVID-19 response.
    So those resources are out there. There is actually an 
exercise program where locals can test their plans to make sure 
that the assumptions that they have made for dealing with 
COVID-19, again, for sheltering or evacuation holds up when 
actually put to use. So that is how the program works.
    Ms. Barragan. Well, thank you, administrator, for your 
attempt in answering questions. It has been a little 
frustrating in your inability to provide specifics or to answer 
questions directly.
    We have seen that you and FEMA were involved in February. 
The number of deaths were not very high at that time. Because 
of this Trump administration's failure and really the failure 
across the board, the lack of leadership has led to over 
135,000 Americans being dead, and that is just not a flare-up 
in certain parts. That is a continued failure and not having a 
National strategy.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Florida for 5 
minutes, Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Administrator Gaynor, thank you for being with us today. I 
also want to begin by thanking you and the men and women who 
work with you for the work that you do every day to get us 
through some very tough times.
    But I have to say that this has been pretty exhausting for 
me. As a first responder, I have worked out in the field with 
FEMA on many occasions. To listen to my colleagues on the other 
side of the aisle--I would think that this would be one of the 
areas that we could get our act together, but to hear my 
colleagues on the other side of the aisle focus more on 
defending the inactions of our President than on the 141,000-
plus Americans who have lost their lives to COVID-19. I was 
also pleased to hear them say that facts matter, that solid 
facts based on data are important because we know that the 
President is the biggest offender in that area.
    This administration, unfortunately, is always looking for a 
villain to blame. America's response could have been better had 
China allowed us to have a better response, but then, as we 
look at other countries, somehow other countries were able to 
find their way to being better able to control the virus and 
save more lives, despite China's actions.
    Administrator Gaynor, how would you explain that?
    Mr. Gaynor. Yes. I am not sure I understand the question, 
but what I can tell you from my point of view is my job in the 
role of leading the Federal coordination for operations is to 
make sure that the full weight of the Nation, all departments, 
with all the things that they bring to the table, like DOD and 
the National Guard and HHS, we maximize those again, and I have 
said it time and time again, to prevent loss of life and 
suffering.
    My role----
    Mrs. Demings [continuing]. I believe your goal is to 
prevent loss of life and suffering. You said earlier to protect 
the lives of the American people, the health and safety of the 
American people. Is that what--that is what you said, right? 
How do you do that?
    Mr. Gaynor. That is what I just said.
    Mrs. Demings. Not what your job is, but how do you protect 
the health and safety of the American people?
    Mr. Gaynor. In many different ways, and I will use----
    Mrs. Demings. Just give me 3. How do you do that? As we 
respond to COVID-19, how do you, as the FEMA administrator, 
protect the health and lives of the American people?
    Mr. Gaynor. So the first example I will give is the 
initiative to create more ventilators in the United States. So, 
when we first took over operational coordination in the 
stockpile about 16,000 of----
    Mrs. Demings. So to create more ventilators. Give me No. 2.
    Mr. Gaynor. Well, I would just like to tell the success of 
the story.
    Mrs. Demings. Administrator Gaynor, let me just----
    Mr. Gaynor. Sixteen thousand ventilators, and today we have 
almost----
    Mrs. Demings. What is No. 2? So equipment, to make sure 
that there is enough equipment. What is No. 2?
    Mr. Gaynor. We almost have 60,000 ventilators, and by 
September, we will have 110,000 ventilators in the stockpile, 
by September.
    Mrs. Demings. OK. You said that----
    Mr. Gaynor. Eight times more ventilators than----
    Mrs. Demings [continuing]. This was a global competition 
for personal protection equipment. Is that not correct?
    Mr. Gaynor. Absolutely.
    Mrs. Demings. OK. But yet we have seen bidding wars between 
States, the Federal Government, and other countries. Since this 
is a global----
    Mr. Gaynor. Yes, I disagree with that premise.
    Mrs. Demings. Since this is a global competition, isn't 
that the reason why we would need a Federal response in terms 
of--as opposed to allowing States to basically fight for 
themselves or fend for themselves?
    Mr. Gaynor. Again, I think, you know, having been a State 
director, I think I would do the same that all----
    Mrs. Demings. Well, you have worked at the local, State, 
and Federal level.
    Mr. Gaynor. That is right. So, just using my experience at 
the local and State level, you know, I think one of my goals--
and we will just talk about PPE--is to get as much PPE as I 
could, even if I didn't need it, just to make sure I had enough 
because I wasn't sure what was going to happen next.
    So my role, and, again, at the direction of the President 
and direction of the Coronavirus Task Force was simple----
    Mrs. Demings. So, since you made the decision to leave it 
to local jurisdictions, has FEMA taken the initiative to look 
at best practices?
    Mr. Gaynor [continuing]. Was go scour the globe, all the 
PPEs, and bring it back to the United States.
    Mrs. Demings. Has FEMA taken the initiative to look at best 
practices through any States who were doing it better than 
others and maybe give guidelines to States who were struggling?
    Mr. Gaynor. We have. We have engaged--and maybe you missed 
it earlier, but we have engaged with every single State when it 
comes to PPE. We have----
    Mrs. Demings. But have you developed--you have looked at 
best practices----
    Mr. Gaynor. We always have the best practices. We always 
do----
    Mrs. Demings [continuing]. Some States doing it better than 
others and presented guidelines to States that were struggling?
    Mr. Gaynor. Absolutely. Absolutely.
    Mrs. Demings. OK. Finally, Mr. Gaynor, let me just say 
this: I am from Florida, and you know the situation in Florida. 
Yesterday, we added 9,000--over 9,000, 9,400 new COVID-19 
cases.
    So, based on your many years of emergency management 
experience at the local, State, and Federal level--because I 
heard a conversation earlier about people panicking and all of 
that, when the President uses fear every day to keep my 
colleagues on the other side of the aisle from doing their jobs 
and others, but anyway, what message would you send to Florida 
when we look at those numbers and what is going on in Florida, 
Texas, and others?
    Mr. Gaynor. I will go back to the fundamentals. Masks work, 
right. Wear a mask. Don't wear it for yourself; wear it for the 
person that is across from you. Keep your hands clean. Every 
time you walk by an alcohol dispenser, clean your hands. Don't 
wear rubber gloves. It doesn't help. It actually makes things 
worse. Stay out of bars, stay out of crowded restaurants, and 
use social distancing. If we do all those things----
    Mrs. Demings. Finally, Administrator, what grade----
    Mr. Gaynor. If every American did all those things----
    Mrs. Demings. If we look at the overall--the Nation's 
overall response to COVID-19, what grade would you give the 
Nation?
    Mr. Gaynor. I don't do grades. Historians and after-action 
reports can grade me. I am not----
    Mrs. Demings. But you do feel like you have done a good 
job, and the Nation has done a good job responding to COVID-19?
    Mr. Gaynor. So I think all the hardworking career men and 
women----
    Mrs. Demings. We know they work hard. We know they work 
hard. But when the murder rate was high in my city, I did not 
celebrate until the numbers went down. Do you believe that this 
Nation has done a good job?
    Mr. Gaynor. I am not celebrating. I am just talking about 
the hard work that everyone has done, and the hard work 
continues.
    Mrs. Demings. Mr. Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes for submission to the record the 
gentlelady from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your kindness 
and indulgence and making mention of Tony Robinson of Region 6. 
Ask unanimous consent. Dr. Persse, emergency management of city 
of Houston, begging for the extension of National Guard and 
more testing, again in the State of Texas in Houston. Trump 
article, July 20, Trump said, ``More COVID-19 testing creates 
more cases. We did the math.'' Then this is on the website in 
Texas. I am going to work with them about it, but it tells 
people that they have to pay, and that discourages people. I 
ask unanimous consent for that to be in the record.
    Thank you, Mr. Chairman, for your indulgence. We are 
fighting to save lives. I yield back.
    Chairman Thompson. Without objection.
    [The information follows:]
        Letter From City of Houston, Health and Fire Departments
                                     July 16, 2020.
The Honorable Sheila Jackson Lee,
U.S. House of Representatives, 2079 Rayburn HOB, Washington, DC 20515.
    Dear Congresswoman Jackson Lee: As a member of the House Committee 
on Homeland Security, the city of Houston asks that you submit into the 
record this letter to the Committee regarding the continued need of 
testing in our city, which is experiencing an unprecedented rise in 
infections and hospitalizations. On behalf of Mayor Sylvester Turner, I 
am respectfully requesting that the Federal Government continue its 
full commitment and support of the public health containment and 
mitigation strategies in Houston Texas through the FEMA COVID-19 
testing sites.
    As you know the city of Houston is the fourth largest city in the 
United States with a population of approximately 2.4 million and home 
to the most diverse metropolitan community in the Nation. The critical 
infrastructure and key resources unique to Houston are paramount to 
numerous industries affecting the entire nation to include supply 
chain, medical research, and energy services. With two international 
airports, a port critical to the supply of goods and services, and the 
hub of energy production and services for the Nation Houston's health 
is important not only to Texas, but to America.
    The Federal support of testing sites has been critical to our 
largely successful efforts to protect our families, neighbors and 
infrastructure from the effects of the COVID-19 pandemic till now. We 
have been able to delay the projected peak of COVID-19 cases for the 
fourth largest city in the United States since mid-April. However, the 
number of new cases and admissions to local hospitals continues to 
rise. We have seen a nearly five-fold increase in hospital admission 
not only within hospitals in the city but across Harris County since 
June 7th. Yesterday we set a new record for COVID-19-related deaths 
reported in Houston. We are rapidly increasing our response efforts to 
include hiring, training and deploying new personnel to investigate new 
cases, track contacts and try to effect isolation and quarantine of 
those persons. We do understand that Federal support cannot last 
forever, however the testing sites are operating at a high rate and are 
very efficient in their processes.
    Consequently, it is my request and hope that you will continue your 
full support and recommendation that FEMA support for the testing sites 
in Houston and ideally Harris County Texas until August 31, 2020.
    In closing, I want to thank your entire team for your support to 
date.
                                          David Persse, MD.
                                 ______
                                 
 Trump said more Covid-19 testing `creates more cases.' We did the math
By Sharon Begley @sxbegle, July 20, 2020
https://www.statnews.com/2020/07/20/trump-said-more-covid19-testing-
        creates-more-cases-we-did-the-math/
    The counter-narrative began almost instantly. After the U.S. count 
of Covid-19 cases began an inexorable rise in June, the White House 
sought to assure Americans that the increase was, basically, an 
illusion, created by an increase in testing for the novel coronavirus.
    In a June 15 tweet, President Trump said testing ``makes us look 
bad.'' At his campaign rally in Tulsa 5 days later, he said he had 
asked his ``people'' to ``slow the testing down, please.'' At a White 
House press conference last week, he told reporters, ``When you test, 
you create cases.''
    And in an interview with Fox News that aired Sunday, Trump could 
not have been clearer: ``Cases are up because we have the best testing 
in the world and we have the most testing.'' Basically, the president 
was arguing that the U.S. had just as many new cases in June and July 
as it did in May but, with fewer tests being done in May, they weren't 
being detected; with more testing now, they are.
    A new STAT analysis of testing data for all 50 States and the 
District of Columbia, however, shows with simple-to-understand numbers 
why Trump's claim is wrong. In only seven States was the rise in 
reported cases from mid-May to mid-July driven primarily by increased 
testing. In the other 26 States--among the 33 that saw cases increase 
during that period--the case count rose because there was actually more 
disease.
    May had brought signs of hope that the U.S. had gotten its Covid-19 
outbreak under control, with about 20,000 new cases reported per day 
after April highs closer to 30,000. But by late June, the daily count 
climbed to about 40,000, and now it's at about 70,000. The STAT 
analysis shows that spread of the virus, far more than testing, 
explains that increase.
    Epidemiologists and infectious disease experts have disputed the 
White House claims for weeks, citing rising hospitalization numbers and 
deaths. It's hard to argue that extremely sick people, let alone dead 
people, had been obscured by low levels of testing but suddenly 
revealed by higher levels.
    Without a doubt, many cases of Covid-19 in March, April, and May 
weren't picked up. In late June, Centers for Disease Control and 
Prevention Director Robert Redfield told reporters that as many as 90 
percent of cases had been missed; that is, although there were 2.3 
million confirmed cases in the U.S. then, some 20 million people had 
probably been infected. But that reasoning applies today, too: Despite 
months of government claims to the contrary, not everyone who wants, or 
should have, a test is getting one.
    Cases are going up in the U.S. because we are testing far more than 
any other country, and ever expanding. With smaller testing we would 
show fewer cases!
    Simple math belies the ``it's just because of more testing'' 
claim--with some fascinating exceptions.
    Using data from Covid Tracking, STAT looked at the number of people 
tested and the number who tested positive for the disease (cases) in 
every State and Washington, DC. We did that for three dates: in mid-
May, mid-June, and mid-July. (Due to reporting anomalies, the dates 
selected sometimes differed by a day or two between States.)
    For each date, we calculated the number of cases found per 1,000 
tests--a measure of the disease's prevalence. For example, in Florida 
on May 13, that rate was 32. On June 13 it was 75. On July 13 it was 
193. On May 13, Florida tested 15,159 people; on July 13, it tested 
65,567. So indeed, the number of tests has increased.
    But the number of cases per thousand, which is independent of the 
number of tests, has skyrocketed. On May 13, Florida recorded 479 
cases; on July 13, it found 12,624. If the prevalence of Covid-19 were 
the same in July as in May, Florida would have found only 2,098 cases. 
In other words, 10,526 of the July 13 cases are not due to increased 
testing, but, instead, to the increased prevalence of disease.
    Florida Gov. Ron DeSantis, however, echoes Trump's explanation, 
telling a Saturday press briefing that his State's soaring caseload is 
largely the result of more testing of people with no or minimal 
symptoms. ``We're now capturing a lot of those folks,'' he said.
    In fact, Florida has seen a sevenfold increase in cases in the past 
month, said Youyang Gu, who developed a well-respected, machine-
learning-based model of Covid-19 whose projections have been quite 
accurate. ``In the same time span, the number of tests only increased 
by a factor of two,'' he said. ``Obviously, if you double the testing 
but the number of cases increased sevenfold, then the virus is clearly 
spreading.''
    Other States with soaring cases tell the same story as Florida.
    In Arizona, the case-finding rate rose from 90 in May to 140 in 
June to 208 in July. Of its 2,537 cases on July 12, 1,441 were due to 
increased prevalence.
    South Carolina has also experienced a steep rise in prevalence as 
its case count quintupled: Of the 2,280 cases on July 9, 1,869 were due 
to rising prevalence, not more testing. Texas and Georgia are similar: 
rising case counts well beyond increases in testing. In all, 26 States 
that did more testing in July than in May found more cases because 
Covid-19 was more prevalent. In 15 of them, the number of cases per 
1,000 people tested had more than doubled.
    Seven States (Colorado, Indiana, Michigan, Missouri, North 
Carolina, Ohio, and Wisconsin) meet the three criteria needed to 
support Trump's claim that we're seeing more cases only, or mostly, 
because we're doing more testing. The criteria are doing more tests in 
July than in May, finding more cases on a typical day in July than May, 
but seeing the number of cases per 1,000 tests decline or remain 
unchanged from May to July.
    Take Missouri. It's reporting more cases, but not because the virus 
is exploding there (despite those crowded holiday scenes at Lake of the 
Ozarks). Its case finding rate has been pretty stable or even 
declining, from 48 in mid-May to 44 in mid-July. By tripling its number 
of daily tests, Missouri is finding roughly triple the number of cases.
    California comes close to meeting the three criteria, but doesn't 
quite. Its number of daily tests more than quadrupled from May to July, 
from roughly 32,000 to 137,000. But the rate of cases being found has 
risen, though only about 10 percent, from 55 to 61 per 1,000 tests. So 
a big reason--but not the main reason, as in Missouri--more cases are 
being found is that more testing is being done. Washington is similar: 
more testing, more cases, but also slightly greater prevalence of 
disease in mid-July compared to mid-May; its worsening situation is 
real.
    New York tells the opposite story: more testing found fewer cases. 
The State nearly doubled its daily tests from May 13 (33,794) to July 
12 (62,418). But its cases fell from 2,176 to 557. If the case rate had 
not dropped (by 86 percent), New York's expanded testing would have 
found 3,995 cases on July 12.
    In fact, 16 States plus the District of Columbia are like New York. 
They tested much more but found fewer cases in July than May--in most, 
not only ``fewer'' in the sense of fewer cases per 1,000 but fewer in 
absolute terms. New Jersey reported 10,246 tests and 1,144 cases on May 
14, and 20,846 tests with a mere 393 new cases on July 14. Again, the 
virus hasn't disappeared, but the expansion of testing, far from 
``creating'' cases, has brought good news: In these States, it's much 
less prevalent than it was 2 months ago.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Chairman Thompson. The Chair recognizes the gentleman from 
Mississippi for 5 minutes, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Mr. Gaynor, I want to thank you and the men and women that 
serve under you. In your written testimony, you talk about the 
fact that you all are doing a very difficult job in really 
unprecedented times. You say that we are currently under 114 
concurrent major disaster declarations, one for every State in 
the union. Five territories are also under major disaster 
declarations. You also talk about the Seminole Tribe of Florida 
and the District of Columbia.
    I know in mine, the Chairman's home State of Mississippi, 
that there have been 5 Federal declarations since January of 
this year. We currently have a pending declaration that we are 
working on approval on that.
    I know you had the chance to visit Mississippi last week to 
meet with our Governor and meet with some of our first 
responders and discuss some of the unique challenges that we 
are facing. One of those challenges is an upcoming hurricane 
season, that all the States along the Mississippi, along the 
Gulf Coast as a whole, are concerned about and those challenges 
in the middle of the COVID-19 pandemic.
    So could you just take a few moments to kind-of share with 
this committee some of the things that you shared with our 
Governor about those upcoming challenges and what FEMA is doing 
to prepare for the challenges that lie ahead?
    Mr. Gaynor. Yes, sir. Thank you, sir. It was actually a 
great visit in Mississippi. We got to travel with the Governor 
around the State, mostly across the Gulf to visit fire 
departments, talk about grants, and preparedness. Really 
fantastic day, so I thank him for his hospitality, along with 
the emergency management director, Greg Michel.
    You know, one of the things that we wanted to check on this 
season is obviously, you know, how have States adapted their 
existing plans for things like evacuation and sheltering, using 
the guidance that we have provided back in May, and how they 
adapted. So we wanted to go down there and take a temperature 
check to see how it is all going.
    So, you know, this year is going to be a year like we 
haven't had before because, when it comes to simple things like 
ordering an evacuation, it is going to take more time. If you 
need transportation; it is going to take--maybe it is going to 
take double the transportation. If you go to a shelter, maybe 
it is going to take double or triple the shelter space, and how 
have locals and States and counties adapted to that.
    So it is a challenge. I want to report I am completely 
impressed by all the effort that Mississippi emergency 
management has done and the dedication of the Governor to make 
sure that it is a priority.
    So it is always a moving target, right. You have always got 
to do more, and the clock is running against you. So I 
encourage all my emergency managers across the country is, you 
know, prepare now. You don't know what the next thing is to hit 
you, so whether it is a hurricane or flooding or a fire, use 
this time now to prepare to respond while also responding to 
COVID-19.
    That is kind-of the message, you know. That guidance is 
available on-line. We put it out in May and made a big 
announcement. So we encourage all States and locals, Tribes, 
and territories to embrace our responding to a traditional 
disaster while responding to COVID-19.
    Mr. Guest. I wanted to ask 1 specific question as it 
relates to COVID-19. On page 5 of your written testimony, there 
are 2 paragraphs there that are titled ``Managing Worldwide 
Critical Shortages.'' We have talked a little bit about global 
competition.
    You state there in your written testimony, ``From the 
outset, a key element of FEMA's response has been managing 
shortfalls of medical supplies.'' You go on and give a list of 
those supplies. Then you say, ``We have been further challenged 
as most of the manufacturing for PPE occurs in Asia.''
    I know that The Wall Street Journal recently reported that, 
prior to the COVID-19 outbreak, that China exported more 
respirators, surgical masks, medical gloves, and protective 
garments than the rest of the world combined.
    So my question to you is, how big of a challenge has been 
the fact that many of the items that we are in need of today 
are not manufactured in our country, that China has, if not the 
exclusive, manufactures the large majority of supplies world-
wide as it relates to medical supplies, critical drugs, and 
things that we need?
    How big of a challenge has that been? Does Congress need to 
focus our attention going forward on enticing those 
manufacturers to return to the United States so that those 
items are produced here?
    Mr. Gaynor. Yes, sir. I said previously that we have to 
look at the shortages we have had, and I use PPE as an example, 
as a National security issue. Maybe today it is a pandemic, but 
maybe tomorrow it is something different that requires N95s or 
another critical item that we today rely on another foreign 
power to provide to us. Maybe when the time comes, they will be 
unwilling to do that.
    So we need to take a critical look on a host of different 
items that are produced overseas and connect them to our 
National security.
    I know there are lots of efforts going across Government. 
DOD and Defense Logistics Agency are great partners and help us 
bring manufacturing back to the United States, or entice U.S. 
manufacturers to expand their product line or change their 
product line. The CARES Act provided a billion dollars for a 
lot of these initiatives.
    That is only a start. We need to think long-term, because I 
think what we do historically is we will put a lot of money 
into it and it will last a couple years, and maybe that 
business struggles to survive because the U.S.-made mask is $2 
and the Chinese mask is 70 cents. You know how the American 
public is about, ``I want it cheap and fast,'' and maybe that 
is where it goes.
    So we need to support our industrial base in the United 
States to make sure we can do this for the long-term and again 
take a holistic look about all those items that are important 
to the U.S. National security.
    Mr. Guest. Thank you, sir.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much. The gentleman 
yields back.
    Mr. Gaynor, before we close the hearing, as you know, I 
have sent numerous letters to you around this topic. Before we 
adjourn, I need your commitment that all outstanding 
correspondence to you relative to this pandemic and any other 
issues by this committee will be answered.
    Mr. Gaynor. Yes, sir. You have my commitment. I think we 
talked previously about it. Unprecedented requests for 
information from many different people, Members of Congress. So 
we are working through all of them.
    Some of the challenges--and I am not trying to give an 
excuse--but some of the challenges, some of the information 
that you and other Members are looking for resides in other 
agencies. So trying to get that information cleared and up to 
you takes a little bit of time.
    We are still responding. So, again, we are trying to 
balance our response and all the other things that we must do. 
But I commit to you today that we will answer all letters 
fully.
    Chairman Thompson. Within? Can you give us a period of 
time?
    Mr. Gaynor. Well, I think there is a backlog of letters. So 
I think I am trying to answer the oldest ones first, and then 
as we work through that pile, we will get to answering.
    But, I mean, we are answering letters every day. It may not 
seem like that, but we do get them out the door. Again, 
unprecedented requests for information, 300 or more letters 
from Members of Congress, and we want to make sure we answer 
those thoroughly. Again, the information in some of those 
requests comes from other agencies. So it is a back and forth.
    Chairman Thompson. Well, there are just a couple of 
committees of jurisdiction that I think would have priority for 
your response that I hope you would give it.
    Mr. Gaynor. Yes, sir.
    Chairman Thompson. Some of the responses are several months 
old. So the information you have, just send that and say, 
``Look, I am trying to get the rest,'' but just not send 
anything else.
    Mr. Gaynor. I think we just did that. We answered some. It 
may have been incomplete, but I think we tried to get what we 
knew out the door. So we will continue to do that.
    Chairman Thompson. Well, I am glad you mentioned that. We 
just got a letter from you Monday, and it had no documents that 
we requested.
    So I think you would need to either talk to your team and 
say, ``We need to do better,'' because we are trying to do 
oversight, and in that role we can't do it without the 
information.
    Mr. Gaynor. Yes, sir.
    Chairman Thompson. We are just trying to get the 
information.
    Mr. Gaynor. Loud and clear, sir.
    Chairman Thompson. Thank you.
    The other issue is, for a lot of us, 140,000 Americans have 
died. That is a God-awful number. I think we are positioned for 
that number to go higher. But a lot of Members have come to the 
committee and said it just appears that we could do more to 
mitigate so much of what is going on, the wearing a mask, the 
social distancing that we are practicing here today. A lot of 
things.
    But it is the clear and coherent and consistent message 
that I think we need to get from everybody, that is from the 
White House to that reservist that worked for FEMA in the 
field. It is when we don't get that clear, consistent message 
we have a problem.
    I thank you for your service. But that 140,000 deaths is 
nothing any of us can be proud of. We have to address it.
    So I thank you for your testimony and the Members for their 
questions. The Members of the committee may have additional 
questions for you, and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Questions From Chairman Bennie G. Thompson for Peter T. Gaynor
    Question 1. Has FEMA set aside PPE and other critical pandemic 
response supplies for evacuee and emergency response personnel in 
conjunction with the agency's response to a natural disaster?
    Answer. Response was not received at the time of publication.
    Question 2. What is FEMA doing to ensure ample isolation sheltering 
facilities are available for COVID-19 patients during a natural 
disaster?
    Answer. Response was not received at the time of publication.
    Question 3. Has FEMA recommended an increase in the current 
reimbursement level for State and local pandemic response efforts? If 
so, why has the level not been increased?
    Answer. Response was not received at the time of publication.
    Question 4. Given the current state of the pandemic, and FEMA's own 
suspension of in-person trainings, what metrics is FEMA using to 
determine when to resume in-person training?
    Answer. Response was not received at the time of publication.
    Question 5. What support is FEMA prepared to provide to schools 
across the country that reopen?
    Answer. Response was not received at the time of publication.
    Question 6a. As part of their requests for major disaster 
declarations, many States have requested FEMA turn on its suite of 
Individual Assistance programs, which include things like disaster 
unemployment assistance and disaster legal services.
    Has FEMA provided a recommendation to the White House on turning on 
Individual Assistance programs other than crisis counseling, and if so, 
what was that recommendation?
    Answer. Response was not received at the time of publication.
    Question 6b. Has the President officially made a decision on 
States' requests for Individual Assistance? If not, when will a 
decision be made?
    Answer. Response was not received at the time of publication.
    Question 6c. Are there specific factors that FEMA is using to 
determine whether other Individual Assistance programs will be 
necessary during this pandemic? If so, what are they?
    Answer. Response was not received at the time of publication.
    Question 7a. On April 30, President Trump said that, ``FEMA will 
send supplemental shipments of personal protective equipment to all 
15,400 Medicaid- and Medicare-certified nursing homes in America.''
    Did FEMA send supplemental shipments of PPE to 15,400 nursing 
homes?
    Answer. Response was not received at the time of publication.
    Question 7b. Are there any nursing homes that are experiencing any 
PPE shortages at the present time?
    Answer. Response was not received at the time of publication.
    Question 7c. If so, in what States are supply shortages occurring 
in nursing homes, what specific supplies are in shortage, and what are 
FEMA's plans to help alleviate these shortages?
    Answer. Response was not received at the time of publication.
    Question 8a. On June 11, CNN ran a story entitled, ``Nursing homes 
receive defective equipment as part of Trump administration supply 
initiative.'' Has FEMA received any complaints from any nursing homes 
regarding the quality of the supplies sent to them?
    How many complaints has FEMA received and from how many nursing 
facilities?
    Answer. Response was not received at the time of publication.
    Question 8b. Who procured these supplies and why was the quality 
not inspected before shipments were sent out?
    Answer. Response was not received at the time of publication.
    Question 8c. Has FEMA provided replacement supplies to any nursing 
home that received faulty supplies?
    Answer. Response was not received at the time of publication.
    Question 8d. What steps has FEMA taken to ensure that all supplies 
it provides meet quality standards and do not have flaws?
    Answer. Response was not received at the time of publication.
    Question 8e. Is FEMA planning to provide additional support to 
nursing homes?
    Answer. Response was not received at the time of publication.
    Question 8f. How is FEMA planning on holding contractors 
accountable for supplying unusable PPE, including PPE that was 
distributed to nursing homes?
    Answer. Response was not received at the time of publication.
    Question 9a. In June, FEMA announced that it was phasing out 
Project Airbridge because the supply chain for PPE in the United States 
was stabilizing. However, hospital workers are still reporting PPE 
shortages and having to reuse masks--sometimes for days--that are 
intended for single use. Industry experts have also warned of severe 
shortages in the raw materials needed to manufacture critical PPE, 
especially N95 masks and medical gowns. What analysis did FEMA conduct 
to assess the stability of the PPE supply chain?
    Answer. Response was not received at the time of publication.
    Question 9b. What data did FEMA rely on to conduct its analysis?
    Answer. Response was not received at the time of publication.
    Question 10. At the hearing on July 22, you stated the 
administration had used the Defense Production Act (DPA) ``deliberately 
. . . to make sure that we get what we need, at the right amount of 
time.'' Yet there has been no transparency into which DPA authorities 
have been invoked, by what agencies, and for what purposes. Provide a 
breakdown on how the Federal Government has used the DPA to procure or 
to increase the domestic production of PPE and other critical supplies, 
including details on the type, quantity, and production schedule of the 
supplies and where they are intended to go.
    Answer. Response was not received at the time of publication.
    Question 11a. Is there a comprehensive strategy in place to 
coordinate the use of DPA authorities across the Federal Government in 
response to COVID-19 and future pandemics?
    If yes, provide a copy of the strategy to the committee.
    Answer. Response was not received at the time of publication.
    Question 11b. If not, why not? How is the administration 
coordinating DPA actions across the Federal Government without a 
strategy?
    Answer. Response was not received at the time of publication.
    Question 12. During the July 22 hearing, you acknowledged there was 
global competition for PPE. Had there been a National procurement 
strategy, the United States could have competed as one purchaser rather 
than all States, Federal agencies, and other entities competing 
separately against other nations. Why was procurement of PPE and other 
supplies not consolidated under one Department to leverage the 
purchasing power of the Federal Government?
    Answer. Response was not received at the time of publication.
    Question 13. By the time the United States had wide-spread 
community transmission of COVID-19, every Federal agency was trying to 
procure pandemic supplies. FEMA, by its own admission, had no 
experience in procuring medical-grade equipment yet began its own 
campaign to acquire PPE alongside HHS and the Departments of Defense 
and Veteran's Affairs. Why did FEMA start making purchases when HHS and 
the Department of Defense and Veteran's Affairs already have expertise 
in purchasing medical equipment and could likely better navigate the 
market?
    Answer. Response was not received at the time of publication.
    Question 14. In May, FEMA announced it was shifting procurement of 
PPE to the Defense Logistics Agency. However, FEMA told committee staff 
in a briefing in July that this shift was to consolidate and leverage 
the Federal Government's purchasing power, but purchasing of equipment 
is still spread across agencies. For example, the Defense Logistics 
Agency is buying face shields, gloves, and gowns; HHS is buying 
domestically-produced N95 masks; and FEMA is buying foreign-produced 
N95 masks. Why is the procurement of supplies still not consolidated 
within the Federal Government?
    Answer. Response was not received at the time of publication.
    Question 15a. FEMA has struggled with awarding contracts in 
response to past disasters and has again awarded contracts for COVID-19 
supplies to inexperienced or unreliable companies. For example, FEMA 
canceled a $55 million contract to Panthera Worldwide--a tactical 
training company with no history in medical supply manufacturing or 
distribution--after it failed to deliver N95 masks. FEMA also had to 
warn States not to use testing equipment acquired under a $10 million 
contract because it was believed to be contaminated. Reports indicate 
that the company that produced the equipment--Fillakit--was formed just 
6 days prior to getting the contract by an ex-telemarketer who had 
repeatedly been accused of fraudulent practices over the past 2 
decades. Why is FEMA continuing to award contracts to companies without 
proven track records?
    Answer. Response was not received at the time of publication.
    Question 15b. What steps is FEMA taking to help its contracting 
officers properly vet companies?
    Answer. Response was not received at the time of publication.
    Question 16. Jared Kushner has touted contributions made by a group 
of non-Federal ``volunteers'' he brought in to locate and vet vendors 
for various pandemic supplies on behalf of FEMA procurement officials. 
However, news reports indicate this led to confusion with industry 
because his volunteers were communicating through personal email 
accounts. In a whistleblower complaint filed with the House Oversight 
Committee, one of the volunteers indicated that the group was 
overwhelmed by its assignment, given little instruction, and ultimately 
had little to show for their almost around-the-clock work. What 
guidance and oversight did FEMA provide Kushner's volunteers? Do you 
have copies of the correspondence they made on behalf of FEMA using 
their personal email accounts?
    Answer. Response was not received at the time of publication.
    Question 17. The committee has been advised that non-profits 
conducting disaster case management work in Puerto Rico are not being 
paid for services rendered. Non-profits, such as Endeavors, are still 
awaiting payment for services rendered that exceeded the initial grant 
funds resulting in multiple long, drawn-out bureaucratic appeal 
processes, jeopardizing critical services while putting them at 
unnecessary financial risk. What is FEMA's plan for quickly resolving 
these appeals and for ensuring that non-profits are paid for the work 
they complete?
    Answer. Response was not received at the time of publication.
     questions from ranking member mike rogers for peter t. gaynor
    Question 1. Has FEMA considered designating industrial laundry 
facilities as essential services after natural disasters including 
earthquakes, hurricanes, tornados, and during pandemics?
    Answer. Response was not received at the time of publication.
    Question 2. Has FEMA considered guidance or policy changes that 
balance the capabilities of reusable and disposable products in 
building stockpiles and other emergency preparedness measures, 
particularly to address supply chain issues?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
